<html>
<title> - THE NEXT GENERATION OF FUSION ENERGY RESEARCH</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                         THE NEXT GENERATION OF
                         FUSION ENERGY RESEARCH

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2009

                               __________

                           Serial No. 111-61

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
52-894PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                  HON. BRIAN BAIRD, Washington, Chair
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
EDDIE BERNICE JOHNSON, Texas         ROSCOE G. BARTLETT, Maryland
LYNN C. WOOLSEY, California          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
DONNA F. EDWARDS, Maryland           RANDY NEUGEBAUER, Texas
BEN R. LUJAN, New Mexico             MARIO DIAZ-BALART, Florida
PAUL D. TONKO, New York                  
JIM MATHESON, Utah                       
LINCOLN DAVIS, Tennessee                 
BEN CHANDLER, Kentucky                   
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  CHRIS KING Democratic Staff Director
         SHIMERE WILLIAMS Democratic Professional Staff Member
      ELAINE PAULIONIS PHELEN Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
            JETTA WONG Democratic Professional Staff Member
         ELIZABETH CHAPEL Republican Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                      JANE WISE Research Assistant
















                            C O N T E N T S

                            October 29, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........    10

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     8
    Written Statement............................................     8

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    13
    Written Statement............................................    13

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     9

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Energy and Environment, Committee on 
  Science and Technology, U.S. House of Representatives..........    10

Statement by Representative Lincoln Davis, Member, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................    11

Statement by Representative Vernon J. Ehlers, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     9

Statement by Representative Rush D. Holt, State of New Jersey, 
  12th District..................................................    11

                               Witnesses:

Dr. Edmund J. Synakowski, Associate Director for Fusion Energy 
  Sciences, Office of Science, U.S. Department of Energy
    Oral Statement...............................................    13
    Written Statement............................................    15
    Biography....................................................    22

Dr. Stewart C. Prager, Director, Princeton Plasma Physics 
  Laboratory
    Oral Statement...............................................    22
    Written Statement............................................    24
    Biography....................................................    33

Dr. Thomas E. Mason, Director, Oak Ridge National Laboratory
    Oral Statement...............................................    33
    Written Statement............................................    35
    Biography....................................................    39

Dr. Riccardo Betti, Professor, Mechanical Engineering & Physics 
  and Astronomy; Senior Scientist and Assistant Director for 
  Academic Affairs, Laboratory for Laser Energetics, University 
  of Rochester
    Oral Statement...............................................    39
    Written Statement............................................    41
    Biography....................................................    47

Dr. Raymond J. Fonck, Professor of Engineering Physics, 
  University of Wisconsin-Madison
    Oral Statement...............................................    48
    Written Statement............................................    49
    Biography....................................................    56

Discussion
  How Fusion Energy Becomes a Usable Resource....................    57
  Potential Consumer Prices for Fusion Energy....................    58
  Fusion as an Alternative to Other Energy Sources...............    59
  Arguments for Promoting Fusion Research........................    60
  National Security and Technical Elements of Plasmas in Reactors    61
  Fusion vs. Wind and Solar Energy...............................    64
  Electrifying Transportation....................................    64
  Skeptical Arguments............................................    65
  A Federal Agency Home for Inertial Fusion Research.............    67
  Fusion as an Unacceptable Substitute for Conservation..........    68
  Closing........................................................    69

              Appendix 1: Answers to Post-Hearing Quetions

Dr. Edmund J. Synakowski, Associate Director for Fusion Energy 
  Sciences, Office of Science, U.S. Department of Energy.........    72

             Appendix 2: Additional Material for the Record

Additional Testimony by Dr. Stewart C. Prager, Director, 
  Princeton Plasma Physics Laboratory............................    76

 
             THE NEXT GENERATION OF FUSION ENERGY RESEARCH

                              ----------                              


                       THURSDAY, OCTOBER 29, 2009

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                         The Next Generation of

                         Fusion Energy Research

                       thursday, october 29, 2009
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, October 29, 2009 the House Committee on Science and 
Technology, Subcommittee on Energy and Environment will hold a hearing 
entitled ``The Next Generation of Fusion Energy Research.''
    The Subcommittee will receive testimony on research activities 
conducted by the Department of Energy (DOE) Office of Science's Fusion 
Energy Sciences (FES) program, as well as its collaborations with DOE's 
National Nuclear Security Administration (NNSA). In addition, the 
Subcommittee will examine the status of international partnerships in 
fusion energy research.

Witnesses

        <bullet>  Dr. Edmund Synakowski is Director of FES. Dr. 
        Synakowski will testify on DOE's current fusion research 
        activities and his vision for how the program should evolve 
        over the next ten years.

        <bullet>  Dr. Stewart Prager is Director of the Princeton 
        Plasma Physics Laboratory (PPPL) in Princeton, NJ and former 
        Chair of DOE's Fusion Energy Sciences Advisory Committee 
        (FESAC). Dr. Prager will testify on PPPL's current and future 
        roles as a leading center of fusion energy research.

        <bullet>  Dr. Thom Mason is Director of Oak Ridge National 
        Laboratory (ORNL) in Oak Ridge, TN. Dr. Mason will describe the 
        current status of the ITER international fusion project and the 
        role of ORNL as the headquarters of the U.S. ITER Project 
        Office.

        <bullet>  Dr. Riccardo Betti is an Assistant Director of the 
        University of Rochester's Laboratory for Laser Energetics in 
        Rochester, NY and former Chair of the National Academies Plasma 
        Science Committee. He was also Chair of a 2009 DOE report on 
        ``Advancing the Science of High Energy Density Laboratory 
        Plasmas.'' Dr. Betti will testify on the status of inertial 
        fusion energy (IFE) research and his vision for how DOE should 
        steward IFE over the next ten years.

        <bullet>  Dr. Raymond Fonck is a Professor of Engineering 
        Physics at the University of Wisconsin-Madison and former 
        Director of FES. He was also Chair of the 2004 National 
        Academies report ``Burning Plasma: Bringing a Star to Earth.'' 
        Dr. Fonck will testify on his experience as FES Director and 
        his vision for a viable U.S. fusion program over the next 
        several decades.

Background

    Fusion is the process that powers the sun and the stars, and U.S. 
scientists have investigated ways to replicate this process here on 
Earth for over 50 years. Research into fusion for military purposes 
began in the early 1940s as part of the Manhattan Project, but was not 
successful until 1952. Research on creating controlled fusion devices 
to meet growing demands for new energy sources began in the 1950s, and 
continues to this day. In one type of this reaction, two atoms of 
hydrogen combine together, or fuse, to form an atom of helium. In the 
process some of the mass of the hydrogen is converted into energy, 
following Einstein's formula: E (Energy) = m (mass) times c (the speed 
of light) squared. The easiest fusion reaction to artificially recreate 
combines deuterium (a ``heavy'' form of hydrogen as it includes both a 
proton and a neutron\1\ ) with tritium (made up of a proton and two 
neutrons--the heaviest form of hydrogen found in nature) to make helium 
and a neutron. Deuterium is plentifully available in ordinary water, 
and tritium can be produced by combining a fusion neutron with the 
relatively abundant lithium atom. Thus, if its significant remaining 
scientific questions and engineering challenges can be overcome, fusion 
may have the potential to be a practically inexhaustible source of 
energy.
---------------------------------------------------------------------------
    \1\ See charter for hearing entitled Investigating the Nature of 
Matter, Energy, Space, and Time held on October 1st, 2009 for further 
explanation of ``protons'' and ``neutrons,'' which are the primary 
constituents of an atom's nucleus.
---------------------------------------------------------------------------
    All nuclei in atoms are positively charged, so they have a natural 
electromagnetic repulsion pushing them apart. This is because, while 
opposite charges attract, like charges repel. Thus to induce the fusion 
process, hydrogen gas is typically heated to very high temperatures 
(100 million degrees or more) to give the atoms sufficient energy to 
overcome this repulsion and fuse. In the process the gas becomes 
ionized, meaning that atomic nuclei and their electrons have too much 
energy to stay bound to each other as neutrally charged atoms. Thus 
what is known as a plasma is formed. Plasmas are considered the fourth 
state of matter, after solids, liquids, and gases. Plasmas are unique 
from normal gases because large portions of them are either unbound 
electrons or charged nuclei (ions), so they can be manipulated by 
electric and magnetic fields. If a very hot plasma is held together 
(i.e., confined) long enough, then the sheer number of fusion reactions 
may produce more energy than what's required to heat the gas, 
generating excess energy that can be used for other applications. The 
sun and stars do this with gravity. Artificial approaches on Earth 
include magnetic confinement, in which a strong magnetic field holds 
the plasma together while its ions and electrons are heated by 
microwaves or other energy sources, and inertial confinement, where a 
tiny pellet of frozen hydrogen is compressed and heated by intense 
pressure so quickly that fusion occurs before the deuterium and tritium 
atoms can fly apart from each other. This level of pressure may be 
attained by utilizing a powerful laser or a heavy ion beam.
    If successful, fusion devices for energy production are expected to 
be relatively environmentally friendly, producing no combustion 
products or greenhouse gases. While fusion is a nuclear process, the 
products of a fusion reaction are not intrinsically radioactive and 
cannot themselves be weaponized. Relatively short-lived radioactive 
material (100 years, compared to thousands of years for some nuclear 
fission products) would result from interactions of the fusion products 
with the reactor wall. A long-term, large-scale geologic repository for 
waste from fusion would be unnecessary. Fusion also is not dependent on 
chain reactions that must be constantly monitored and regulated, so 
there should be no danger of a runaway process leading to a reactor 
meltdown.
    The above are the major reasons why most industrialized nations 
pursue fusion research today. However, several significant questions in 
this field remain, including:

Can we adequately control a fusion plasma--meaning a plasma that 
receives a significant portion of its heat from its own fusion 
reactions?

Given the intense heat and neutron flux expected inside a reactor, what 
material(s) should be used in the first wall facing a fusion plasma?

Even if all fundamental technical challenges are overcome, how 
economical can a fusion reactor be in comparison to other energy 
options?

    And specifically with regard to inertial fusion:

Can we actually build a system that perfectly implodes and recovers 
energy from 10 pellets of hydrogen per second--the currently estimated 
rate necessary to produce significant net energy?

DOE Office of Science--Fusion Energy Sciences (FES)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    FES is the lead program in the Federal Government that supports 
research in the science and engineering required to magnetically 
confine plasmas for the purposes of generating net fusion energy. It is 
also the lead program that stewards basic research in plasma science, 
which has applications in a broad range of areas from microchip 
processing to astrophysics. In addition, FES examines the science 
underlying what are called ``high energy density laboratory plasmas,'' 
or HEDLP, which are relevant to current and proposed inertial fusion 
energy facilities. However, the Federal Government currently has no 
official steward of research in inertial fusion for the purposes of 
energy generation. This will be described in greater detail in the 
section on the National Ignition Facility below.

ITER
    ITER (pronounced ``eater'') is a major international research 
project with the goal of demonstrating the scientific and technological 
feasibility of nuclear fusion energy. ITER was originally an acronym 
for International Thermonuclear Experimental Reactor, but that title 
was later dropped due to the potentially negative popular connotation 
of the word ``thermonuclear.'' The project's leaders now note that iter 
also means ``the way'' in Latin. The project is being designed and 
built by the members of the ITER Organization: the European Union, 
India, Japan, China, Korea, Russia, and the United States, with 
additional partner nations currently under consideration. The ITER 
Organization was formally established on October 24th, 2007 following 
ratification of the ITER International Agreement by all current 
members. The device will be built at Cadarache in southeastern France 
with the European Union serving as the host party, and it is scheduled 
to begin preliminary operations in 2018.
    By roughly 2025, ITER is expected to generate fusion power that is 
at least 10 times greater than the external power delivered to heat its 
plasma. The project is designed to be the top scientific tool for 
exploring and testing expectations of plasma behavior in what is called 
the burning plasma regime, wherein the fusion process itself provides 
the primary heat source to sustain its high temperatures. A clear and 
comprehensive understanding of this type of plasma is needed to 
confidently extrapolate its behavior and related control technologies 
beyond ITER to a reliable fusion power plant.
    The United States will primarily contribute hardware components and 
personnel during ITER's construction phase, with nearly all of these 
components being manufactured in the U.S. and then shipped to 
Cadarache. Throughout this phase, the United States is an equal, non-
host partner responsible for about nine percent of its total 
construction cost, though this cost may decrease if additional partners 
are added to the ITER Organization. DOE currently estimates the total 
U.S. cost in as-spent dollars to be between $1.45 and $2.2 billion, 
with an official baseline expected to be determined and announced over 
the next year. However, the total international cost for the project 
has not been determined because different partners use very different 
accounting practices for their contributions. For example, many do not 
include contingency, labor, and in some cases not even inflation in 
their announced estimates.
    The U.S. ITER Project Office is hosted by Oak Ridge National 
Laboratory in partnership with Princeton Plasma Physics Laboratory and 
Savannah River National Laboratory. Oak Ridge was chosen by the 
Department of Energy in large part because its recently commissioned 
Spallation Neutron Source facility is considered to be a major success 
in billion-dollar level project planning and execution, and the lab is 
employing nearly the same management and acquisitions team for the U.S. 
ITER contribution.
    In FY 2010, the U.S. plans to provide contributions valued at $135 
million for the ITER project, which is included in the Facility 
Operations budget line in Table 1.

Science
    FES's Science subprogram includes several activities, much of which 
involve research in the leading configuration for magnetic fusion 
devices--including ITER--called the tokamak. Tokamaks, first conceived 
of by Russian scientists in the 1950s, are devices that are essentially 
toroidally (i.e., doughnut) shaped at their core. External coils induce 
magnetic fields which wind around the inside of the toroid and confine 
the hot plasma within. The U.S. hosts three major magnetic fusion 
facilities, two of which are tokamaks and one is known as a ``spherical 
torus,'' which is essentially a uniquely shaped tokamak that, at its 
core, appears to be a ball which a narrow hole down its middle. These 
facilities include:

        <bullet>  DIII-D (pronounced ``D. 3. D.'')--This tokamak 
        operated by General Atomics in San Diego, CA is the largest 
        magnetic fusion facility in the United States. It is also 
        geometrically the closest to the ITER configuration. DIII-D has 
        unique capabilities to shape its plasma and provide feedback 
        control of errant magnetic fields that affect the stability of 
        the plasma.

        <bullet>  Alcator C-Mod (pronounced ``ALKator See Mahd'')--This 
        facility at the Massachusetts Institute of Technology is the 
        only tokamak in the world operating at and above the ITER 
        design magnetic field and plasma densities. It also produces 
        the highest pressure tokamak plasma in the world, approaching 
        pressures expected in ITER, allowing for materials testing 
        relevant to both ITER and an eventual fusion power plant.

        <bullet>  The National Spherical Torus Experiment--NSTX is a 
        unique magnetic fusion device that was constructed by the 
        Princeton Plasma Physics Laboratory (PPPL) in collaboration 
        with the Oak Ridge National Laboratory, Columbia University, 
        and the University of Washington at Seattle. Its spherical 
        torus configuration may have several advantages over 
        conventional tokamaks, a major one being the potential ability 
        to confine a higher plasma pressure for a given magnetic field 
        strength, which could enable the development of smaller, more 
        economical fusion reactors.

    In addition to direct research on these facilities, the Science 
subprogram also supports research in:

        <bullet>  Non-tokamak magnetic fusion concepts and experiments 
        of various sizes and shapes at several universities and 
        national laboratories

        <bullet>  High Energy Density Laboratory Plasmas (HEDLP), which 
        are relevant to current and proposed inertial fusion facilities 
        as well as the understanding of various astrophysical phenomena 
        such as supernovae

        <bullet>  Theory and advanced simulation of fusion plasma 
        behavior

        <bullet>  Basic plasma science

Facility Operations
    The mission of the Facility Operations subprogram is to provide for 
the operation, maintenance, and enhancements of the three major fusion 
research facilities--DIII-D, Alcator C-Mod, and NSTX--to meet the needs 
of the scientific collaborators using the facilities. In addition, this 
subprogram is responsible for the execution of new projects and 
upgrades of major fusion facilities, such as installation of new 
diagnostics, in accordance with the Office of Science's project 
management standards and with minimum deviation from approved cost and 
schedule baselines. As noted above, Facility Operations also includes 
the U.S. contributions to the ITER project.

Enabling R&D
    The Enabling R&D subprogram focuses on developing and continually 
improving the hardware, materials, and technology that are incorporated 
into existing fusion research facilities, thereby enabling these 
facilities to achieve higher levels of performance within their 
inherent capability. Enabling R&D efforts also develop near-term 
technology advancements enabling U.S. researchers, through 
international collaborations, to access plasma conditions not available 
in domestic facilities. In addition, this subprogram supports the 
development of new hardware, materials and technology that are 
incorporated into the design of next generation facilities to increase 
confidence that the predicted performance of these new facilities will 
be achieved.

National Ignition Facility and Inertial Fusion Energy Research

    The National Ignition Facility (NIF), located at Lawrence Livermore 
National Laboratory in Livermore, CA, is the largest inertial fusion 
facility in the world. Its construction was certified complete on March 
31, 2009, and the facility was officially dedicated on May 29, 2009 
with experiments beginning in June. NIF's construction was supported 
entirely by DOE's National Nuclear Security Administration (NNSA), not 
FES. The total cost to build the facility was approximately $3.5 
billion. Its primary mission is to produce data relevant to ensuring 
the reliability of the U.S.'s nuclear weapons stockpile through the 
study of controlled fusion events similar to the detonation of a 
thermonuclear warhead.
    To do this, NIF's designers created the world's largest and 
highest-energy laser, which can be used to form 192 powerful laser 
beams. In 2010, NIF will begin experiments that will focus all of these 
beams on a BB-sized target filled with deuterium and tritium fuel. 
NIF's researchers believe that by 2012, they will be able to 
consistently implode these pellets, igniting the fusion process and 
creating the first man-made fusion system to produce more energy than 
it uses.
    While this facility was not primarily designed for energy research 
applications, the achievement of net fusion energy production in NIF 
may become strong justification for a significant inertial fusion 
energy program. At this time, however, neither NNSA nor FES, nor DOE as 
a whole, has determined which (if either) subagency would take a 
leading role in developing such a program, nor determined how such a 
program would be stewarded in the future. Until FY09, a small inertial 
fusion energy research program had been funded solely through 
Congressional direction at NNSA. Recently, in the FES section of the 
Conference Report for the Energy and Water Development Appropriations 
Act, 2010, DOE was directed to review an inertial fusion energy 
research project at the Naval Research Laboratory and report on its 
findings within 60 days. The Conference Report also states: ``The 
conferees encourage the Secretary to explore all possible opportunities 
to ensure that this program, which offers unique potential for long-
term energy independence, is not abandoned for lack of a bureaucratic 
home.''
    Chairman Baird. This hearing will now come to order.
    I want to wish everyone a good morning and welcome them to 
our hearing on the next generation of fusion energy research. 
Before we get started, we have Congressman Rush Holt of New 
Jersey with us in the Committee today. If there is no 
objection, I would ask unanimous consent that he join us on the 
dais. Hearing no objections, so ordered. Thank you for being 
here, wherever--where is Rush? Oh, hey Rush. Come on up. We 
will begin today--Rush, thank you for joining us. Your 
expertise will be much appreciated on this committee along with 
that of Dr. Ehlers.
    Fusion energy has successfully powered the sun and the 
stars for billions of years, so it is no surprise that 
humankind has tried to recreate and harness this energy here on 
Earth. However, we all know that a working fusion reactor has 
been much more difficult to achieve than our Atomic Age 
scientists initially expected. Over the years, there were also 
some overly optimistic or even, in some cases, fraudulent 
proclamations by folks who skipped the peer review process and 
went straight to the media, which has further complicated the 
popular and political assessment of the extent to which the 
Federal Government should continue to support this research.
    That said, however, according to recent reviews by the 
National Academies and the Department of Energy, there have 
been significant developments in the fields of advanced 
computing, engineering and plasma science over the last 20 
years that have led to a far better understanding of how to 
create and control a fusion system. Within about three years 
time, the National Ignition Facility in California is expected 
to become the first fusion device in the world to produce more 
energy than it consumes, though only for at most a handful of 
brief experiments per day. In Cadarache, France, the large 
international fusion project called ITER is about to begin 
construction. This experiment is designed to produce five times 
more energy than it consumes for several consecutive hours--I 
think my children already do that, however, they are four and a 
half years old, and I swear they put more energy out than they 
consume--as well as 10 times more for at least 500 seconds. 
That is the expectation, at any rate.
    If these new facilities are successful, they will represent 
a dramatic turning point in developing a viable commercial 
fusion reactor. Big questions still remain, however, such as 
how affordable fusion can be in comparison to other options 
that are known already to produce greater amounts of energy, 
and what the appropriate choices are for materials in a device 
which contains gases that can be hotter than the sun. But the 
U.S. fusion program needs to do all it can to ensure these 
successes and be ready to take advantage of them if and when 
they occur.
    I look forward to learning more from this excellent panel 
of witnesses on how this program should evolve in light of 
recent developments.
    [The prepared statement of Chairman Baird follows:]
               Prepared Statement of Chairman Brian Baird
    Fusion energy has successfully powered the sun and the stars for 
billions of years, so it's no surprise that man would try to recreate 
and harness this energy source here on Earth. However, we all know that 
a working fusion reactor has been much more difficult to achieve than 
our atomic age scientists initially expected. Over the years, there 
were also some overly optimistic or even fraudulent proclamations by 
self-identified fusion researchers who skipped the peer review process 
and went straight to the media, further complicating the popular and 
political assessment of the extent to which the Federal Government 
should continue to support this research.
    That said, according to recent reviews by the National Academies 
and the Department of Energy, there have been significant developments 
in the fields of advanced computing, engineering, and plasma science 
over the last twenty years that have led to a far better understanding 
of how to create and control a fusion system. Within about three years 
time, the National Ignition Facility in California is expected to 
become the first fusion device in the world to produce more energy than 
it consumes, though only for at most a handful of brief experiments per 
day. And in Cadarache, France, the large international fusion project 
called ITER is about to begin construction. This experiment is designed 
to produce five times more energy than it consumes for several 
consecutive hours, as well as 10 times more for at least 500 seconds.
    If these new facilities are successful, they will represent a 
dramatic turning point in developing a viable, commercial fusion 
reactor. Big questions will still remain, such as how affordable fusion 
can be in comparison to other options, and what the appropriate choices 
are for materials in a device which contains gases that can be hotter 
than the sun. But the U.S. fusion program needs to do all it can to 
ensure these successes, and be ready to take advantage of them if and 
when they occur.
    I look forward to learning more from this excellent panel of 
witnesses on how this program should evolve in light of recent 
developments, and with that I yield to our distinguished Ranking 
Member, Mr. Inglis.

    Chairman Baird. We are waiting for Mr. Inglis but I would--
how would you like to proceed, Vern? Do you want to make an 
opening comment or----
    Mr. Ehlers. Thank you, Mr. Chairman. I am just sitting in 
briefly for the Ranking Republican on this committee, who will 
make a grand entrance shortly, I am sure.
    But I really appreciate, Mr. Chairman, you holding this 
hearing. This is an issue that has really dominated long-range 
energy thinking for many years but has had very little public 
successes to back up the standing that they had hoped to 
achieve, and I hope, sincerely hope that we can learn a lot 
more about fusion and energy not only in this hearing but in 
the next five years and really be able to put it in its 
rightful place in the hierarchy of energy alternatives that we 
should be pursuing. It is clear to us that we have to take a 
different approach in our society in terms of the generation 
and use of energy. We know much of what we have to do to change 
our use of it. We even know a great deal about what we have to 
do to develop alternative methods of producing usable energy 
but we certainly don't know as much as we need to know about 
fusion energy and what role it can and should play in the 
future.
    So I thank you for holding this hearing, and I will yield 
back.
    Chairman Baird. Thank you, Dr. Ehlers.
    If other Members wish to submit additional opening 
statements, those statements will be added to the record, and 
of course, when Mr. Inglis arrives we will accept his statement 
as well.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good Morning. Thank you, Mr. Chairman, for holding today's hearing 
to examine the fusion energy research activities conducted by the 
Department of Energy's (DOE) Office of Science.
    In order to develop a sustainable energy policy we must develop and 
demonstrate sources of energy that will reduce our dependence on 
foreign oil, improve our greenhouse gas emissions, and satisfy our 
energy needs. Fusion energy should play an integral role in providing a 
substantial amount of clean, domestic energy to our communities and 
industry without the risks of nuclear energy.
    I am interested to hear from our witnesses today how this committee 
can work with DOE to ensure that we are using cutting-edge technology 
and providing appropriate levels of funding for fusion energy research. 
In particular, what timelines are in place to move current research 
efforts to the development and demonstration and eventually to large-
scale commercialization. In addition, I would like to learn more about 
the international research collaborations on fusion energy and how this 
committee and the Federal Government can work with the international 
community on fusion research efforts while continuing to take the lead 
on these important efforts.
    I welcome our panel of witnesses, and I look forward to their 
testimony. Thank you again, Mr. Chairman.

    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Mr. Chairman I would like to thank you and the Ranking Member for 
holding this important hearing today on the future of fusion energy 
research.
    I am please to welcome our witnesses, and look forward to their 
testimony.
    Fusion energy is one of the most innovative and essential research 
projects occurring in this country and around the world.
    As a safe, abundant and clean form of energy, the future of fusion 
is truly the future of energy independence in America.
    Since the development of nuclear weapons in the 1940s, we've been 
working on research to harness that type of power into an energy 
source.
    While fission has been successfully developed, fusion has proved 
more elusive.
    There are currently several pivotal projects in fusion energy 
research.
    One of those projects that I remain most interested and optimistic 
about is the international ITER (pronounced eater) research project.
    The research they are doing in plasma behavior should prove 
essential in the generation of fusion power.
    I am also interested in hearing about our domestic magnetic fusion 
research and facilities. They are playing a key role in many aspects of 
the future of fusion.
    I look forward to hearing more about this project from our 
witnesses.
    I am pleased that the Science Committee is holding this hearing 
today and believe we need to continue to take a proactive role in 
encouraging Congress and the Administration to invest more in energy 
research and development.
    Witnesses, many of you represent the future of innovation in energy 
research. Once again, I welcome you and appreciate your contributions 
to today's hearing.
    Thank you, Mr. Chairman. I yield back.

    Chairman Baird. At this point it is my pleasure to 
introduce our extraordinarily distinguished panel of expert 
witnesses. Dr. Edmund Synakowski is the Director of the Office 
of Fusion Energy Science at the U.S. Department of Energy. Dr. 
Riccardo Betti is the Assistant Director of Academic Affairs 
for the Laboratory for Laser Energetics at the University of 
Rochester. Dr. Raymond Fonck is a Professor of Engineering 
Physics at the University of Wisconsin, and I will yield to our 
distinguished Chairman and then following that--well, I was our 
distinguished Chairman. I will yield to--oh, Bart, I didn't see 
you were here. It is our distinguished Chairman, Mr. Gordon. I 
didn't see you. Mr. Gordon is here, of course, to introduce Dr. 
Thom Mason, Director of Oak Ridge National Lab.
    Chairman Gordon. Thank you, Dr. Baird, and, you know, as I 
have said before, you have been the workhorse, this has been 
the workhorse Subcommittee for our Full Committee, and I thank 
you for another very excellent hearing with an outstanding 
group of witnesses. Thank you all for coming.
    I am pleased to have the opportunity to welcome to the 
Subcommittee today an adopted Tennessean and the Director of 
the Oak Ridge National Lab, Dr. Thom Mason. Dr. Mason earned 
his Ph.D. in experimental condensed matter physics, something 
that Mr. Davis and I talk a lot about. After touring the world, 
he came to Oak Ridge in 1998, and in 2001 he was named Director 
of the lab's Spallation Neutron Source project, an impressive 
$1.4 billion project that was finished on time and under budget 
and at Oak Ridge now. Then later in 2007 he became Director of 
the lab at Oak Ridge. He is going to describe today his 
critical role in managing the U.S. contribution to the ITER 
reactor. They are in east Tennessee, I am in middle Tennessee, 
but Mr. Davis represents many of the folks that work there so I 
will yield to Mr. Davis to pander for a few minutes.
    Mr. Davis. I am glad you said a few minutes. It takes me a 
long time to get words out. I speak a little bit slower than 
perhaps some folks.
    Mr. Chairman, thank you for the work that you do on this 
committee and we in Tennessee are certainly lucky and very 
proud of the accomplishments that you have, and Bart and I 
represent an area that has in it the Cumberland Mountains, and 
our folks there say they are proud to say they have two 
Congressmen. I think they are prouder of Bart Gordon probably 
than of me since he is Chairman of this committee.
    I would like to add to what comments you just made, and I 
would like to add that Oak Ridge is a pillar of the community 
in Tennessee, supporting world-leading research initiatives in 
energy, environment, national security and computing as well as 
providing good jobs and performing educational outreach to our 
students. We are lucky to have this critical scientific 
resource in our region with such an accomplished and dedicated 
scientist and leader as you are. Dr. Mason, I am very happy 
that you are here today to provide valuable insights on the 
future of fusion research, both at Oak Ridge and abroad. I look 
forward to your continued strong leadership at this laboratory 
in Oak Ridge. It has been great working with you, and as I 
travel to Oak Ridge to the lab, or whether its at the 
Spallation Neutron Source or the NNSA (National Nuclear 
Security Administration) at Y-12, I realize that this area of 
the world, this area of America, and this part of Tennessee, 
has been a valuable asset in scientific research and will 
continue under your leadership. Thank you for being here.
    Chairman Baird. I thank our Oak Ridge boys for their 
introduction. I apologize to the Chairman. I hadn't seen you 
here, Mr. Chairman, so I was puzzled by what appeared to be a 
strange third-person self-reference here.
    I would now be happy to recognize our guests at the 
Committee, Representative Rush Holt, to introduce our last 
witness, and Mr. Holt will be followed by Dr. Ehlers, who 
wishes to offer comments as well.
    Mr. Holt. I thank the Chair and I am pleased to be with you 
and my distinguished colleagues today, and also with the 
distinguished panel. I have been asked to introduce Dr. Prager, 
and I could equally well spend time introducing and praising 
Dr. Synakowski, Dr. Fonck, all three of whom have been 
constituents in the 12th Congressional District in New Jersey, 
but more importantly, all three of whom have been leaders, 
world leaders, in advancing plasma physics and fusion sciences. 
They all have contributed to what we now see, the promise of 
fusion with essentially unlimited, globally available 
ingredients, with great environmental attractiveness, with no 
harmful emissions or high-level radioactive waste or connection 
to proliferations of weapons materials--in other words, a 
technology well worth undertaking. They have--they will be well 
prepared to address today how realistic and practical this may 
be, I would say at least possibly and I would go as far as to 
say probably. The progress has been great by any measure 
exceeding predictions. Certainly if you look at achievements 
per dollar spent, in power contained, millions of watt and 
plasma sustained, improvements by factors of hundreds of 
thousands to what amounts to an eternity in plasma lifetimes, 
development of an entire new field of science, plasma physics, 
with theoretical and practical contributions, not just to 
materials and engineering and science but to daily lives. The 
progress, the promise, the justification of spending taxpayer 
dollars, significant taxpayer dollars, have been recognized by 
domestic and international advisory committees, in some cases 
on which our panelists have served or which they have chaired, 
and also recognized by the actions of many other countries. It 
is worth noting as we talk about the fusion energy program in 
the United States that the United States was once for decades 
the world leader. We could be again. We should be again for a 
lot of reasons. If we are, it will be in part because of the 
work of some of these panelists.
    Dr. Prager has worked at a number of the places where this 
significant work has been done: General Atomics in San Diego, 
Columbia University in New York, University of Wisconsin for 
many years, and he has chaired the Fusion Energy Advisory 
Committee, and he has chaired the Division of Plasma Physics of 
the American Physical Society. You will notice I spoke earlier 
of creating an entirely new field of science growing out of the 
work of Lyman Spitzer at Princeton 40, 50 years ago now. Dr. 
Prager also served as President of the University Fusion 
Association, so he represented the large academic contributions 
of this field as well. He is a recipient of the Dawson Prize 
and the Leadership Award of Fusion Power Associates. So I am 
pleased to introduce Dr. Prager but also commend to you, all of 
the panelists, whom I know personally and cannot praise highly 
enough. Thank you.
    Chairman Baird. Thank you, Dr. Holt.
    Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman, just a brief comment 
in view of the comments of the two gentlemen from Tennessee 
sitting on the dais here and especially to our chairman, Mr. 
Gordon. When he was making--they were making their comments 
about Oak Ridge, it suddenly occurred to me, it has been at 
least 30 years since I have been to Oak Ridge. It has been 
probably 20 since I have been to Argonne and 10 since I have 
been to Fermilab. Members of the Committee, these are the crown 
jewels of our research effort, and I think Members of the 
Committee should be visiting these laboratories more often. So 
my plea to Chairman Gordon is, perhaps we could start 
organizing CODELs where Members of the Committee can go visit 
the national labs on a rotating basis. I think it would be 
extremely beneficial for the Members of the Committee. Yield 
back.
    Chairman Baird. I hear there are visa problems for some of 
us to get into Oak Ridge.
    We have been joined by the Ranking Member, Mr. Inglis, and 
we will recognize him. First we will welcome him. I know he had 
a panel he was attending prior to this so I appreciate his 
presence, and thank you, Dr. Ehlers, for so ably filling the 
role in the absence of Mr. Inglis. Welcome.
    Mr. Inglis. Thank you, Mr. Chairman.
    Well, I think that Dr. Ehlers filled in very well and I 
thank you, Dr. Ehlers, for filling in. I am looking forward to 
hearing the testimony because it is very important and very 
exciting. The key question is how to make it work. So looking 
forward to learning more from you.
    So thank you, Mr. Chairman, for holding the hearing.
    [The prepared statement of Mr. Inglis follows:]
            Prepared Statement of Representative Bob Inglis
    Good morning and thank you for holding this hearing, Mr. Chairman.
    It's probably fair to say that when it comes to fusion, we're 
talking about the Holy Grail of energy. For the past 50 years, fusion 
has given us hope as an abundant, clean, secure, and safe source of 
energy. We've been investing in that hope, learning more about fusion 
and gaining critical technical knowledge. We've also identified more 
questions that need answering to turn fusion into the energy solution 
we're looking for.
    Today our witnesses will help us understand where we stand on the 
road to fusion power. The recent capital investments in the National 
Ignition Facility at Lawrence Livermore National Lab and the 
international ITER project have been substantial. We need to understand 
what these investments will deliver and if these types of investments 
are getting the most out of scarce federal dollars. We also need to 
identify where the unique intellectual capital and innovative power of 
the United States should be put to work to crack the code to fusion 
energy.
    I'd like to think that if we play our cards right, the materials, 
devices, and technologies necessary to turn fusion into electricity can 
be developed right here at home. That's why I joined Rep. Lofgren in 
co-sponsoring the Fusion Energy Science and Fusion Energy Planning Act 
of 2009. This bill will strengthen our fusion engineering research 
program and prepare the U.S. to lead on key research areas.
    I'm hopeful that we'll find the way to practical fusion energy, but 
I also realize that it must be proved. I hope our witnesses can help us 
balance the marvelous prospect of a fusion-powered economy tomorrow 
with the responsibility to bring reliable forms of power to the market.
    Mr. Chairman, thank you again for holding this hearing. I look 
forward to hearing from the witnesses and I yield back the balance of 
my time.

    Chairman Baird. One of the things I greatly respect about 
Mr. Inglis is, he recognizes when everybody has said everything 
and he doesn't have to say it again. That is a rare quality in 
Congress, and with that, we will proceed to our experts and I 
will begin with Dr. Synakowski. Thank you very much.

 STATEMENT OF DR. EDMUND J. SYNAKOWSKI, ASSOCIATE DIRECTOR FOR 
 FUSION ENERGY SCIENCES, OFFICE OF SCIENCE, U.S. DEPARTMENT OF 
                             ENERGY

    Dr. Synakowski. Thank you, Mr. Chairman, Ranking Member 
Inglis and Members of the Committee.
    I have been Director of the Federal Fusion Energy Sciences 
Program since June 7 of this year, and I am thrilled to join 
this office when the scientific readiness, opportunity and 
urgency of fusion are extraordinarily resonant.
    The pursuit of fusion energy embraces the challenge of 
bringing the power of a star to Earth. Fusion's promise is 
enormous--nearly limitless fuel supplies, large-scale energy 
production, no greenhouse gas emissions. We are entering a new 
age in fusion science during which our knowledge base will be 
put to the test as researchers will undertake a fundamental set 
of new studies of fusion energy's viability.
    At the heart of fusion energy in the stars and on Earth is 
the world's most famous equation, E = MC<SUP>2</SUP>, which 
describes the fundamental relationship between mass and energy. 
The challenge is getting atomic nuclei of the fuel to bind 
together to form heavier elements, releasing enormous 
quantities of energy in the process. In the lab we use hydrogen 
isotopes as the fuel, and I have had the privilege of being 
part of experiments that have generated millions of watts of 
fusion power.
    The science underpinning much of fusion energy research is 
plasma physics. Plasmas are hot gases, the stuff of stars, and 
over 99 percent of the visible universe, lightning, flames. 
Plasmas are routinely confined by magnetic fields and heated in 
laboratories to fusion conditions. The tokamak, a Russian 
invention from the 1960s, is studied worldwide and is the 
leading candidate ``magnetic bottle'' for creating fusion 
energy.
    Dramatic progress prompted the National Academy of Sciences 
in 2004 to urge the United States to take a landmark step: it 
should participate in a fusion experiment in which the plasma 
burns, or generates more energy than is used to heat it 
externally and in large part, heats itself. In response, the 
United States agreed to participate in the ITER project to be 
built in Cadarache, France. We view ITER as a scientific 
instrument with the flexibility to reveal critical requirements 
for fusion's optimization. The seven members of ITER are China, 
the European Union, India, Japan, Russia, South Korea and the 
United States. Construction will take place over the next 
decade with burning plasma experiments slated to take place in 
the 2020s. The United States is committed to bringing a strong 
and effective approach to project management in ITER's design 
and construction.
    Another approach to fusion is to compress the fuel 
extremely rapidly and to rely on its inertia to confine it long 
enough for fusion to occur. This is being studied by the 
National Nuclear Security Administration (NNSA) for stockpile 
stewardship applications and a joint program to study this 
extraordinary state of matter is being forged between NNSA and 
my office that will engage a broad array of laboratories and 
universities. Tests of this approach are being planned for the 
National Ignition Facility. If successful, they will be 
historic. The National Academy of Sciences has emphasized the 
importance of studying this plasma state to both energy 
research and to a rich array of scientific questions.
    ITER's success, its chances of success and our prospects 
for deep scientific return are intimately interwoven with a 
broad domestic research program in the fusion-related sciences. 
In the United States, our multi-institutional program in 
experiment, theory and computation is rich in discovery and 
impact. It is globally respected for its depth, accomplishment 
and scientific aesthetic and has had a major impact on the ITER 
design and research plan. Research is supported in 38 states at 
national labs, private industry and about 60 universities. U.S. 
researchers participate in about 75 joint international 
activities and about 340 graduate students partake in fusion 
energy and general plasma science research.
    Strategic planning is underway aimed at filling gaps in the 
world so as to assert U.S. leadership where it best advances 
fusion as a whole while maximizing U.S. scientific return. For 
magnetic fusion, the scientific challenges can be broadly 
stated as follows. First, understanding and optimizing the 
burning plasma state. Experiments, theory and simulation have 
significantly advanced our understanding of what to expect from 
a burning plasma, and will continue to do so, but ITER provides 
the only platform planned to directly test and expand our 
understanding of this complex physics.
    Second, understanding the requirements for extending the 
burning plasma state to long times--days, weeks, and longer. 
Many aspects of this are pursued in the United States, and the 
second 10 years of ITER's operation will put our understanding 
to crucial tests. However, overseas fusion programs are set to 
assert leadership in part through new billion-dollar class 
research facilities in Europe, Japan, South Korea and China. We 
are exploring growing our collaborations to increase their 
impact and the knowledge returned.
    And finally, third, advancing the materials science for 
enduring the harsh fusion plasma environment, for extracting 
energy and for generating fusion fuel in situ. We will be 
exploring what is required to develop a materials and fusion 
nuclear science program, one that addresses the necessary 
fundamental scientific issues, while weaving the results and 
advances into our best concepts of future fusion systems.
    Thank you, Mr. Chairman, for providing this opportunity to 
discuss the Fusion Energy Sciences Program. This concludes my 
testimony, and I would be pleased to answer any questions you 
may have.
    [The prepared statement of Dr. Synakowski follows:]
               Prepared Statement of Edmund J. Synakowski
    Thank you Mr. Chairman, Ranking Member Inglis, and Members of the 
Committee for the opportunity to appear before you to provide testimony 
on the Fusion Energy Sciences program in the Department of Energy's 
(DOE's) Office of Science (SC). I have been Director of the Office of 
Fusion Energy Science since June 7th of this year. It is a privilege to 
lead the Nation's fusion energy sciences program following a career of 
scientific research and service at two national laboratories and in 
research collaborations with national labs and universities. I am 
thrilled to have joined this Office when the scientific readiness, 
opportunity, and urgency in fusion are extraordinarily resonant. I am 
pleased to share with you my perspectives on the status and the 
strategy for advancing fusion as we enter a new and critical age in its 
research and development.

Introduction

    The pursuit of fusion energy embraces the challenge of bringing the 
energy-producing power of a star to Earth for the benefit of humankind. 
The promise is enormous--an energy system whose fuel is obtained from 
seawater and from plentiful supplies of lithium in the Earth, whose 
resulting radioactivity is modest compared to fission, and which yields 
zero carbon emissions to the atmosphere. The pursuit is one of the most 
challenging programs of scientific research and development that has 
ever been undertaken. A devoted, expert, and innovative scientific and 
engineering workforce has been responsible for the impressive progress 
in harnessing fusion energy since the earliest fusion experiments over 
sixty years ago. As a result we are on the verge of a new age in fusion 
science during which researchers will undertake fundamental tests of 
fusion energy's viability. The scientific community's excitement and 
optimism about our progress and readiness to enter this new era of 
fusion research is amplified by the high awareness worldwide of the 
need to fundamentally alter our energy landscape in this century. 
Fusion can be part of that landscape shift. But it is no secret that 
fusion on Earth is difficult. Establishing a deep scientific 
understanding of the requirements for harnessing and optimizing this 
process on Earth is critical, and the progress has been dramatic.

The Scientific Challenges of Fusion Energy

    The science underpinning much of fusion energy research is plasma 
physics. Plasmas--the fourth state of matter--are hot gases, hot enough 
that electrons have been knocked free of atomic nuclei, forming an 
ensemble of ions and electrons that can conduct electrical currents and 
can respond to electric and magnetic fields. The science of plasmas is 
elegant, far-reaching, and impactful. Comprising over 99 percent of the 
visible universe, plasmas are also pervasive. It is the state of matter 
of the sun's center, corona, and solar flares. Plasma dynamics are at 
the heart of the extraordinary formation of galactic jets and accretion 
of stellar material around black holes. On Earth it is the stuff of 
lightning and flames. Plasma physics describes the processes giving 
rise to the aurora that gently illuminates the far northern and 
southern nighttime skies. Practical applications of plasmas are found 
in various forms of lighting and semiconductor manufacturing, and of 
course plasma televisions.
    At the heart of fusion energy in the stars and on Earth is the 
world's most famous equation, E = mc<SUP>2</SUP>, which summarizes our 
understanding of how mass can be converted into energy. Inside the sun, 
plasma pressures are high enough that hydrogen nuclei frequently 
collide and fuse into new atomic nuclei. The end product of these new 
fused systems actually weighs less than the original nuclei; the 
``missing'' mass is converted into the motion of the byproducts of the 
collisions, releasing prodigious quantities of energy. The energy 
released by fusion is largest per unit mass for the lightest elements. 
Thus, scientists also choose hydrogen isotopes to achieve fusion on 
Earth.
    On Earth, fusion is in fact routinely created and controlled in our 
fusion research laboratories--for example, I've had the privilege of 
being part of and of leading experiments that have generated millions 
of watts of fusion power for seconds at a time. In our vision of a 
working reactor, some of the energy will be captured by the plasma 
itself, and the plasma will self-heat, enabling more fusion to take 
place. The energy of the fusion reaction byproducts--energetic ions and 
neutrons--escaping the plasma will be captured and converted into heat. 
This heat will drive conventional power plant equipment to boil water, 
generate steam, and turn turbines to put electric power on the grid.
    The leading challenge for fusion is stable confinement and control 
of the hot plasma. When a plasma gets hot enough for fusion to occur, 
its strong tendency is to expand and cool like any gas. If allowed to 
do this too quickly, the conditions that enable fusion are lost. If 
this same hot plasma strikes a material wall before fusion can take 
place, it also cools and fusion ceases. Thus the hot plasma must be 
confined for a long enough time away from a material container. The 
leading approach to fusion energy being pursued in the world is to 
confine the hot fusion fuel with magnetic fields. The insulating 
properties of magnetic fields, properly configured, can be 
extraordinary. In present experimental devices, temperatures of plasmas 
are found to increase tens of millions of degrees centigrade in a 
matter of a few centimeters--from the room-temperature vessel 
containing the hot plasma into the plasma itself. Another approach is 
to compress the fuel rapidly so as to reach fusion conditions and rely 
on the inertia of the fuel itself to keep it combined long enough for 
fusion to happen. This approach is being studied by the National 
Nuclear Security Administration (NNSA), and a joint program researching 
this state of matter is being forged between NNSA and my office.
    A second great challenge for fusion is materials that can tolerate 
the extreme conditions of a fusion reactor. A plasma at a high enough 
temperature and density to undergo nuclear fusion in a reactor, while 
generating close to a billion watts of fusion power, will present a 
uniquely hostile environment to the materials comprising the reactor. 
The extreme heat fluxes inflicted on a reactor vessel's walls--at rates 
of tens of millions of watts per square meter--present significant 
materials challenges. Furthermore, in a fusion reactor the materials 
that will be near the burning plasma will bathe in a harsh shower of 
neutrons that can displace its constituent atoms and thus alter its 
strength and other material qualities. Advances in material science 
will be required to achieve reactor components that can withstand 
exposure to the enormous heat and neutron fluxes emanating from 
prolonged fusion burns.
    In the last two decades, progress in our understanding of plasma 
systems and their control requirements has enabled the fusion community 
to move to the edge of a new era, the age of self-sustaining 
``burning'' plasmas. For both lines of research described above, 
magnetic and inertial fusion, new experimental plans are being 
developed to make historic first studies of fusion systems where the 
energy produced by the fusion process itself is substantially greater 
than the energy applied externally to heat and control the plasma. In 
this testimony, I describe the current frontiers for the fusion energy 
sciences and describe how the research programs of the Office of 
Science contribute to scientific advances in these areas. I will 
discuss our program's relationship to international partners and the 
anticipated benefits of continued U.S. leadership, including benefits 
to science and to the Nation. I will also describe activities in our 
own program in the U.S. for building the science that is enabling us to 
enter the burning plasma era. To begin, however, I would like to 
briefly describe the origins and scientific breadth of fusion research.

A Brief History of Fusion Energy Sciences Research in the U.S.

    The advent of the nuclear age in the mid-20th century led 
scientists to consider whether the nuclear fusion process could be 
harnessed on Earth for energy production. In the United States, 
interest in the possibility of controlled fusion dates back even prior 
to the end of World War II. From 1944 to 1946, frequent and lively 
discussions of the subject were held among scientists assembled at the 
Los Alamos Scientific Laboratory, particularly E. Fermi, E. Teller, 
J.L. Tuck, S. Ulam, J. Wheeler, and R.R. Wilson. In the wake of the 
Manhattan Project, optimism for fusion energy ran high. Many 
scientists, flush with excitement and confidence from the rapid success 
of fission research, expected similarly expeditious progress towards 
controlled fusion. Most of the basic principles of fusion, if not 
already known, were formulated at that time, and a number of 
suggestions were made for achieving controlled thermonuclear fusion 
conditions. While many of these early suggestions were highly 
ingenious, all failed to meet the basic requirements of a controlled 
fusion device. From 1951 until 1958, fusion energy research continued 
under a classified program named ``Project Sherwood.'' By the mid-
1950's, about 200 personnel were involved in the U.S. in magnetic 
fusion research, designing and testing various approaches for 
``magnetic bottles'' to confine the hot plasma.
    By the mid-1950s, it was apparent that the underlying physics of 
the plasma state was proving to be far more complex and difficult to 
control than had been anticipated. The research in magnetic fusion was 
declassified in 1958, and at that time it was seen that the U.S., 
Soviet, and British-led fusion research programs were neck-and-neck--
and far from achieving a usable energy source. Each program was only 
capable of producing plasmas that were, according to a standard 
measure, about ten thousand times lower than required for fusion to 
generate more heat than was required to create the fusing plasma in the 
first place. Throughout most of the 1960's, research in fusion 
progressed through small-scale laboratory experiments and research into 
fundamental plasma theory. It became clear that cracking the nut of the 
fusion energy challenge was going to take far more basic physics 
research than predicted at the program's outset.
    Much of the research through the 1960's focused on an approach 
where the magnetic field for confining the plasma was completely 
defined by the hardware of the experiment. In 1968, however, a major 
breakthrough was announced by Soviet researchers. They introduced a 
clever innovation wherein some of the magnetic field for confining the 
plasma was created by an electrical current passed through the plasma 
itself. This led to a dramatic simplification in the magnetic coils 
needed externally. The announced results were stunning to researchers--
plasma performance measured in terms of confinement quality were said 
to be improved by an order of magnitude. In fact, the results were so 
surprising that many in the West did not believe them. In an event 
extraordinary for the times but emblematic of how science is best 
carried out, the leader of the Soviet fusion effort opened the door to 
British scientists in 1969. They brought their own measurement 
equipment to the Soviet Union and confirmed the Soviet claims--the 
plasma quality was far superior to any that had been created in any 
other experiment to date. The results led to the conversion of U.S. 
research facilities to this new concept called a tokamak, a name based 
on a Russian acronym for ``toroidal (donut-shaped) chamber with a 
magnetic coil.''
    These developments expanded our view of what was possible in fusion 
research. In the 1970's, progress was rapid, and budgets for fusion 
research in the U.S. increased as a result of the energy crisis. New 
research facilities were built across the country, including those at 
the DOE national labs located at Princeton, New Jersey, Oak Ridge, 
Tennessee, and Livermore, California. A major industrial research 
endeavor was also begun through a contract with General Atomics in La 
Jolla, California. University research grew. The theory and computation 
efforts that accompanied and supported development and interpretation 
of these experiments grew as well. International research programs also 
were ambitious, with the largest facilities in the world being 
constructed in the United Kingdom and Japan.
    Scientific progress was strong through the 1980's, despite 
declining budgets. Major choices were made in program direction, and 
the tokamak concept was selected as the leading contender to reach the 
promised land of creating a sustained, magnetically confined burning 
plasma on Earth. In the 1980's research began on the flagship Tokamak 
Fusion Test Reactor (TFTR) at Princeton, and mid-decade a remarkable 
achievement was realized. Temperatures of the plasma fuel reached over 
200 million degrees Centigrade--ten times the core temperature of the 
sun--in these magnetically confined plasmas. The flexibility of this 
experiment proved to be of great scientific value in launching 
controlled research studies of this plasma state. The exciting TFTR 
results were joined by rapid progress at the DIII-D tokamak at General 
Atomics in La Jolla, and a healthy competition grew within the U.S. as 
well as internationally. At this time, complementary experiments were 
continued at MIT in compact devices of very high magnetic field. The 
Joint European Tokamak (JET) in England was the first to use the ``high 
octane'' mix of the hydrogen isotopes deuterium and tritium (D-T) that 
will be used in a first-generation fusion reactor. They soon announced 
to the world the generation of a few million watts of fusion power, 
enough to power thousands of homes. The race was on--TFTR at Princeton 
began its experimental campaign with the D-T fuel mix, and completed it 
with experiments in 1994 that generated over 10 million watts of fusion 
power. The JET experiment ultimately created a record 16 million watts 
of fusion power in 1997, a result enabled by the larger size of the 
device as compared to TFTR.
    Notably, however, more power was used to heat and control the 
plasma in each of these cases than was used to create the fusion 
reactions themselves. The figure of merit used in magnetic fusion, Q, 
relates the fusion power created to the power used to heat the plasma. 
The JET experiment yielded a Q of about 0.6. A campfire analogy is 
that, to date in fusion research, we have been burning wet wood. Remove 
the external flame, and the fire goes out. Extending the analogy, we 
have learned a great deal during and since these research campaigns 
about how to make a fire and how to make a fusion fireplace in which 
the wood burns itself--in which we have a self-sustained ``burning'' 
plasma.
    Today we have to build that fireplace and learn how to best manage 
the fire in a robust, attractive way. Results from the D-T TFTR and JET 
studies and those obtained worldwide in other experiments pointed to a 
common direction, one in which meeting the burning plasma challenge is 
going to require an increase in scale of the research device. The 
embodiment of these research conclusions is the design and new 
construction of the international project called ITER (Latin for ``the 
way''), which is described more fully later in this testimony.
    It is important to note for understanding the potential future of 
fusion research that at least two major research thrusts were 
developing in parallel to the magnetic confinement experiments that I 
have just described. First, a seminal paper in 1972 pointed out the 
potential of the laser, invented in 1960, to be used as the basis of a 
fundamentally different approach to fusion energy. This approach, 
called inertial confinement fusion, uses symmetrically-applied 
exceptionally high-power pulsed laser beams to compress a small pellet 
of fusion fuel to high enough densities and temperatures for fusion to 
occur. In this case, the inertia of the fuel itself is relied upon to 
keep the matter contained long enough for a fusion burn to take place. 
The National Nuclear Security Administration (NNSA) has been the 
primary supporter of this line of research, through its aim to develop 
critical tools for stockpile stewardship. The Office of Fusion Energy 
Sciences also has a keen interest in inertial fusion, both from the 
point of view of the richness of the plasma physics--more on this 
later--as well as its potential energy applications.
    NNSA's recently completed National Ignition Facility at Lawrence 
Livermore National Laboratory is the world's leading experimental 
enterprise in this research, and its work in the emergent field of High 
Energy Density Laboratory Plasma (HEDLP) physics is supported stateside 
by related research at other national laboratories, the University of 
Rochester, and a wide range of university-scale experiments.
    Second, the computer revolution had enormous impact on fusion 
research in both magnetic and inertial fusion. The fusion sciences have 
been transformed from a largely empirical enterprise to a theory-based 
dominated by vigorous interaction between those who measure the elusive 
qualities and behavior of the plasma state in fusion conditions, and 
those who develop its complex theory and represent that theory in 
computational models. Over the last twenty years, the scientific basis 
for our readiness for the next era of fusion energy research has been 
established through this interaction, anchored in flexible, inventive 
experiments, continuously growing computational horsepower, and rich 
physics challenges that have yielded many secrets of the plasma to our 
probing.
    In both magnetic fusion energy science and the linked science of 
inertial fusion energy, we are at the edge of the burning plasma era. A 
burning plasma is fundamentally different from plasmas that have been 
created in research facilities to date; it is only in a burning plasma 
that the energy confinement, heating, and stability are fully coupled, 
and the scientific issues associated with creating and sustaining a 
power-producing plasma can be explored. The importance of moving into 
this era was strongly affirmed in a 2004 National Academy of Sciences 
review, ``Burning Plasmas--Bringing a Star to Earth.'' This report 
recognized that a burning plasma experiment is essential to assessing 
the scientific and technical feasibility of fusion as an energy source. 
Its strongest recommendation was that the U.S. fusion science research 
program confront the rich and important scientific questions that will 
only be possibly by creating a burning plasma in the laboratory. Even 
since this report, our scientific basis for entering this new era has 
deepened.
    Allow me to now describe for you the present fusion sciences 
research program in the U.S., with references to the world-wide effort 
that supports our entrance into this new age, and the enabling program 
of this new era--the ITER project.

The U.S. Research Program Today

    In the United States, a broad, multi-institutional program in 
experiment, theory, and computation is executed through the Office of 
Fusion Energy Sciences. A national laboratory dedicated to plasma 
physics and fusion research is located at Princeton, New Jersey, and 
other national laboratories are funded to undertake research in the 
fusion sciences as well. Many university partners partake in fusion 
research at these laboratories and at their own campuses.
    A major feature of the program is the research platform provided by 
three major experiments. These facilities and their predecessors have 
been crucial for developing the physics basis needed to justify a 
burning plasma physics program. Today the experimental research 
programs at the U.S. facilities are scientifically complementary.
    These are the DIII-D tokamak at General Atomics, mentioned 
previously, the National Spherical Torus Experiment (NSTX), at the 
Princeton Plasma Physics Laboratory, and a compact, high magnetic field 
tokamak called Alcator C-Mod at the Massachusetts Institute of 
Technology. Researchers participate in joint experiments conducted 
between these facilities and are leaders in an international 
organization that develops joint experiments with facilities overseas 
as well. U.S. researchers participate in about 75 joint international 
activities at the present time. These activities have a common aim, 
namely, to develop the scientific basis for a sound and revealing 
burning plasma research program and to develop fusion plasma science 
more generally. The national laboratories are intimately intertwined in 
the research execution and program leadership at these sites. 
Significant student populations partake in research there, and their 
programs are intrinsically collaborative. In part through student 
participation (about 340 graduate students at this time participate in 
an aspect of fusion energy science research), these national programs 
have strong, productive ties with many universities across the Nation.
    Our portfolio also includes a robust program in innovative plasma 
confinement concepts, which broadens the fusion program by exploring 
the science of confinement optimization and plasma stability through a 
variety of smaller novel devices. The breadth of this program is 
summarized by the fact that, taken together, these confinement devices 
allow scientists to study plasmas with densities spanning twelve orders 
of magnitude.
    FES also supports a world-leading theory program, which provides 
the conceptual scientific underpinning of the magnetic fusion energy 
sciences program. This program focuses on three thrust areas: burning 
plasmas, fundamental understanding, and configuration improvement. 
Theory efforts describe the complex multiphysics, multiscale, non-
linear plasma systems at the most fundamental level. These 
descriptions--ranging from analytic theory to highly sophisticated 
computer simulation codes--are used to interpret results from current 
experiments, plan new experiments on existing facilities, design future 
experimental facilities, and assess projections of facility 
performance. U.S. expertise and capabilities in theory and computation 
are a lynchpin of the transition to the burning plasma era.
    The flagship program of this new era is the ITER project, an 
international fusion research project being constructed in Cadarache, 
France, that will realize magnetically confined burning plasmas for the 
first time. Burning plasma physics as it will be explored on ITER 
presents at once a grand scientific challenge in its own right and an 
undertaking of tremendous practical import. The goal of this 
international research program is to demonstrate the scientific and 
technological feasibility of sustained fusion power. In the United 
States, we place high importance on the potential of ITER as a flexible 
instrument for scientific discovery as well as a demonstration of 
fusion energy's scientific and technical viability. ITER's overarching 
goals are the creation of plasmas producing 500 megawatts of power with 
Q = 10 for hundreds of seconds, that is, ten times the fusion power 
generated by the burning plasma as compared to the power used to heat 
it, and plasmas of Q = 5 for durations of up to an hour. What we learn 
through ITER will guide our choices in the development of a subsequent 
demonstration power plant.
    Seven members comprise the ITER partnership: China, the European 
Union, India, Japan, Russia, South Korea, and the United States. Under 
the formal international agreement that entered into force in 2006, the 
experiment is to be built in Cadarache, France proximal to a major 
French nuclear research laboratory. It will be the largest magnetic 
confinement fusion experiment ever constructed, with a radius of the 
magnetic donut over six meters, enclosed in structure close to 10 
stories tall. The magnets will be superconducting so as to enable long 
pulses of fusion plasmas. U.S. researchers have played a significant 
role in identifying the design for ITER. As host, the European Union 
has responsibility for five-elevenths of the project cost. The 
remaining six partners, including the U.S., is each responsible for 
one-eleventh share. Contributions of the member states are primarily 
in-kind hardware components for the project. Annual cash contributions 
are also made to the ITER Organization (IO) in Cadarache that is 
responsible for assembling the device and the civil construction of the 
site. The data obtained from ITER will be shared by all partners.
    The U.S. ITER Office (USIPO), located at Oak Ridge National 
Laboratory, reports to my office and manages the interfaces with the IO 
and the development of the hardware that are a U.S. responsibility. 
Most of the funds directed to the USIPO will be spent domestically in 
U.S. industry to design and fabricate the hardware needed to fulfill 
our obligations. Examples of what we will deliver include 
superconducting transformer coils that will reside in the center of the 
magnetic donut, superconducting strands of wire to be used in the 
construction of some the other magnets for ITER, and measurement 
instrumentation systems that will be installed on the device to measure 
and monitor many aspects of the burning plasma.
    The schedule for ITER operations is being developed and refined; 
the first plasma experiments to commission the device are almost 
certainly at least 10 years away, with the first burning plasma 
experiments probably in the mid-2020's. This time scale is an 
acknowledged frustration of all parties given the urgency of the energy 
challenge and reflects both the immense technical scope of the project, 
the fact that the laboratory and its governance are being set up at a 
green field site, and the added challenges posed by a novel 
international collaboration. Importantly, the USIPO is vigorously 
engaged with the IO in Cadarache and other members' domestic agencies 
in implementing U.S. project management practices in ITER. The Office 
of Science takes most seriously the imperative that ITER be well 
managed in both its construction and research phases.
    With respect to burning plasma physics and ITER itself, the U.S. 
research program has been particularly effective in improving the ITER 
design. For example, the ``dynamic range'' of the plasmas that ITER 
will be capable of creating has been significantly increased thanks in 
significant part to U.S. intellectual leadership. The U.S. fusion 
program's robust interplay among experimentalists, theorists, and 
computational researchers in developing complex simulation programs 
executed on the world's most powerful computers have been and will 
continue to be essential for preparing for the burning plasma era. This 
interplay is facilitated by the U.S. Burning Plasma Organization, a 
community-led endeavor of researchers currently headed by the chief 
scientist of the USIPO.
    As described earlier, there is another form of fusion in the 
laboratory, inertial confinement fusion, whose science is being pursued 
and is also on the cusp of the burning plasma era. The National 
Ignition Facility is slated to explore whether a small pellet of fusion 
fuel can be ignited in a fusion burn by simultaneously heating and 
compressing it with the enormous radiant power of its unparalleled 
laser system. If successful, these experiments will be historic--
analogous to achievement of the first spark ever in an internal 
combustion engine. Significant scientific and technological development 
will be required to achieve appreciable energy output per spark and the 
generation of many sparks per second in an attractive manner.
    The branch of plasma physics at the heart of this endeavor, high 
energy density laboratory plasma physics, studies extreme states of 
matter known to exist otherwise only in extraordinary systems such as 
stellar interiors and exploding stars. The National Academy of Science 
has recognized the importance of this field to energy and the study of 
astrophysical systems, and has urged the formation of a coherent 
programmatic home in the Federal R&D portfolio. To this end, the Office 
of Fusion Energy Sciences is now collaborating with NNSA in launching a 
research program in this branch of science for the sake of advancing 
both fusion energy science and the science of these extraordinary 
systems so as to further understanding of our universe.
    Importantly, the U.S. fusion energy sciences program also has 
ambitions to develop and advance general plasma science in the broadest 
sense. A number of vigorous university-based programs are deployed 
across the country. Furthermore, my office supports over 30 joint 
research efforts with the National Science Foundation to advance 
general plasma science that extends beyond the immediate needs of the 
fusion goal. This science can be of high import in describing natural 
plasma phenomena and also has an impact on the economics of industrial 
plasma applications. Joint research centers with university-scale 
experiments are at the heart of these ventures and on shedding light on 
the phenomena governing plasma dynamics in settings ranging from the 
industrial to the solar corona.
    The Office of Fusion Energy Sciences is currently engaged in a 
formal strategic planning process aimed at filling scientific gaps in 
the global research portfolio so as to assert U.S. leadership and 
maximize U.S. scientific return where it best advances fusion as a 
whole. For magnetic fusion, a Fusion Energy Sciences Advisory Committee 
recently identified gaps in scientific knowledge that must be filled so 
as to maximize ITER's scientific opportunities and to close the gaps 
between ITER and demonstrating fusion power on the grid. This formal 
gaps and priorities analysis was followed by a community-based activity 
that identified the research needs for making such an advance. This 
Office is developing a strategy by drawing upon this input and 
assessing strategic opportunities for partnership across the Department 
of Energy. Based on this input, the scientific challenges for magnetic 
fusion can be broadly stated as follows:

        (1)  Understanding and optimizing the burning plasma state. 
        Experiments, theory, and simulation have significantly advanced 
        our understanding of what to expect from a burning plasma, and 
        will continue to do so. The U.S. domestic program will continue 
        to play a strong and world-leading role in preparing for the 
        burning plasma era. But ITER provides the only platform planned 
        to directly test and thus expand and challenge our 
        understanding of this complex physics. Both before and during 
        experiments on ITER, we must strengthen the coupling between 
        experiment, theory, and large-scale computer simulation so as 
        to enable prediction of burning plasma performance beyond 
        ITER's operating range and configuration.

        (2)  Understanding the requirements for extending the burning 
        plasma state to long times--days, weeks, and longer. Many 
        aspects of this are pursued in the U.S., and the second ten 
        years of ITER's operation will put our understanding to crucial 
        tests. However, in the next ten years overseas fusion programs 
        are set to assert a stronger role and leadership in part 
        through new billion dollar class research facilities in Europe, 
        Japan, South Korea, and China. We are exploring growing our 
        collaborations to increase their impact and the knowledge 
        returned. And finally,

        (3)  Advancing the materials science for enduring the harsh 
        fusion plasma environment, for extracting energy, and for 
        generating fusion fuel in situ. We are beginning to outline our 
        plans in these areas and to explore alignments with other 
        energy-related fields in developing a materials and fusion 
        nuclear science program. Common interests in materials research 
        exist across both magnetic and inertial confinement fusion 
        research. Beyond this, we will be exploring synergies in this 
        area between fusion, fission, and defense-related research so 
        as to assess the viability and requirements for a cross-office 
        ``Materials for Energy'' effort that would make the most out of 
        common needs and diverse resources.

Concluding Remarks

    In the next ten years, the U.S. fusion research program will strive 
to be at the forefront of the burning plasma age, one in which research 
students grow a strong connection to fusion's future and potential. It 
will be an age where more is asked of advanced computation than ever, 
where computer simulations are relied upon to close the gaps between 
one research step and another, and reduce project costs and increase 
confidence. It will be an era where single purpose laboratories 
interact readily with multipurpose laboratories with common incentives 
and common purpose of advancing energy-related science for all. It will 
be an era in which the best combination of scientific depth and 
richness is combined with the highest sense of urgency to help the 
world address its energy challenges successfully to improve our quality 
of life.
    Thank you, Mr. Chairman, for providing this opportunity to discuss 
the Fusion Energy Sciences Program at the Department of Energy. This 
concludes my testimony, and I would be pleased to answer any questions 
you may have.

                   Biography for Edmund J. Synakowski
    Dr. Edmund J. Synakowski is the Associate Director of Fusion Energy 
Sciences at the U.S. Department of Energy (DOE). With an annual budget 
of over $400 million, the Office of Fusion Energy Sciences is the 
federal office supporting research to develop the scientific basis for 
fusion energy, and serves as a steward for plasma science. He joined 
the Office of Science on June of 2009 from the Lawrence Livermore 
National Laboratory where he was director of the Fusion Energy Program 
and Deputy Division Leader for the Physics Division of the Physics and 
Life Sciences Directorate. From 1988 through 2005, he was at the 
Princeton Plasma Physics Laboratory where he was Head of Research and 
Deputy Program Leader of the National Spherical Torus Experiment. He 
also performed extensive research and led research programs in fusion 
plasma confinement and control on the Tokamak Fusion Test Reactor. His 
service to the fusion community has included participation in the 
development of the initial research plan for the international ITER 
research program, chairmanship of the U.S. Transport Task Force, and 
membership of the American Physical Society Division of Plasma Physics 
Executive Committee. Dr. Synakowski received a B.A. degree in Physics 
from the Johns Hopkins University in 1982, graduating with Departmental 
Honors and receiving the Donald Kerr Medal for excellence in physics. 
He received a Ph.D. degree in physics from the University of Texas in 
1988. He is a Fellow of the American Physical Society and received the 
American Physical Society award for Excellence in Plasma Physics 
Research in 2001 and the 2000 Kaul Foundation Prize for Excellence in 
Plasma Physics Research and Technology Development from Princeton 
University. He has published over 150 papers in the study of fusion 
plasmas and has performed research on all of the major U.S. fusion 
experiments.

    Chairman Gordon. [Presiding] Dr. Prager, you are 
recognized.

STATEMENT OF DR. STEWART C. PRAGER, DIRECTOR, PRINCETON PLASMA 
                       PHYSICS LABORATORY

    Dr. Prager. Well, thank you very much, Members of the 
Committee, for this opportunity to discuss fusion energy, and 
thank you, Congressman Holt, for the kind opening words and for 
your deep engagement and expertise in this topic. As he said, I 
am Director of the Princeton Plasma Physics Laboratory, which 
is a DOE national lab managed by Princeton University dedicated 
to developing fusion energy.
    There are two complementary approaches to fusion; in one, 
as you have heard, powerful lasers compress a tiny pellet of 
fuel, releasing fusion energy in a flash. The National Ignition 
Facility will tremendously advance the physics for this 
approach.
    I am here to discuss the approach known as magnetic fusion, 
in which the large, hot plasma is confined continuously by 
powerful magnetic fields. As I hear you already well recognize, 
fusion energy is one of the most challenging physics and 
engineering quests ever undertaken. It will be key to solving 
perhaps the most pressing problem confronting the world today: 
the absence of sustainable energy.
    By any metric, we are far along the road to commercial 
fusion power. In the past 30 years we have progressed from 
producing one watt of fusion power for one-thousandth of a 
second to 15 million watts for seconds, and ITER will produce 
500 million watts for 10 minutes and longer. Driving this 
progress has been the development of an entirely new field of 
science called plasma physics. Outside reviews continuously 
laud the progress of fusion. The most recent National Academy 
study notes remarkable progress in recent years. But my focus 
today is the future, the remainder of the journey to fusion 
power.
    My comments are informed by the just-completed study by the 
U.S. fusion community commissioned by DOE known as the ReNeW 
Report. Two hundred fusion scientists undertook this one-year 
study that identifies the remaining scientific issues to 
resolve for fusion power. A fusion system consists of the hot 
plasma core and the surrounding material structure. We are 
ready to move forward on the two major challenges to better 
control the plasma and to develop new materials. The two 
problems are coupled since the plasma and the material 
structure interact with each other. Our ability to control the 
100-million-degree plasma core is quite amazing, yet we have 
more work to do to sustain the plasma indefinitely and 
controllably. The sophistication of plasma science now offers 
new opportunities; for example, designs of magnetic 
configurations are possible now that were nearly impossible 
even to conceive 20 years ago. They are possible only with 
modern computers. Building upon the foundation of the mainline 
tokamak approach, these designs produce plasmas that persist 
indefinitely and are so well controlled as to reduce the 
severity of the materials challenge.
    It is crucial that we establish a research program and 
materials for fusion. Materials must be developed to withstand 
the intense heat that emerges from the plasma. But full 
solution of the materials challenge ultimately requires study 
of materials in a true fusion environment with the intense flux 
of neutrons that are produced in the fusion reactions. It is 
time to lay the groundwork for such a facility, sometimes 
called a ``fusion nuclear science facility,'' since it exposes 
materials to a nuclear fusion environment. If this facility 
were designed somewhat more aggressively, it could possibly 
demonstrate net electricity production. Design studies are 
required to identify the wisest next step in these directions.
    The Princeton Plasma Physics Lab aims to solve a broad 
range of fusion science challenges. Our core capabilities in 
plasma physics enable us to attack crucial problems in the 
fusion plasma and in materials exposed to the intense plasma 
heat. The major experiment at our lab is laying the physics 
basis for a fusion nuclear science facility, is advancing 
fusion science broadly and is investigating novel material 
boundaries. We are contributing to the design and fabrication 
of ITER and are preparing for research in ITER. We hope to play 
key roles in a fusion nuclear science facility which would not 
be located at our laboratory, and we are developing plans to 
realize experimentally, at our laboratory, the new study state 
approaches to fusion energy that could prove so essential to 
the feasibility of fusion.
    When I began my research career, the United States was the 
world leader in fusion with the best facilities, arguably the 
most innovative programs. Scientists from the world over 
flocked to our labs. Japan sent research teams to U.S. 
facilities to learn the trade. An alarming reversal of that 
flow of scientists is now underway. The United States has not 
built a major nuclear fusion facility in decades. The rest of 
the world is seizing the opportunities. Major facilities more 
ambitious than anything in the United States are starting 
operation or are under construction in China, Japan, South 
Korea, Germany and France. Our effort has dwindled to a 
fraction of that of Europe and Japan. The time is right for the 
United States to reverse its slide. Opportunities such as we 
are discussing today abound to restore the United States to 
world leadership and move us aggressively toward carbon-free, 
abundant fusion energy.
    And I will just close by inviting all Members to please 
visit our laboratory, which is a short train ride up the coast, 
and with that, thank you very much.
    [The prepared statement of Dr. Prager follows:]
                Prepared Statement of Stewart C. Prager
    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to discuss fusion energy.
    I am Director of the Princeton Plasma Physics Laboratory--a 
Department of Energy national lab, managed by Princeton University, 
dedicated to developing the scientific foundation for fusion energy. 
Prior to nine months ago, I was a practicing fusion plasma physicist at 
the University of Wisconsin.
    There are two complementary, compelling approaches to fusion 
energy. In one, powerful lasers compress a tiny frozen pellet of fusion 
fuel, releasing fusion energy in a billionth of a second. The 
anticipated demonstration of ignition in the National Ignition Facility 
will tremendously advance the physics basis for this approach.
    I am here today to discuss the approach known as.magnetic fusion, 
in which a large, hot plasma (the hot gas that makes up the sun) is 
confined continuously by powerful magnetic fields. Fusion energy is 
perhaps one of the most challenging physics and engineering quests ever 
undertaken; its realization will be key to solving what is perhaps the 
most pressing problem confronting the world today--the absence of 
sustainable energy. By any measure, we are far along the road to 
commercial fusion power. My goal today is to talk about the future: the 
remainder of the journey to fusion energy.
    My comments are informed by the just-completed study by the U.S. 
fusion community, commissioned by DOE and known as the ReNeW report. 
About 200 fusion scientists undertook this one-year study that 
articulates the scientific issues yet to resolve for fusion power, 
beyond those to be resolved in the landmark international ITER 
experiment. A fusion system consists of the hot plasma core--the ``sun 
on Earth''--in which fusion reactions occur, and the surrounding 
material structure. We are ready to move forward to better control the 
plasma and to develop new materials. The two problems are coupled in 
that the plasma affects the materials and the material affects the 
behavior of the plasma within.
    Our ability to control the 100 million degree plasma core is quite 
amazing. Yet, we have more work to do to sustain the fusion plasma 
indefinitely and controllably. The sophistication of plasma science now 
offers new opportunities for fusion. For example, new designs of 
magnetic configurations are possible now that were nearly impossible 
even to conceive twenty years ago. They are possible only with modern 
computers, enabled by new principles in plasma physics. Building upon 
the substantial experimental foundation of the mainline tokamak 
approach, these cousins of the tokamak produce plasmas that persist 
indefinitely and are so well controlled as to reduce the severity of 
the materials challenges.
    It is crucial that we establish a research program in materials for 
fusion. Materials must be developed to withstand the intense heat that 
emerges from the plasma. This requires a basic materials research 
combined with materials studies in plasma experiments.
    But full solution of the materials challenge ultimately requires 
study of materials in a true fusion environment--with the intense flux 
of neutrons that are produced in the fusion reactions. It is time to 
lay the groundwork for such a U.S. facility, sometimes called a fusion 
nuclear science facility since it provides study of materials in the 
nuclear fusion environment. If this facility were designed somewhat 
more aggressively--to produce net fusion power as well as neutrons, it 
would demonstrate electricity production. Design studies are required 
to identify the wisest next step in these directions, considering our 
level of physics and engineering readiness.
    The Princeton Plasma Physics Lab is dedicated to solving the broad 
range of fusion science challenges. Our key capability in plasma 
physics enables us to attack crucial problems in the fusion plasma 
core, the interaction between the plasma and materials, and the 
properties of materials exposed to the intense plasma heat.
    The major experiment at our lab is developing the plasma physics 
basis for a fusion nuclear science facility, advancing physics broadly 
applicable to fusion and ITER, and investigating novel materials 
boundaries. We hope to play a key role in the physics and engineering 
design of a fusion nuclear science facility, which would not be located 
at our laboratory. We will continue our contributions to the design of 
ITER, and are preparing ourselves for participation in ITER research. 
And we are developing plans to realize experimentally, at our 
laboratory, the new steady-state approaches to fusion energy that could 
prove so essential to the feasibility of fusion.
    When I began my research career the U.S. was the world leader in 
fusion. We had the best facilities and arguably the most innovative 
program. Scientists the world over flocked to our labs. The Japanese 
government sent research teams to then-modern U.S. facilities to learn 
the trade. An alarming reversal of that flow of scientists is now 
underway. The U.S. has not built a major new fusion facility in 
decades. The rest of the world is seizing the opportunities. Major 
facilities, more ambitious than anything in the U.S., are starting 
operation or are under construction in China, Japan, South Korea, 
Germany and France. The U.S. effort has dwindled to a fraction of that 
of the European Union and Japan. The time is ripe for the U.S. to 
reverse its slide. Opportunities abound to restore the U.S. to world 
leadership and move us aggressively toward carbon-free, abundant fusion 
energy.

Appendix I

                        Executive Summary of the

                    Research Needs Workshop (ReNeW)

                   for Magnetic Fusion Energy Science

    Nuclear fusion--the process that powers the sun--offers an 
environmentally benign, intrinsically safe energy source with an 
abundant supply of low-cost fuel. It is the focus of an international 
research program, including the ITER fusion collaboration, which 
involves seven parties representing half the world's population. The 
realization of fusion power would change the economics and ecology of 
energy production as profoundly as petroleum exploitation did two 
centuries ago.
    The 21st century finds fusion research in a transformed landscape. 
The worldwide fusion community broadly agrees that the science has 
advanced to the point where an aggressive action plan, aimed at the 
remaining barriers to practical fusion energy, is warranted. At the 
same time, and largely because of its scientific advance, the program 
faces new challenges; above all it is challenged to demonstrate the 
timeliness of its promised benefits.
    In response to this changed landscape, the Office of Fusion Energy 
Sciences (OFES) in the U.S. Department of Energy commissioned a number 
of community-based studies of the key scientific and technical foci of 
magnetic fusion research. The Research Needs Workshop (ReNeW) for 
Magnetic Fusion Energy Science is a capstone to these studies. In the 
context of magnetic fusion energy, ReNeW surveyed the issues identified 
in previous studies, and used them as a starting point to define and 
characterize the research activities that the advance of fusion as a 
practical energy source will require. Thus, ReNeW's task was to 
identify (1) the scientific and technological research frontiers of the 
fusion program, and, especially, (2) a set of activities that will most 
effectively advance those frontiers. (Note that ReNeW was not charged 
with developing a strategic plan or timeline for the implementation of 
fusion power.)

The Workshop Report

    This Report presents a portfolio of research activities for U.S. 
research in magnetic fusion for the next two decades. It is intended to 
provide a strategic framework for realizing practical fusion energy. 
The portfolio is the product of ten months of fusion-community study 
and discussion, culminating in a Workshop held in Bethesda, Maryland, 
from June 8 to June 12, 2009. The Workshop involved some 200 scientists 
from Universities, National Laboratories and private industry, 
including several scientists from outside the U.S.
    Largely following the Basic Research Needs model established by the 
Office of Basic Energy Sciences (BES), the Report presents a collection 
of discrete research activities, here called ``thrusts.'' Each thrust 
is based on an explicitly identified question, or coherent set of 
questions, on the frontier of fusion science. It presents a strategy to 
find the needed answers, combining the necessary intellectual and 
hardware tools, experimental facilities, and computational resources 
into an integrated, focused program. The thrusts should be viewed as 
building blocks for a fusion program plan whose overall structure will 
be developed by OFES, using whatever additional community input it 
requests.
    Part I of the Report reviews the issues identified in previous 
fusion-community studies, which systematically identified the key 
research issues and described them in considerable detail. It then 
considers in some detail the scientific and technical means that can be 
used to address these issues. It ends by showing how these various 
research requirements are organized into a set of eighteen thrusts. 
Part II presents a detailed and self-contained discussion of each 
thrust, including the goals, required facilities and tools for each.
    This Executive Summary focuses on a survey of the ReNeW thrusts. 
The following brief review of fusion science is intended to provide 
context for that survey. A more detailed discussion of fusion science 
can be found in an Appendix to the Report, entitled ``Fusion Primer.''

Fusion science

Fusion's promise
    The main advantages of producing power from fusion reactions are 
well known:

        <bullet>  Essentially inexhaustible, low-cost fuel, available 
        worldwide.

        <bullet>  High energy-density of fuel, allowing straightforward 
        base-load power production without major transportation costs.

        <bullet>  No production of greenhouse gas, soot or acid rain.

        <bullet>  No possibility of runaway reaction or meltdown that 
        could pose a risk to public safety.

        <bullet>  Minimal proliferation risk.

        <bullet>  Only short-lived radioactive wastes.

    Few of these benefits are unique to fusion; what is exceptional is 
their simultaneous achievement in a single concept. For example, 
fusion's freedom from greenhouse gas production and chemical pollution 
is shared with, among other energy sources, fission nuclear power; in 
this regard the relatively mild radioactivity of fusion, whose waste is 
thousands of times less radioactive and long-lived than fission, is 
significant. On the other hand, compared to the non-proliferating 
renewable energy sources, fusion offers a steady, predictable energy 
source with low land use.
    To be weighed against these advantages is the long and relatively 
expensive development path for fusion. Achieving the conditions 
necessary for appreciable fusion reactions to occur invokes substantial 
physics and engineering challenges. Yet the impressive progress 
achieved in addressing these hurdles must be acknowledged. One measure 
is the exponential increase in fusion power produced in laboratory 
experiments, amounting to some eight orders of magnitude (a factor of 
100,000,000) since the mid-1970's. Indeed some fusion experiments have 
approached scientific ``break-even,'' producing roughly as much fusion 
power as was externally supplied for heating the fuel. A more important 
if less easily measured avenue of progress lies in scientific 
understanding. Fusion scientists have developed a broad and 
sophisticated, if still incomplete, picture of what is happening in a 
magnetically confined fusion plasma. This advance now allows routine 
control of key plasma properties and behavior.

Magnetic confinement

    Magnetic confinement (more accurately termed ``magnetic 
insulation'') allows the fusion fuel, which is necessarily in the form 
of ionized gas, or plasma, to retain sufficient heat to maintain fusion 
reactions. It acts by enforcing a relatively low plasma density at the 
plasma boundary, where vessel walls would otherwise cool the gas, and 
by inhibiting heat flow from the interior to the wall region. The 
essential ingredient is a magnetic geometry in which the magnetic field 
lines abide in a closed, bounded region.
    During the last decades of the twentieth century, fusion research 
gained important scientific victories in plasma confinement: major 
advances in both the control of instability and the amelioration of 
heat transport. While significant confinement issues remain to be 
solved, and while most of the fusion scientific community looks forward 
to substantial further improvements, the present demonstrated level of 
confinement is sufficient to impart confidence in the future of fusion 
energy. One indicator of this scientific advance is the rapid 
confinement progress mentioned above. Perhaps a more significant 
consequence is the decision by the international fusion community to 
embark on the ITER project.

Breadth of fusion research

    Fusion progress requires scientific research of the highest quality 
and originality. Such science is not an activity to be balanced against 
the energy goal, but rather an essential component of the quest for 
that goal. This Report emphasizes the goal-directed nature of the 
program, but it is also appropriate to mention that, like any deep 
investigation, fusion research has enjoyed broad connections with other 
domains of science.
    Many connections are mentioned in the Theme chapters of Part I. 
Examples are:

        <bullet>  gyrokinetic simulation, used to understand transport 
        and stability in magnetized fusion plasmas, has become an 
        important tool in astrophysics and magnetosphere physics;

        <bullet>  magnetic reconnection, a key phenomenon in the 
        stability of magnetically confined plasmas, has central 
        importance in numerous solar, magnetosphere and astrophysical 
        contexts;

        <bullet>  turbulent heat transport across the magnetic field, 
        which plays a role in modern fusion experiments very similar to 
        its role in the equilibrium configuration of the sun and other 
        stars;

        <bullet>  unstable Alfven waves, whose effects in fusion 
        experiments are closely similar to observed perturbations in 
        the Earth's magnetosphere;

        <bullet>  the high-strength, ductile materials being developed 
        for fusion should have wide application in industry, including 
        aerospace and chemical manufacturing.

Research requirements

    In the next two decades, the ``ITER era,'' magnetic fusion will for 
the first time explore the burning plasma regime, where the plasma 
energy is sustained mostly by its own fusion reactions. We expect ITER 
to expand our understanding of fusion plasma science and to be a major 
step toward practical fusion energy. It will also, as the first burning 
plasma experiment, pose new requirements, including advanced 
diagnostics for measurement and control in a burning-plasma 
environment, and analytical tools for understanding the physics of 
self-heating.
    To benefit fully from its investment in ITER the U.S. must maintain 
a broad research program, attacking fusion's scientific and technical 
issues on several fronts. We need in particular to acquire knowledge 
that ITER cannot provide: how to control a burning plasma with high 
efficiency for indefinite periods of time; how to keep a continuously 
burning plasma from damaging its surrounding walls--and the walls from 
contaminating the plasma; how to extract the fusion energy from a 
burning plasma efficiently and use it to produce electricity and a 
sustained supply of tritium fuel; and ultimately how to design 
economical fusion power plants. These requirements motivate a multi-
disciplinary research program spanning such diverse fields as plasma 
physics and material science, and advancing a range of technologies 
including plasma diagnostics, magnets, radio-frequency and microwave 
sources and systems, controls, and computer simulation.
    The key scientific and technical research areas whose development 
would have a major effect on progress toward fusion energy production 
were systematically identified, categorized and described in the three 
resource documents that form the starting point for ReNeW: the report 
of the Priorities, Gaps and Opportunities Panel, chaired by Martin 
Greenwald; the report of the Toroidal Alternates Panel, chaired by 
David Hill; and the report of the Energy Policy Act task group of the 
U.S. Burning Plasma Organization.
    In Part I of the ReNeW Report the full panoply of fusion issues are 
summarized, and then examined from the point of view of research 
requirements: the facilities, tools and research programs that are 
needed to address each. The research thrusts presented in Part 11 are 
essentially integrated combinations of these research requirements. 
[NOTE: This paragraph is similar to the first paragraph on page 2.]

The ReNeW thrusts: a research portfolio

Thrust definition
    The ReNeW thrusts listed below are the key results of the Workshop. 
They constitute eighteen concerted research actions to address the 
scientific and technological frontiers of fusion research. Each thrust 
attacks a related set of fusion science issues, using a combination of 
new and existing tools, in an integrated manner. In this sense each 
thrust attempts a certain stand-alone integrity.
    Yet the thrusts are linked, both by scientific commonality and by 
mutual dependence. The most important linkages--for example, 
requirements that a certain thrust be pursued and at least in part 
accomplished before another is initiated--are discussed in Part 11 of 
the main Report. Here we emphasize that fusion advances along a broad 
scientific and technological front, in which each thrust plays an 
important role.
    The thrusts span a wide range of sizes, from relatively focused 
activities to much larger, broadly encompassing efforts. This spectrum 
is expected to enhance the flexibility of OFES planning.
    ReNeW participants consider all the thrusts to be realistic: their 
objectives can be achieved if attacked with sufficient vigor and 
commitment. Three additional elements characterize, in varying degrees, 
the ReNeW thrusts:

        <bullet>  Advancement in fundamental science and technology--
        such as the development of broadly applicable theoretical and 
        simulation tools, or frontier studies in materials physics.

        <bullet>  Confrontation with critical fusion challenges--such 
        as plasma-wall interactions, or the control of transient plasma 
        events.

        <bullet>  The potential for major transformation of the 
        program--such as altering the vision of a future fusion 
        reactor, or shortening the time scale for fusion's realization.

Thrust organization
    The resource documents used by ReNeW organized the issues into five 
scientific and technical research areas. Correspondingly, the ReNeW 
organizational structure was based on five Themes, each being further 
sub-divided into three to seven panels. The thrusts range in content 
over all the issues delineated in the five Themes.
    Many of the ReNeW thrusts address issues from more than one Theme. 
For this reason the scientists contributing to most thrusts are from a 
variety of research areas, and key elements of a given thrust may stem 
from ideas developed in several Themes. In other words, the content of 
a typical thrust transcends that of any single Theme. Nonetheless, it 
is convenient to classify each thrust according to the Theme that 
contains its most central issues.
    The ReNeW thrusts are:

Theme 1: Burning plasmas in ITER.

    ITER participation will be a major focus of U.S. fusion research 
during the time period considered by ReNeW. The opportunities and 
challenges associated with the ITER project are treated in Theme 1.

         Thrust 1: Develop measurement techniques to understand and 
        control burning plasmas. This thrust would develop new and 
        improved diagnostic methods for measuring and controlling key 
        aspects of burning plasmas. The desired measurement techniques 
        must be robust in the hostile burning-plasma environment and 
        provide reliable information for long time periods. While 
        initially focused on providing critical measurements for ITER, 
        measurement capability would also be developed for steady-state 
        burning plasmas beyond ITER.

         Thrust 2: Control transient events in burning plasmas. This 
        thrust would develop the scientific understanding and technical 
        capability to predict and avoid disruptions and to mitigate 
        their consequences, in particular for ITER. Also, tools would 
        be developed to control edge plasma transport and stability, to 
        minimize instability-driven heat impulses to the first wall.

         Thrust 3: Understand the role of alpha particles in burning 
        plasmas. Key actions would be developing diagnostics to measure 
        alpha particle properties and alpha-induced fluctuations, 
        incorporating validated theories for alpha particle behavior 
        into integrated burning-plasma simulation tools, and expanding 
        the operating regime of burning plasma devices through the 
        development of control techniques for alpha-driven 
        instabilities.

         Thrust 4: Qualify operational scenarios and the supporting 
        physics basis for ITER. This thrust would address key issues in 
        forming, heating, sustaining, and operating the high-
        temperature plasmas required for ITER's mission. An integrated 
        research campaign would investigate burning-plasma-relevant 
        conditions with the use of upgraded tools for heating and 
        current drive, particle control and fueling, and heat flux 
        mitigation on existing tokamaks, along with a possible new 
        facility.

Theme 2: Creating predictable, high-performance, steady-state plasmas

    An economic fusion reactor will require a steady state with higher 
fusion density and greater fraction of self-heating than ITER. This 
Theme addresses a broad range of issues, including both plasma physics 
and engineering science, needed to demonstrate that plasmas with the 
needed conditions can be achieved and controlled. Predictive capability 
to enable confident extrapolation to a demonstration reactor is 
emphasized.

         Thrust 5: Expand the limits for controlling and sustaining 
        fusion plasmas. This thrust would integrate development of the 
        diagnostic, auxiliary heating, current drive, fueling systems 
        and control systems needed to maintain the nonlinear tokamak 
        plasma state, seeking to maximize performance. The thrust will 
        exploit existing experiments to test and develop new ideas and 
        proceed with increased integration in upcoming steady-state 
        experiments and alpha-heated plasmas in ITER, ultimately 
        enabling the self-heated and self-driven plasmas needed for a 
        fusion power plant.

         Thrust 6: Develop predictive models for fusion plasmas, 
        supported by theory and challenged with experimental 
        measurement. Advances in plasma theory and simulation would be 
        combined with innovative diagnostic methods and experiments to 
        improve and validate models of confined plasma dynamics. 
        Assessment of critical model elements would be provided by 
        dedicated analysts, acting as bridges between theorists, code 
        developers and experimentalists.

         Thrust 7: Exploit high temperature superconductors and other 
        magnet innovations to advance fusion research. Magnets are 
        crucial for all MFE concepts. This focused thrust would perform 
        the research necessary to enable revolutionary new high 
        temperature superconducting materials to be used in fusion 
        applications. Key activities include development of high-
        current conductors and cables, and integration into components 
        of fusion research experiments, with great potential to improve 
        their design options.

         Thrust 8: Understand the highly integrated dynamics of 
        dominantly self-heated and self-sustained burning plasmas. This 
        thrust would explore scenarios where, as in a reactor, most 
        heat comes from fusion alphas and most current is self-driven 
        by plasma gradients. It would start by assessing potential 
        advanced plasma scenarios and upgrades on ITER which could 
        enhance its performance. In parallel, scoping/design studies 
        would be done for a new US facility to explore the high fusion 
        gain DEMO plasma regime. The studies would support actions to 
        proceed with ITER enhancements, the construction of a U.S. D-T 
        facility, or both.

Theme 3: Taming the plasma-material interface

    Magnetic confinement sharply reduces the contact between the plasma 
and the vessel walls, but such contact cannot be entirely eliminated. 
Advanced wall materials and magnetic field structures that can prevent 
both rapid wall erosion and plasma contamination are studied in Theme 
3.

         Thrust 9: Unfold the physics of boundary layer plasmas. 
        Comprehensive new diagnostics would be deployed in present 
        confinement devices to measure key plasma parameters in the 
        boundary region, including densities and temperatures, 
        radiation, flow speeds, electric fields and turbulence levels. 
        The results could vastly improve numerical simulation of the 
        edge region, allowing, in particular, reliable prediction of 
        wall erosion and better radio-frequency antenna design.

         Thrust 10: Decode and advance the science and technology of 
        plasma-surface interactions. Measurement of complex interaction 
        of plasma with material surfaces under precisely controlled and 
        well-diagnosed conditions would provide the information needed 
        to develop comprehensive models to uncover the basic physics. 
        These measurements would be made on both upgraded present 
        facilities and new boundary plasma simulators capable of 
        testing irradiated and toxic materials.

         Thrust 11: Improve power handling through engineering 
        innovation. Heat removal capability would be advanced by 
        innovative refractory power-exhaust components, in parallel 
        with assessment of alternative liquid-metal schemes. Materials 
        research would provide ductile, reduced-activation refractory 
        alloys, which would be developed into prototypes for 
        qualification in high-heat flux test devices. Practical 
        components would be deployed on existing or new fusion 
        facilities.

         Thrust 12: Demonstrate an integrated solution for plasma-
        material interfaces compatible with an optimized core plasma. 
        Understanding of interactions between a fusion plasma core 
        region and its boundary would be advanced and validated in a 
        new facility. The facility would combine high power density, 
        long pulse length, elevated wall temperature and flexibility 
        regarding boundary systems, in a limited-activation 
        environment. Knowledge gained from thrusts 9-11 would help 
        guide the design of this facility.

Theme 4: Harnessing fusion power

    Fusion energy from D-T reactions appears in the form of very 
energetic neutrons. Theme 4 is concerned with the means of capturing 
this energy, while simultaneously breeding the tritium atoms needed to 
maintain the reaction.

         Thrust 13: Establish the science and technology for fusion 
        power extraction and tritium sustainability. Fusion must create 
        the tritium fuel it uses, and do so in the same systems that 
        capture and extract the fusion energy. This thrust develops the 
        scientific foundation and engineering of practical, safe and 
        reliable processes and components that harvest the heat, create 
        and extract the tritium, and rapidly process and contain the 
        tritium. The thrust will culminate in a fuel and power handling 
        capability on a scale needed for a demonstration energy system.

         Thrust 14: Develop the material science and technology needed 
        to harness fusion power. The objective of this thrust is to 
        create low-activation, high-performance materials that 
        effectively function for a long time in the hostile fusion 
        environment. An essential requirement to fulfill the mission of 
        this thrust is the establishment of a fusion-relevant neutron 
        source to perform accelerated characterization of the effects 
        of radiation damage to materials.

         Thrust 15: Create integrated designs and models for attractive 
        fusion power systems. Advanced design studies focused primarily 
        on DEMO, but also on nearer term fusion nuclear facilities is 
        one element of this thrust. These would lay out the scientific 
        basis for fusion power and provide focus to the research 
        efforts required to close the knowledge gap to DEMO. The other 
        element comprises science-based predictive modeling 
        capabilities for plasma chamber components and related systems.

Theme 5: Optimizing the magnetic configuration

    Currently most large fusion experimental devices are based on the 
tokamak magnetic configuration, a design using a strong, axisymmetric 
external magnetic field to achieve operating parameters close to those 
in a fusion reactor. Alternative magnetic configurations are studied to 
investigate physics and technology principles that could optimize the 
design of future fusion devices. The most developed alternate toroidal 
magnetic configurations are considered in Theme 5.

         Thrust 16: Develop the spherical torus to advance fusion 
        nuclear science. Experiments on the small aspect-ratio tokamak, 
        or Spherical Torus, would be extended to regimes of lower 
        collision frequency, approaching values needed for fusion 
        nuclear science applications. Plasma start-up, power handling, 
        controlled stability, and sustainment issues in this regime 
        would be studied in long-pulse experiments using stronger 
        magnetic fields, improved heating and current drive, and 
        advanced diagnostics, with strong coupling to theory and 
        modeling.

         Thrust 17: Optimize steady-state, disruption-free toroidal 
        confinement using 3-D magnetic shaping, and emphasizing quasi-
        symmetry principles. Magnetic quasi-symmetry in 3-D 
        configurations is expected to lead to excellent plasma 
        confinement while ensuring stable steady-state burning plasma 
        performance with minimal need for control. This thrust would 
        conduct new quasi-symmetric experiments, which would, together 
        with theory, engineering design, and targeted international 
        collaboration, validate extrapolation to burning plasma 
        applications.

         Thrust 18: Achieve high-performance toroidal confinement using 
        minimal externally applied magnetic field. This thrust advances 
        a multi-faceted program of theory, simulation, and well-
        diagnosed experiments to resolve critical issues of 
        confinement, stability, and current sustainment in magnetic 
        configurations with minimal toroidal field. New devices with 
        heating and current drive systems would enable scaling to high 
        temperature and small ion gyroradius. Fusion system studies 
        will guide productive directions for present and future 
        research.

Appendix:

                            A Fusion Primer

    Just as the heaviest elements, such as uranium, release energy when 
fission allows them to become smaller, so the very lightest elements 
release energy when they fuse, joining together to produce larger 
nuclei. (The dividing line between nuclei that are too light and want 
to fuse and those that are too heavy occurs at iron, the most stable 
nucleus.) The reaction that occurs most readily is the fusion of two 
isotopes of hydrogen: deuterium (D), whose nucleus consists of a proton 
and a neutron, and tritium (T), whose nucleus contains a proton and two 
neutrons. Fusion of these nuclei--the so-called D-T reaction--yields 
helium, an inert, non-radioactive gas whose nucleus has two protons and 
two neutrons. This helium nucleus or ``alpha particle'' carries 20 
percent of the fusion energy production. It is contained by magnetic 
fields, and provides the plasma self-heating that sustains the very 
high plasma temperature. The remaining neutron is released at very high 
energy--energy whose capture provides 80 percent of the energetic 
profit of the reaction.
    A reactor based on D-T reactions would have to breed tritium from 
lithium (which is plentiful), using the neutrons liberated in the D-T 
fusion process. More advanced fuel cycles would not require tritium 
breeding, but the D-T reaction has advantages with regard to 
accessibility and energy production. It is expected to be used in at 
least the first generation of fusion power reactors.
    Because all nuclei are positively charged, they electrically repel 
each other. This ``Coulomb repulsion'' can be overcome only by bringing 
the reactants to very high temperatures; in the case of D-T the 
required temperature exceeds one hundred million degrees.
    Far below thermonuclear temperatures the electron on each hydrogen 
atom breaks free from its nucleus, yielding independent ion and 
electron fluids. The resulting electrically active gas, called plasma, 
can carry enormous electric currents; it is strongly responsive to 
electromagnetic fields, while at the same time able to produce strong 
fields on its own. Thus the operating fluid in any fusion device is 
plasma, a form of matter more electro-dynamically active than any 
conventional liquid, solid or gas.
    In summary, the key features of D-T fusion are:

        1.  an operating temperature in the hundred-million degree 
        range, with the result that the working gas is necessarily in 
        the plasma state;

        2.  an energy release primarily in the form of very fast alpha 
        particles and neutrons, whose energy must be captured to 
        provide the thermal output of the reactor;

        3.  the need to breed tritium from the D-T neutron and lithium.

Heating and confinement

    Evidently the most basic tasks in constructing a fusion reactor are 
to heat a hydrogen gas to thermonuclear temperatures, and then to 
confine the resulting plasma for a time long enough for fusion 
reactions to take place, thus maintaining the high temperature. In most 
reactor designs heating is provided by a combination of driving 
electric currents through the plasma, directing energetic particle 
beams at the plasma, and energizing plasma particles by means of radio-
frequency electromagnetic radiation, similar to the heating mechanism 
of a microwave oven.
    Confinement is measured by the so-called energy confinement time, 
denoted by tE. Since both reaction rates and energy loss rates depend 
upon the plasma density n, the required value of tE depends on plasma 
density. It turns out that the critical parameter is the product ntE; 
when density is measured in ions per cubic centimeter and tE in 
seconds, sufficient confinement has been achieved if the product 
exceeds about 10<SUP>14</SUP> sec/cm<SUP>3</SUP> (the ``Lawson 
criterion''). [NOTE: This paragraph is a little technical for a general 
primer, but it seems to work.]
    One way to satisfy the Lawson criterion is to compress a hydrogen 
pellet to extreme density values, exceeding the density of conventional 
solids, while allowing relatively short confinement times. This is the 
approach taken by the inertial confinement program. The main arm of 
international fusion research uses much lower densities-lower even than 
the density of air at the Earth's surface. Thus the working fluid is a 
rarefied plasma, whose low density is part of the reason for the 
intrinsic safety of the device. The relatively long confinement time 
thereby required is supplied by magnetic fields, taking advantage of 
the plasma's strong response to such fields. This line of research is 
called magnetic fusion, although the phrase ``magnetic confinement for 
fusion'' would be more descriptive.

Magnetic confinement

    Neon signs confine cold plasma in glass tubes. But a very hot, 
rarefied plasma--a fusion plasma--could not maintain thermonuclear 
temperatures if it had substantial contact with a material wall. At the 
densities used in magnetic fusion, plasma resting against a wall will 
quickly cool, bringing fusion reactions to a halt. So the confining 
magnetic field must protect the plasma from being quenched by contact 
with its bounding vessel. A magnetic field configured to provide this 
confinement is traditionally called a ``magnetic bottle.''
    A magnetic bottle can work because charged particles--the ions and 
electrons that constitute a fusion plasma--spiral around the local 
field direction in helical orbits; the stronger the field, the tighter 
the helix. Thus, while motion parallel to the field is unaffected, 
motion perpendicular to the local field direction is strongly 
inhibited.
    This inhibition of perpendicular motion has two effects. First, it 
allows the magnetic force to act against plasma pressure, pushing 
plasma away from the vessel wall. This profile control is especially 
effective when a divertor--a magnetic geometry in which the outermost 
field lines are diverted into an external chamber--is employed. In this 
case the layer of plasma near the vessel wall has especially low 
density, imposing a near vacuum between the inner plasma core and the 
wall.
    The second insulating effect of the magnetic field pertains to 
dissipative transport. The inhibition of perpendicular motion affects 
plasma diffusion and heat conduction: transport in directions 
transverse to the field is sharply reduced, while transport parallel to 
the field is unaffected. For an appropriate field configuration this 
anisotropy markedly slows the conduction of heat from the fusion plasma 
core to the boundary region. Notice that this effect acts throughout 
the plasma volume, not only near the wall.
    It is significant that while a magnetic bottle can reduce plasma 
contact with material boundaries, such contact is not eliminated. The 
residual contact is sufficiently tenuous to maintain a hot plasma 
interior, but still problematic because the wall material can be 
scarred. Aside from the obvious lifetime aspects of such erosion, 
plasma-wall interaction can allow impurities from the wall to enter the 
confinement region, with deleterious effects on both confinement and 
fusion reaction rates. Thus, significant materials-physics issues arise 
in the fusion quest.
    A centuries-old theorem in topology shows that any closed surface 
on which the magnetic field does not vanish must have the topology of a 
torus: a magnetic bottle must be toroidal--donut-shaped. All the 
devices consider by ReNeW resemble donuts in this sense. (So-called 
``magnetic mirrors'' get around the topological theorem by ``plugging'' 
the ends of a cylindrical field configuration; the mirror approach to 
confinement was not part of the purview of this ReNeW.) Since the only 
source of a magnetic field is electric current, magnetic confinement is 
based on electric currents flowing around or within some toroidal 
surface.
    Most confinement devices employ a combination of external currents, 
in wire-wound coils, and internal currents, flowing within the plasma 
itself, to maintain the toroidal field structure. A prominent example 
is the tokamak, in which external and internal currents combine to 
yield a confining field that is symmetric with respect to a central 
axis. Other confinement schemes have yet to achieve the tokamak's level 
of performance but could bring operating advantages. For example, the 
stellarator deliberately breaks the field symmetry in order to simplify 
steady-state operation. And there are schemes under investigation that 
require relatively weak (and therefore less expensive) external 
magnetic fields.
    Constructing a magnetic bottle does not solve the problem of 
confinement; there are essentially two additional hurdles. First, 
plasma currents, arising spontaneously from electromagnetic and fluid 
instability, can create magnetic fields that open up the bottle. 
Second, even when the magnetic configuration is stable with regard to 
gross distortion, localized ``micro-instabilities'' can produce 
fluctuations that degrade confinement. Common versions of such 
accelerated transport resemble boiling water on a stove: the water 
remains in the pot, but its turbulent motion rapidly conducts heat from 
the hot bottom to the cooler upper surface.
    In the last decades of the twentieth century fusion research gained 
important scientific victories in plasma confinement: major advances in 
both the control of instability and the amelioration of turbulent 
transport. While significant confinement issues remain to be resolved, 
and while the fusion scientific community looks forward to substantial 
further improvements, the present demonstrated level of confinement is 
sufficient to impart confidence in the future of magnetic fusion 
energy.
    Heating and confinement are the central, but not the only, 
challenges that must be faced before fusion power can be realized. Even 
a perfectly confined plasma at thermonuclear temperature must be fueled 
with reactant, it must be promptly cleansed of the helium that fusion 
produces, its thermal energy yield must be effectively retrieved, and 
so on. Such challenges occupy increasing research attention as the 
fusion program matures; they are the subject of major attention by 
ReNeW.

                    Biography for Stewart C. Prager
    Stewart Prager is Director of the Princeton Plasma Physics 
Laboratory, a Department of Energy national laboratory, and Professor 
of Astrophysical Sciences at Princeton University. He received his 
Ph.D. degree in plasma physics from Columbia University in 1975. 
Following two years performing fusion energy research at General 
Atomics in San Diego he joined the University of Wisconsin Madison as 
an Assistant Professor of physics. Prager remained at the University of 
Wisconsin, as a Professor of physics, until 2009 when he assumed his 
position at Princeton.
    Prager's research focuses on basic plasma physics, including 
applications to fusion energy and, more recently, applications to 
astrophysics. He has worked to advance the understanding and control of 
spontaneous plasma processes, such as turbulence, transport, and 
processes characterized under the umbrella of magnetic self-
organization. While at Wisconsin, Prager was director of the Madison 
Symmetric Torus (MST) experimental facility supported by DOE. He also 
served as Director of the Center for Magnetic Self-Organization in 
Laboratory and Astrophysical Plasmas, established through the National 
Science Foundation program of ``physics frontier centers.''
    Prager has participated in numerous scientific planning and 
advisory processes, including service as the chair of the DOE's Fusion 
Energy Sciences Advisory Committee, as Chair of the Division of Plasma 
Physics of the American Physical Society (APS), and as President of the 
University Fusion Association. He is also a co-recipient of the APS 
Dawson Prize for Excellence in Plasma Physics, a fellow of the APS, and 
a recipient of the Leadership Award of Fusion Power Associates.

    Chairman Baird. Thank you.
    Dr. Mason.

STATEMENT OF DR. THOMAS E. MASON, DIRECTOR, OAK RIDGE NATIONAL 
                           LABORATORY

    Dr. Mason. Mr. Chairman, Ranking Member Inglis and Members 
of the Committee, thank you for the opportunity to appear 
before you today. My name is Thom Mason. I am the Director of 
the Department of Energy's Oak Ridge National Laboratory 
(ORNL), and unlike the other members of the panel, I am not an 
expert in fusion. But as Director of DOE'S largest multipurpose 
laboratory, I oversee a broad program of energy-related R&D 
that includes magnetic fusion, and it is from that perspective 
that I see fusion research as an essential part of the Nation's 
energy R&D portfolio.
    You have heard how this is a promising source of energy 
that uses widely available fuel and produces no greenhouse gas 
emissions or long-lived radioactive waste. In fact, one could 
say that the fuel for fusion is smart people and high-end 
manufacturing, and so from that point of view, from the point 
of view of U.S. competitiveness and the type of energy source 
that is worth seeking, I think fusion is significant. Its 
science and technology base is now mature enough to warrant a 
significant investment in determining our readiness to advance 
to a prototype fusion reactor.
    ITER is an international project to demonstrate the 
scientific and technological feasibility of fusion energy. It 
is being built at Cadarache in France by seven partners: the 
United States, Russia, the European Union, Japan, China, South 
Korea and India. Each partner is responsible for a share of the 
hardware, personnel and cash contributions towards common 
expenses. This international partnership presents an 
extraordinary number of technical and management challenges. 
ITER will be twice the size of the largest existing fusion 
experiment. It is a first-of-a-kind experimental facility made 
up of a large number of complex systems provided by suppliers 
all over the world and they must be integrated into a device 
that can function under extremely demanding challenges. The 
ITER organization has also faced the challenge of standing up 
and staffing a new multinational organization to provide 
coordination, project management, integration and engineering 
while overseeing efforts to finalize the design and supervise 
construction at Cadarache. Given these challenges, it is not 
surprising that there have been some teething pains. For 
example, in the United States we have struggled to secure 
funding for ITER during some very tough budget years, but now 
with the strong support provided by Congress in fiscal year 
2009, for which we are very grateful, we are on a sound 
footing.
    Today the ITER organization has two urgent tasks: 
completing the overall design and establishing realistic cost 
and schedule baselines. The U.S. fusion community is fully 
engaged in the execution of these tasks.
    Oak Ridge has hosted and led the U.S. ITER project office 
since 2006. We are responsible for all U.S. activities 
supporting ITER construction. The estimated cost of these 
activities is between $1.4 and $2.2 billion, so this is a heavy 
responsibility and it is one that we take very seriously. The 
office was located at Oak Ridge to take advantage of project 
management expertise developed during the Spallation Neutron 
Source project, which as you have heard was a $1.4 billion 
neutron-scattering facility that was designed and built by a 
partnership of six Department of Energy national laboratories. 
It was completed on scope, on schedule and on budget in 2006. 
We are working with other national laboratories, industry and 
universities to deliver the U.S. contributions to ITER.
    Recently, two contracts worth $34 million were awarded to 
U.S. companies: one in Waterbury, Connecticut, and one in 
Carteret, New Jersey. The New Jersey supplier has also received 
a contract from the European Union's ITER domestic agency. This 
speaks well of the ability of U.S. companies to compete 
internationally for work supporting ITER. More than 160 
companies and universities in 33 states have worked directly on 
the project, and many others are interested in future 
procurements. The U.S. ITER team also provides substantial 
support to the international organization by developing systems 
engineering procedures, technical baseline documents, project 
management plans and so forth.
    As ITER proceeds through construction into operation, Oak 
Ridge will continue to play a substantial role in fusion and 
the U.S. ITER project will remain a high priority. We will use 
our distinctive capabilities in materials R&D, nuclear 
technology and high-performance computing to advance fusion 
science, technology and engineering.
    One specific focus will be a next-generation fusion nuclear 
science facility to answer questions that lie outside of ITER's 
scope. Our strengths at Oak Ridge position us to lead the 
technical and programmatic planning for this facility and we 
will work with the U.S. community to bring it into being at an 
appropriate pace.
    ITER represents an opportunity for the DOE national 
laboratories, U.S. universities and U.S. industry. We are now 
positioned to make substantial contributions to ITER and to 
reap the rewards it will provide in terms of increased 
scientific knowledge, high-tech jobs that will help us rebuild 
U.S. manufacturing capacity, and training for fusion scientists 
and engineers who work on ITER and bring home what they learn. 
A sustained investment in ITER is essential to realizing the 
benefits of this extraordinary effort.
    We also need a vibrant domestic fusion program to take 
advantage of the knowledge gained from ITER and to continue 
advancing toward commercial fusion power. ITER is a major step 
forward, but it will not answer all of our questions.
    Congresswoman Zoe Lofgren has introduced a bill calling for 
a comprehensive plan to identify the R&D facilities needed to 
ensure the realization of practical fusion energy, and this is 
a vital step in setting the direction of the U.S. fusion 
program. The bill also calls for investing in U.S. capability 
in fusion engineering science. This will enable us to develop 
the materials and enabling technology needed to realize the 
full benefit of ITER and to take the next steps toward a fusion 
demonstration facility.
    Sustained support for fusion engineering science and 
facilities is essential to successful development of this 
future energy source. As we search for sustainable energy 
solutions, we need a balanced R&D portfolio that includes both 
near- to mid-term improvements in energy efficiency, renewables 
and fission, along with electrification of our transportation 
sector, and fusion as a source of clean, safe and abundant 
baseload power in the long-term interest.
    Thank you again for the opportunity to testify. I welcome 
your questions on this important topic.
    [The prepared statement of Dr. Mason follows:]
                 Prepared Statement of Thomas E. Mason
    Mr. Chairman, Ranking Member Inglis, and Members of the Committee: 
Thank you for the opportunity to appear before you today. My name is 
Thomas E. Mason, and I am Director of the U.S. Department of Energy's 
Oak Ridge National Laboratory (ORNL) in Oak Ridge, Tennessee. It is an 
honor to provide this testimony on the status of the ITER international 
fusion project, the role of ORNL as the headquarters of the U.S. ITER 
Project Office, and the way that fusion research fits into the overall 
portfolio of research and development (R&D) at ORNL.

INTRODUCTION

    ORNL is the Department of Energy's largest science and energy 
laboratory. From my position as Director of a national laboratory with 
research encompassing fundamental science of relevance to energy 
through an extensive suite of energy programs--including energy 
efficiency; energy from renewable, fossil, and fission sources; and 
energy transmission and distribution--I view fusion as an essential 
part of the Nation's R&D portfolio. Fusion is a promising long-term 
source of energy whose fuel is widely available and whose emissions 
would include neither CO<INF>2</INF> nor long-lived radioactive waste. 
Its scientific and technological basis is maturing and warrants a 
significant federal investment, with the aim of advancing the 
underlying science and gaining understanding of the technology 
sufficient to enable future decisions on advancing to the level of a 
prototype reactor.
    ORNL has been engaged in research on fusion energy since the early 
1950s, when the Atomic Energy Commission launched Project Sherwood with 
the goal of developing a fusion analog to the fission reactor. From its 
earliest days, the Oak Ridge fusion program has drawn on the diverse 
resources afforded by ORNL's standing as a multi-program laboratory, 
and it has leveraged substantial investments by the Department of 
Energy in materials science, nuclear technology, and high-performance 
computing to deliver advances in plasma theory and simulation, magnetic 
confinement experiments, plasma heating and fueling, atomic physics, 
and materials development.
    As soon as magnetic fusion research was declassified in 1958, the 
ORNL program initiated extensive collaborations with the international 
fusion community, which continue today. In particular, ORNL has been a 
key contributor to ITER since the inception of this activity in 1985.
    The promise of fusion as a clean and abundant source of energy has 
driven extensive programs of R&D, at ORNL and other institutions 
throughout the world, for more than six decades. Impressive progress 
has been made in overcoming the challenges of harnessing fusion energy. 
From experiments in the United States and other nations, we have 
established the scientific and technical knowledge base for fusion, and 
we have reached a point at which the next step is to create a burning 
plasma: that is, an ionized gas in which the alpha particles produced 
by the fusion of hydrogen isotopes provide enough heat to keep the 
fusion reaction going.
    With the potential to provide clean baseload electrical energy 
without a fuel resource constraint, fusion can be an important 
component of a long-term shift away from fossil fuels with the 
attendant environmental, economic, and national security benefits. The 
main cost lies in the intellectual content and high-end manufacturing, 
both of which are hallmarks of American industrial strength, so in 
addition to providing an attractive solution to our energy needs, 
fusion offers the potential to drive the development of a new industry.

THE ITER INTERNATIONAL FUSION PROJECT

    The ITER international fusion project has been established to 
construct an experimental device that will demonstrate the scientific 
and technological feasibility of fusion energy and achieve sustained 
fusion power generation. The long-range goal is for ITER to produce at 
least ten times as much power as is needed to heat the plasma. It will 
test many of the key technologies needed to use fusion as a practical 
energy source, and it will provide industry with the opportunity to 
validate production techniques for components needed for future fusion 
power plants.
    ITER will be constructed at Cadarache in southeastern France from 
components fabricated in the countries of the ITER Members: the United 
States, the Russian Federation, the European Union, Japan, the People's 
Republic of China, South Korea, and India. A Joint Implementation 
Agreement, finalized in 2007, governs the details of construction, 
operation, and decommissioning, as well as financing, organization, and 
staffing. Each ITER Member is responsible for supplying a share of 
hardware (including supporting R&D and design); personnel assigned to 
the ITER site; and cash contributions toward common expenses. The 
international ITER Organization established by the Joint Implementation 
Agreement is the legal entity responsible for project execution. It is 
governed by a Council that includes senior U.S. Department of Energy 
officials.
    Each ITER Member was tasked with creating a Domestic Agency to 
fulfill the Member's obligations under the ITER Joint Implementation 
Agreement. The Domestic Agencies' role is to perform R&D and design and 
to procure each Member's in-kind (i.e., non-cash) contributions to 
ITER. The Domestic Agencies employ their own staff, have their own 
budget, and place contracts with suppliers. The United States was the 
first ITER Member to establish its Domestic Agency under the auspices 
of the Office of Fusion Energy Sciences within DOE's Office of Science. 
This is the U.S. ITER Project Office, about which I will speak further 
in a moment.
    Under the terms of the Joint Implementation Agreement, the United 
States is a full Member of the ITER project. Our 9.09 percent share of 
the total cost gives us access to all scientific data and the right to 
propose and carry out experiments. It also creates opportunities for 
U.S. industry to manufacture the high-technology components that make 
up roughly 80 percent of our contribution.
    The ITER project presents an extraordinary number of technical and 
management challenges. Although the design of ITER is not yet complete, 
it is expected to be twice the size of the largest existing fusion 
experiment. It is a ``first-of-a-kind'' experimental facility 
comprising a large number of systems, some of which require innovative 
technologies. These systems, to be constructed by suppliers selected by 
the seven Domestic Agencies, must be integrated to produce a system 
that can perform under extremely demanding conditions.
    The ITER Organization has also faced the challenge of standing up 
and staffing a new organization to provide coordination, project 
management, technical integration, and engineering while overseeing 
efforts to finalize the ITER design and supervising early-stage civil 
construction in Cadarache. A host of issues relating to finances, 
communication, intellectual property rights, conflicting national 
safety and import/export regulations, and other areas unique to this 
large-scale, high-visibility multinational scientific collaboration 
have had to be resolved to the satisfaction of all parties.
    Given these challenges, it is not surprising that the project has 
experienced some ``teething pains.'' We have not been immune to those 
teething pains in the United States as we struggled to secure funding 
during some very tough budget years; however, with the support provided 
by Congress in FY 2009 we are now on a sound footing and able to fully 
engage our international partners. The most urgent tasks facing the 
international ITER Organization today are completing the overall ITER 
design and systems engineering and establishing realistic schedule and 
cost baselines. The U.S. fusion community is supporting these tasks, 
while continuing to carry out an extensive program of work that is 
enhancing the physics basis and technology support for ITER.

THE ROLE OF ORNL AS HEADQUARTERS OF THE U.S. ITER PROJECT OFFICE

    Since 2006, ORNL has hosted and led the U.S. ITER Project Office, 
which is responsible for project management of all U.S. activities to 
support construction of ITER. The U.S. share of the international ITER 
project construction has an estimated range of $1.4 billion to $2.2 
billion, so this is a heavy responsibility and one that we at ORNL take 
very seriously.
    All U.S. ITER activities are managed by the Department of Energy's 
Office of Science as a Major Item of Equipment (MIE) project and are 
subject to rigorous review. The project team under ORNL includes 
Princeton Plasma Physics Laboratory and Savannah River National 
Laboratory as partner laboratories.
    The U.S. ITER Project Office was located at Oak Ridge to take 
advantage of the project management expertise developed during the 
construction of the Spallation Neutron Source. This $1.4 billion 
neutron scattering facility was designed and constructed by a 
partnership of six Department of Energy national laboratories, which I 
had the privilege of leading from 2001 to 2006. The project was 
completed ahead of schedule and within budget in 2006, and many members 
of the project team are now applying their expertise to the needs of 
the U.S. ITER Project Office.
    The U.S. ITER team is engaging other national laboratories and 
industry and university partners across the United States in R&D, 
engineering, manufacturing, and fabrication of the U.S. contributions 
to ITER. Earlier this month, the U.S. ITER Project Office awarded two 
contracts totaling $33.6 million, one to a company in Waterbury, 
Connecticut, and the other to a company in Carteret, New Jersey, for 
components of the superconducting magnets that will confine the ITER 
plasma. It is noteworthy that in addition to these U.S.-funded 
contracts, a similar award has been made to the New Jersey supplier by 
the European Union's ITER Domestic Agency, which speaks well of the 
ability of U.S. industry to compete in this area on the world stage. To 
date, more than 160 companies and universities in 33 states have worked 
directly on the project, and some 140 have expressed interest in future 
procurements.
    The U.S. ITER team is also providing substantial support to the 
international ITER Organization. Staff have contributed to the 
development of systems engineering procedures and technical baseline 
documents, assisted in the development of project management processes 
and procurement arrangements, and evaluated project risks and assisted 
with development and implementation of risk mitigation plans.

FUSION ENERGY RESEARCH AT ORNL OVER THE NEXT 20 YEARS

    As the ITER project moves through construction and operation, ORNL 
will continue to play a substantial role, both through the U.S. ITER 
Project Office and through an extensive and well-integrated program of 
science, technology, and engineering aimed at supporting ITER and 
developing the understanding required for an attractive fusion energy 
source.
    In particular, we will take advantage of ORNL's distinctive 
capabilities in materials R&D, nuclear technology, and high-performance 
computing to deliver the science and technology needed to realize the 
full potential of ITER and to exploit the knowledge gained from it in 
advancing toward a fusion power plant. Expertise in nuclear design and 
operations, nuclear materials science, ITER, fusion engineering, and 
project management positions ORNL to lead U.S. technical and 
programmatic planning for a next-generation fusion nuclear science 
facility. Such a facility and associated R&D programs could establish 
the scientific basis for fusion fuel self-sufficiency and reliable and 
efficient power extraction under realistic fusion power reactor 
conditions.

CLOSING REMARKS

    The international ITER project represents an opportunity for the 
Department of Energy's national laboratories, U.S. universities, and 
U.S. industry to play a key role in a very challenging technical 
development and build a scientific and technical base for moving the 
fusion program from a science experiment to an engineering 
demonstration. The United States is positioned to make substantial 
contributions to the international ITER project and to reap the rewards 
that it will provide: increased scientific knowledge, high-technology 
jobs that can contribute to the restoration of U.S. manufacturing 
capacity, and training of fusion scientists and engineers who have the 
opportunity to work on this experiment with their colleagues from other 
nations and to apply the findings to the next generation of fusion 
systems. Sustaining the U.S. investment in ITER is essential to 
realizing the benefits of this extraordinary effort.
    Our investment in ITER should be complemented by a vibrant domestic 
fusion program to ensure that the United States is positioned to 
exploit ITER for research, capitalize on the knowledge gained from 
ITER, and move forward along the way to commercial fusion power. While 
ITER represents a path-breaking advance toward the goal of practical 
magnetic fusion energy, it cannot address all of the questions that 
must be answered before we can proceed with a fusion power plant. For 
example, ITER is based on a magnetic confinement concept known as the 
tokamak, which was invented in Russia in the 1960s. This configuration 
was selected for ITER because of its maturity, but other configurations 
have properties that may make them attractive candidates for commercial 
power plants. Other challenges that lie outside ITER's scope include 
the development of materials and components that can withstand the 
intense conditions at the edge of a burning plasma and handle prolonged 
exposure to neutrons.
    Legislation introduced by Congresswoman Zoe Lofgren, the Fusion 
Engineering Science and Fusion Energy Planning Act of 2009 (H.R. 3177), 
calls for the development of a comprehensive plan to identify what the 
U.S. fusion community must do to ensure the realization of practical 
fusion energy. This is a vital step in determining the direction of the 
U.S. fusion program, and it has the full support of the program's 
leadership.
    Congresswoman Lofgren's bill also calls for a targeted investment 
of $165 million over the next three years to enhance U.S. capability in 
fusion engineering science, in addition to the funding provided to the 
Department of Energy's Office of Fusion Energy Sciences for current 
programs. This would provide the U.S. fusion community with resources 
for developing the materials and enabling technology needed to realize 
the full benefit of the ITER project and to prepare for the 
experiments, such as a fusion nuclear science facility, needed to move 
beyond ITER to a successful fusion demonstration facility.
    Some might argue that the investment of substantial sums in fusion 
R&D over the past six decades should have enabled us to reach the goal 
of fusion energy by now. In response to such an argument, I would make 
two points. First, controlled fusion has turned out to be a much more 
challenging scientific and technological problem than was originally 
thought. Optimistic predictions based on an incomplete understanding of 
the difficulties involved have haunted the program in the past. Today, 
however, we have attained a level of understanding that provides a 
solid foundation for ITER and for continuing efforts to find ways of 
meeting our energy needs with fusion.
    Second, in 1972, federal funding for magnetic fusion energy was 
$33.3 million (about $172 million in today's dollars); it rose 
dramatically in response to the energy crisis, peaking in 1977 at 
roughly $1 billion in today's dollars, and then declined precipitously, 
to $230 million in 1997 (about $300 million in today's dollars) and has 
remained close to that level. The FY 2010 Energy and Water 
Appropriations bill passed by the Congress allocates $426 million for 
fusion energy sciences, which includes $135 million for the U.S. 
contribution to ITER. While much useful science and engineering has 
been accomplished at these funding levels, it is unlikely that we will 
be able to make the final leap to practical fusion power without 
sustained support for fusion engineering science and facilities for 
answering the questions that lie outside ITER's scope.
    Ambassador Kaname Ikeda, ITER Director General, has pointed out 
that the current world energy market is about $3 trillion and growing. 
The amount invested in energy R&D generally (not just in fusion) is 
very modest when compared with the economic value of the market; this 
is in sharp contrast to the situation in industries such as information 
technology or health sciences, despite the fact that the benefits to 
society and the scientific and technical challenges are no less 
significant.
    Perhaps even more important, most of the world's energy needs are 
now being met with nonrenewable fossil fuels that represent the primary 
source of the greenhouse gases that are contributing to climate change. 
As a safe and essentially inexhaustible source of baseload power that 
emits no greenhouse gases, fusion would be a sustainable energy 
solution for the long-term.
    This is not to say that improvements in energy efficiency, 
renewables, and fission, combined with electrification of our 
transportation sector, are not key near-term to medium-term challenges 
that we must address. But given that there is no single element of 
energy R&D that will yield supplies sufficient to meet our overall 
objectives of reducing the environmental consequences of CO<INF>2</INF> 
and other emissions and the national security and economic consequences 
of a growing reliance on imported petroleum, fusion needs to be an 
element of a balanced energy R&D portfolio. Answering the remaining key 
science questions about the feasibility of fusion, which is a central 
focus of ITER, will enable us to shift our focus to the technological 
and engineering challenges of fusion as a power source.
    Thank you again for the opportunity to testify. I welcome your 
questions on this important topic.

                     Biography for Thomas E. Mason
    Thomas Mason is a native of Dartmouth, Nova Scotia, in Canada. He 
graduated from Dalhousie University in Halifax, Nova Scotia, with a 
Bachelor of Science degree in physics and completed his postgraduate 
study at McMaster University in Hamilton, Ontario, Canada, receiving a 
Doctor of Philosophy degree in experimental condensed matter physics.
    After completing his Ph.D., he held a postdoctoral fellowship at 
AT&T Bell Laboratories in Murray Hill, New Jersey, and then became a 
Senior Scientist at Riso National Laboratory in Denmark. In 1993 he 
joined the faculty of the Department of Physics at the University of 
Toronto.
    Thom joined Oak Ridge National Laboratory (ORNL) in 1998 as 
Scientific Director for the Department of Energy's Spallation Neutron 
Source (SNS) project. In April 2001 he was named Associate Laboratory 
Director for SNS and Vice President of UT-Battelle, LLC, which manages 
ORNL for the Department. In 2006 he became Associate Laboratory 
Director for Neutron Sciences, leading a new organization charged with 
delivering safe and productive scientific facilities for studying of 
structure and dynamics of materials. In May 2007, Thom was named 
Director of Oak Ridge National Laboratory.
    Thom's research background is in the application of neutron 
scattering techniques to novel magnetic materials and superconductors 
using a variety of facilities in North America and Europe. He is co-
author of more than 100 refereed publications and an Associate of the 
Quantum Materials Program of the Canadian Institute for Advanced 
Research. In 1997, he was awarded an Alfred P. Sloan Foundation 
Research Fellowship. Thom was named a Fellow of the American 
Association for the Advancement of Science in 2001 and a Fellow of the 
American Physical Society in 2007. He received the Distinguished Alumni 
Award for the Sciences from McMaster University in 2008.
    Thom and his wife, Jennifer MacGillivray, also a native of Nova 
Scotia, live in Oak Ridge with their two sons, William and Simon.

    Chairman Baird. Dr. Betti.

    STATEMENT OF DR. RICCARDO BETTI, PROFESSOR, MECHANICAL 
   ENGINEERING & PHYSICS AND ASTRONOMY; SENIOR SCIENTIST AND 
 ASSISTANT DIRECTOR FOR ACADEMIC AFFAIRS, LABORATORY FOR LASER 
              ENERGETICS, UNIVERSITY OF ROCHESTER

    Dr. Betti. Mr. Chairman, Ranking Member Inglis and Members 
of the Committee, I am Riccardo Betti, Professor at the 
University of Rochester. Thank you for inviting me to testify 
today about the status of inertial fusion energy research and a 
vision for the future.
    Inertial fusion uses the same thermonuclear reactions and 
the same hydrogen fuel as magnetic fusion. Like gasoline in the 
cylinder of a car engine, fusion fuel must be ignited in order 
to produce useful energy. An ignited fuel can produce fusion 
energy that can greatly exceed the input energy. If the energy 
output is greater than the input, then we have an energy gain 
and only then fusion becomes an energy source. Thermonuclear 
ignition has been a scientific quest since the 1950s. Like no 
other time in history, we are now close to demonstrating 
ignition and energy gains in the laboratory.
    The path towards economically viable inertial fusion energy 
involves three crucial elements: first, the demonstration of 
ignition; second, the demonstration of high energy gains; and 
third, the development of the technology for a power plant. In 
the near future, the National Ignition Facility, the NIF, at 
Lawrence Livermore National Laboratory, by far the world's 
largest laser, is expected to achieve the first demonstration 
of thermonuclear ignition in the laboratory by compressing a 
tiny pellet of solid cryogenic hydrogen fuel using lasers.
    The current status of inertial fusion energy research in 
the United States is dominated by the National Ignition 
Campaign with a goal of achieving ignition on the NIF. The 
National Ignition Campaign is funded for reasons of national 
security by the Stockpile Stewardship Program under the 
National Nuclear Security Administration, the NNSA. In parallel 
to its national security mission, the National Ignition 
Campaign will be able to address many aspects of the physics 
principles of inertial fusion energy including ignition and 
energy gain. The National Ignition Campaign involves many 
institutions and major NNSA facilities. It is crucial to 
provide adequate funding to the National Ignition Campaign 
because achieving thermonuclear ignition in the laboratory is a 
milestone in the development of science and energy security. 
This goal should not be undermined by lack of funding. Not now, 
since we are so close to achieving ignition.
    The next step after ignition is the demonstration of high 
energy gain. For a viable power plant, the fusion energy output 
must greatly exceed the input energy to the fuel by more than 
100 times. It is unlikely that the NIF will achieve the high 
gains required for inertial fusion energy. The current 
configuration of the NIF will test one approach to inertial 
fusion, the indirect drive approach. Other inertial fusion 
concepts like direct drive, fast ignition and others funded 
through the Office of Fusion Energy Sciences, the OFES, and 
NNSA have the potential to generate the gains needed for 
inertial fusion energy. Some of these concepts can be tested on 
existing NNSA facilities.
    But unfortunately, the very limited access to these 
facilities constitutes a serious impediment to progress in this 
important area and to achieve the wide energy gains for 
inertial fusion energy. OFES and NNSA have already formed a 
joint program to support high-energy-density physics research. 
This partnership should be strengthened to increase access to 
NNSA facilities to study high-gain inertial fusion energy 
concepts.
    Achieving ignition and high gain does not imply that 
economically attractive fusion energy is just around the 
corner. Major technological and engineering challenges will 
still remain even after ignition. Before starting a major 
energy development program, it is prudent to undertake an 
assessment of the different options. This can begin immediately 
with a small exploratory technology program. A power plant 
requires a driver to compress the pellet, a target chamber and 
many other systems. The driver is the most complex and 
expensive component to the power plant. Several drivers have 
been proposed. Lasers are the most developed drivers. Other 
drivers would likely require longer development paths. An 
exploratory technology program should be started with the goal 
of assessing and selecting the most attractive driver in order 
to move quickly towards an expanded energy development program 
once the National Ignition Facility has demonstrated ignition 
and energy gain.
    Thank you, Mr. Chairman, for allowing me to testify on the 
next generation of fusion energy research.
    [The prepared statement of Dr. Betti follows:]
                  Prepared Statement of Riccardo Betti

EXECUTIVE SUMMARY

    Nuclear fusion powers the sun and other stars. Harnessing fusion 
energy has been a scientific quest since the 1950s. Inertial and 
magnetic confinement fusion are the main approaches to fusion energy 
pursued in the U.S. Both approaches use a 50-50 mixture of hydrogen 
isotopes (deuterium and tritium) as fuel. Like all advanced energy 
sources, inertial fusion requires a scientific demonstration of 
validity of the concept and a technology program to develop a viable 
power plant. The path to inertial fusion energy (IFE) involves three 
elements:

        <bullet>  The demonstration of the physics principles of 
        controlled inertial fusion: thermonuclear ignition and burn of 
        deuterium-tritium (DT) fuel

        <bullet>  The demonstration of high energy gain from DT fuel

        <bullet>  The development of the technology for an IFE power 
        plant.

Demonstration of Ignition and Burn: In the near future, the National 
Ignition Facility (NIF) at Lawrence Livermore National Laboratory 
(LLNL) is expected to achieve the first demonstration of thermonuclear 
ignition and moderate energy gain in the laboratory using lasers. In 
the indirect-drive approach to inertial fusion, the laser is used to 
heat a small metallic enclosure (a ``hohlraum'') to high temperatures. 
The heated metal of the hohlraum wall emits x rays that irradiate a 
tiny pellet of cryogenic solid DT fuel. The pellet implodes, achieving 
extreme pressures and temperatures that turn the solid DT into hot 
dense plasma producing copious amounts of nuclear fusion reactions 
(what is called ``a burning plasma''). Thermonuclear ignition is a 
thermal instability that causes the plasma to self-heat through a 
runaway process where fusion reactions increase the plasma temperature 
that in turn induces more fusion reactions. An ignited plasma can 
produce fusion energy that can greatly exceed the input energy required 
to produce the plasma. The process of laser irradiation, pellet 
implosion, thermonuclear ignition and energy gain is usually referred 
to as ``target physics.'' Demonstrating thermonuclear ignition and 
energy gain in the laboratory has been a goal of fusion energy research 
for the past five decades, and is widely considered a milestone in the 
development of fusion energy, as well as a major scientific 
achievement.
    The current status of IFE research in the U.S. is dominated by the 
National Ignition Campaign (NIC). The NIC is funded for reasons of 
national security by the Stockpile Stewardship Program under the 
National Nuclear Security Administration (NNSA). In parallel to its 
national security mission, the NIC will be able to address many aspects 
of burning-plasma physics relevant to inertial fusion energy and will 
demonstrate the physics principles of IFE. The NIC involves many 
institutions (LLNL, LLE, LANL, General Atomics and SNL) and major NNSA 
facilities (NIF, OMEGA and Z). Many diagnostics and experimental setups 
are validated on smaller facilities (mostly on OMEGA at the Laboratory 
for Laser Energetics) before installation on the NIF.

         Recommendation: It is crucial to provide adequate funding to 
        the National Ignition Campaign. Achieving thermonuclear 
        ignition in the laboratory is a milestone in the development of 
        science and energy security. This goal should not be undermined 
        by lack of adequate funding.

Demonstration of High Energy Gain: The next step in target physics 
after ignition is the demonstration of high energy gain. For a viable 
IFE power plant, the fusion energy output must greatly exceed the input 
energy to the plasma. Energy gain is the ratio between energy output 
and input. It is unlikely that the NIF will achieve high gains (> 100) 
in the laser indirect-drive configuration.
    The 2009 FESAC report\1\ states that ``Alternative IFE concepts 
[laser direct-drive, fast ignition, heavy ion fusion and others] funded 
through OFES and NNSA have the potential to generate the gains needed 
for IFE.'' Present research in alternative IFE concepts is funded by 
DOE's Office of Fusion Energy Sciences (OFES) and NNSA, with NNSA 
providing limited access to their facilities. Limited access to the 
NNSA facilities constitutes a serious impediment to progress in this 
important area and to the achievement of high energy gains for inertial 
fusion energy. While the NIF is currently configured to fully validate 
the scientific principles of the laser indirect-drive approach, it can 
also test the laser direct-drive approach with very modest changes to 
the existing laser system. The direct-drive approach is simpler since 
the laser directly irradiates the solid pellet. It is also more 
efficient since it eliminates the need for the intermediate process of 
conversion of laser light into x rays.
---------------------------------------------------------------------------
    \1\ Fusion Energy Science Advisory Committee (FESAC), Advancing the 
Science of High Energy Density Laboratory Plasmas, U.S. Department of 
Energy, Office of Science, January 2009.

         Recommendation: OFES and NNSA have already formed a joint 
        program to support high energy-density physics research. This 
        partnership should be strengthened to increase access to NNSA 
        facilities for research in the area of high-gain inertial-
        fusion-energy concepts. Experiments on the NIF should be 
        carried out to demonstrate ignition and energy gain with the 
---------------------------------------------------------------------------
        laser direct-drive approach.

Development of the Technology: Achieving ignition and high gain does 
not imply that economically attractive fusion energy is just around the 
corner. Major technological and engineering challenges will still 
remain even after the demonstration of ignition. The development of a 
viable fusion power plant requires large scientific and financial 
investments. Before launching a major energy development program, it is 
prudent to undertake an assessment of the different driver options. 
This can begin immediately with a small exploratory IFE technology 
program (``small'' here is used for comparison with the ``large'' 
science program of the National Ignition Campaign that received $458M 
in the FY10 Appropriations bill).
    Several drivers have been proposed: solid-state and Krypton-
Fluoride (KrF) lasers, Z pinches and heavy ion beams. The driver 
compresses the pellet and is the most complex and expensive component 
of an IFE power plant. Drivers are part of an integrated system 
including a target chamber, injection systems and other components. 
Drivers must operate with relatively high repetition rates to produce 
enough average power output. Lasers are the most developed drivers. 
Small-scale high-repetition-rate KrF and solid-state lasers have been 
built and operated. Research in target physics for laser drivers is 
also the most advanced. The current experimental campaign will explore 
ignition with lasers implying that the target physics issues will only 
be resolved for laser drivers. Other drivers will likely require longer 
development paths for both the technological development and target 
physics. An exploratory IFE program should be started with the goal of 
assessing and selecting the most attractive driver option in order to 
move quickly towards an expanded energy development program once the 
NIF has completed the ignition campaign and reliably demonstrated 
fusion-energy gains. Such a program should also assess the viability of 
fusion-fission hybrid systems where a blanket of fissionable material 
surrounding the fusion reactor is used to amplify the fusion-energy 
output. Funding for research in IFE technology has been eliminated in 
2009 and no plans are in place to support it in the near future.

         Recommendation: It would be beneficial to immediately initiate 
        an exploratory fusion technology program in parallel to the 
        ignition campaign to assess the viability of the different 
        driver options. If successful, such a program will select the 
        most attractive driver by the completion of the ignition 
        campaign on the NIF.

Status of Inertial Fusion Energy Research and Vision for the Future

    Nuclear fusion powers the sun and other stars. Fusion involves the 
merging (e.g., fusing) of light elements. Harnessing fusion energy has 
been a scientific quest since the 1960s. Inertial and magnetic 
confinement are the main approaches to fusion energy pursued in the 
U.S. Both approaches use a 50-50 mixture of hydrogen isotopes 
(deuterium and tritium). Deuterium is abundant and can be extracted 
easily from sea water. Tritium must be obtained by breeding with 
lithium, and lithium is a readily available light metal.
    Like all advanced energy sources, inertial fusion requires a 
scientific demonstration of viability of the concept and a technology 
program to develop a viable power plant. The path to inertial fusion 
energy (IFE) involves three elements:

        (1)  The demonstration of the physics principles of controlled 
        inertial fusion: thermonuclear ignition and burn of deuterium-
        tritium (DT) fuel

        (2)  The demonstration of high energy gain from DT fuel

        (3)  The development of the technology for an IFE power plant.

1. Demonstrating Controlled Thermonuclear Ignition and Burn

    The demonstration of ignition and burn is the goal of the National 
Ignition Campaign (NIC). The NIC is funded for national security 
reasons by the Stockpile Stewardship Program under the National Nuclear 
Security Administration. The NIC involves many institutions (LLNL, LLE, 
LANL, General Atomics and SNL) and major NNSA facilities (NIF, OMEGA 
and Z). Many diagnostics and experimental setups are validated on 
smaller facilities (mostly on OMEGA at the Laboratory for Laser 
Energetics) before installation on the NIF.

         Finding: The National Ignition Campaign aims at demonstrating 
        ignition and moderate fusion-energy gains in the next few years 
        on the National Ignition Facility (NIF). Preparatory work is 
        under way and the first attempts to ignition are set to begin 
        at the end of FY10 on the NIF.

    Two recent highlights of the National Ignition Campaign are worth 
mentioning.

        (1)  Early experiments on the National Ignition Facility have 
        shown good performance of the NIF laser and good coupling of 
        the laser energy to the target. The NIF has already delivered 
        energies exceeding one megajoule (one megajoule = one million 
        joules) and is on track to proceed with the first attempts to 
        ignition using the indirect drive approach.

        (2)  Using the laser direct-drive approach, recent experiments 
        on OMEGA have achieved world record performance in terms of DT 
        plasma compression and attained the required densities for 
        fusion. It is likely that, within the next few years, OMEGA 
        will also demonstrate the temperatures that will scale to those 
        required for ignition. If successful, OMEGA will validate many 
        of the physics principles of the direct-drive approach (with 
        the exception of ignition and burn).

    The direct-drive approach is a straightforward alternative to 
indirect drive. First, it is simpler since the laser directly 
irradiates the solid pellet and the targets do not require metallic 
enclosures (hohlraums). Second, it is more efficient since it 
eliminates the need for conversion of laser light into x-rays. For 
these reasons, the direct-drive approach offers better prospects for 
energy applications. While the NIF is currently configured to fully 
validate the scientific principles of the laser indirect-drive 
approach, it can also test the laser direct-drive approach with very 
modest upgrades to the laser system.

         Recommendation: The results from OMEGA can and should be used 
        to field experiments on the National Ignition Facility to 
        demonstrate ignition and energy gain with the laser direct-
        drive approach. This is a necessary step that will resolve most 
        of the target physics issues for the direct-drive scheme and 
        will determine if laser direct-drive is a viable option for 
        fusion energy.

    The NIC is currently funded at the level of $458M for FY10. To the 
best of my knowledge, some of the key institutions involved in the NIC 
are operating under very tight budgets. With the first demonstration of 
ignition expected within the next few years, this is not the time to 
underfund the ignition campaign. Even small budget increases could 
significantly improve the prospects for success.

         Recommendation: It is crucial to provide adequate funding to 
        the National Ignition Campaign. Achieving thermonuclear 
        ignition in the laboratory is a milestone in the development of 
        science and energy security. This goal should not be undermined 
        by lack of adequate funding.

2. Demonstrating High Energy Gain

    The next step in target physics after ignition is the demonstration 
of high energy gain. For a viable IFE power plant, the product of the 
efficiency of the driver (the ratio of the ``wall plug'' energy to 
driver energy produced) and the target gain should exceed 10, e.g., a 
10 percent efficient driver requires a gain of 100. The target gain is 
the ratio between the energy output and the energy input on target. It 
is unlikely that the NIF will achieve high gains (> 100) in the laser 
indirect-drive configuration--and so an alternative approach may be 
required. The 2009 FESAC report\2\ states that ``Alternative IFE 
concepts funded through OFES and NNSA have the potential to generate 
the gains needed for IFE . . .. [The] alternative concepts in IFE will 
play a crucial role in the development of inertial fusion energy, since 
high gains and high driver efficiencies are required features of an 
economically viable IFE power plant.'' Present research in alternative 
IFE concepts is mostly funded by DOE's Office of Fusion Energy Sciences 
(OFES) and NNSA, with NNSA providing limited access to their 
facilities. Limited access to the NNSA facilities constitutes a serious 
impediment to progress in this important area and to the achievement of 
high energy gains for inertial fusion energy.
---------------------------------------------------------------------------
    \2\ Fusion Energy Science Advisory Committee (FESAC), Advancing the 
Science of High Energy Density Laboratory Plasmas, US Department of 
Energy, Office of Science, January 2009
---------------------------------------------------------------------------
    There are several options for achieving the gains required for IFE 
using lasers: direct-drive, fast ignition and shock ignition. Heavy ion 
fusion requires a heavy ion accelerator, and Z-pinch fusion requires a 
pulsed-power device.

Heavy ion accelerators are attractive drivers from the standpoint of 
wall-plug efficiency. Recent theoretical work has indicated that heavy-
ion fusion (HIF) could achieve high gains through direct irradiation of 
the target. However, there is little or no experimental work on 
implosion physics with heavy-ion drivers. Since there are not existing 
HIF implosion facilities, it is not possible to easily acquire critical 
experimental data to make a valid assessment of the target physics 
requirements for HIF. An IFE development path for heavy-ion fusion will 
inevitably require both a target physics and a technology development 
program. With little available experimental data on heavy-ion fusion 
implosions and the lack of HIF implosion facilities, it is likely that 
an IFE development path based on heavy ion fusion will be lengthy and 
uncertain.

Z-pinch fusion uses the indirect drive approach and requires high-gain 
targets (gains of 100 or more). Current Z pinches such as the Z-machine 
at Sandia National Laboratory have demonstrated reasonable single-shot 
performance and high x-ray yields. The rate of progress in target 
physics is mostly limited by the low shot rates of large Z pinches. 
Theoretical work indicates that it may be possible to design high yield 
targets that can satisfy the requirements for inertial fusion energy. 
Z-pinch fusion requires driving large currents through massive 
transmission metal lines that are partially destroyed at every shot. 
Since the cost of replacing the transmission lines would exceed the 
value of the fusion-energy output, a Z-pinch based IFE power plant will 
require recycling the large amounts of metal of the transmission lines. 
While some interesting ideas have been put forward to address this 
issue, a technology development path for Z-pinch fusion is highly 
uncertain.

Lasers are the most developed drivers and the target physics for laser 
fusion is the most advanced. Laser drivers are used for direct drive, 
fast ignition and shock ignition. Laser direct drive has been pursued 
in the U.S., Europe and Japan for over 30 years. According to 
theoretical analyses, laser direct drive offers the possibility of 
achieving high energy gains. Since existing laser drivers have poor 
efficiencies, gains in excess of 100 are required for fusion energy. 
The conventional approach to laser direct drive uses a single step with 
a single laser pulse driving the compression and the heating of the 
thermonuclear fuel. This approach is currently under investigation at 
two implosion facilities: the OMEGA laser at the Laboratory for Laser 
Energetics of the University of Rochester, and the GEKKO laser at the 
Institute for Laser Engineering of Osaka University in Japan. Both 
OMEGA and GEKKO use glass laser technology. Until recently, target-
physics studies on laser direct drive were also pursued at the NIKE 
laser facility of the Naval Research Laboratory (NRL). NIKE is a 
Krypton-Fluoride (KrF) gas laser producing laser light with a 
wavelength shorter than the other large glass lasers. KrF lasers are 
more efficient than glass lasers. Their short wavelength light 
efficiently couples the laser energy to the target and allows operation 
at relatively high laser intensities. While short wavelength light 
improves several aspects of the target physics, it poses more severe 
technological constraints on the optical components of the laser 
system. The NRL IFE program did not receive funding in the FY09 Omnibus 
Appropriations bill and its future is uncertain.
    A wealth of experimental data is available on direct drive 
implosions. The data includes surrogate targets (mostly made of plastic 
shells) and cryogenic solid deuterium (D<INF>2</INF>) and deuterium-
tritium (DT) targets. The latter are the targets of most interest to 
inertial fusion energy. To date, cryogenic DT targets have only been 
used for implosion experiments on the OMEGA facility. Recent cryogenic 
implosion experiments on OMEGA have achieved high compression of 
thermonuclear fuel. While the required densities have been achieved, 
further progress needs to be made to raise the temperature (by about 50 
percent-70 percent) and the fusion yield (by about two to four times) 
from the compressed DT fuel. Only when all these requirements (density, 
temperature and fusion yield) are simultaneously met in cryogenic 
implosions on OMEGA, can one achieve a full understanding of the target 
physics and full validation of the predictive capability. Achieving an 
experimental validation of the predictive capability is an important 
requirement for the design of robust high-gain targets. OMEGA is close 
to achieving such an experimental validation (with the exception of the 
validation of ignition and burn physics that requires experiments on 
the NIF).
    Achieving gains in excess of 100 with the conventional approach to 
direct drive requires very large lasers. An IFE laser driver should 
deliver a few megajoules of ultraviolet light to the target at a rate 
of about 10 shots per second. Krypton-Fluoride and advanced solid state 
lasers offer the promise of high efficiency and high repetition rates, 
but even in the most optimistic scenario, a power plant based on the 
conventional direct-drive approach will require large megajoule-class 
lasers and targets with gains above 100. The need for large high-
repetition-rate laser systems is the main difficulty in the development 
of the conventional laser direct-drive approach to inertial fusion 
energy.

Fast ignition is a relatively new concept that separates the 
compression and the heating of the thermonuclear fuel. The compression 
is driven by a conventional system (laser or other driver), and the 
heating is induced by a beam of energetic electrons produced by the 
interaction of a short-pulse ultra-high-intensity laser beam with the 
target. Fast ignition research is actively pursued in the U.S., Europe 
and Japan. Theoretical analyses indicate that fast ignition may lead to 
energy gains well above the gains of conventional direct drive. 
However, such theoretical calculations are incomplete and the physics 
principle concerning the interaction of intense light with matter and 
the transport of energetic electrons in plasmas are poorly understood. 
While fast ignition may require a relatively small compression laser (a 
sub-megajoule laser), it is likely that providing the necessary 
external heating power will involve a large high-power laser (100 
kilojoule petawatt-class laser--one petawatt = 1000 trillion watts). 
Presently, the largest petawatt lasers are the OMEGA EP laser (2.5 
kilojoules) at the Laboratory for Laser Energetics and the FIREX laser 
(10 kilojoules) at Osaka University.
    Since little experimental data on the target physics for fast 
ignition is available, it is difficult to make an assessment on its 
viability as an option for fusion energy. In the past, the lack of 
experimental facilities with a dual integrated laser system (the 
compression and heating lasers working together) has prevented the 
acquisition of the necessary data. However, the U.S. and Japan have 
recently completed the construction of two integrated facilities that 
can explore the fast ignition concept. Such integrated laser systems 
are OMEGA at the Laboratory for Laser Energetics, and FIREX-I at Osaka 
University. A third integrated facility will soon be available at 
Lawrence Livermore National Laboratory. The OMEGA facility includes the 
OMEGA compression laser and the OMEGA-EP high-power laser, the FIREX-I 
facility includes the GEKKO compression laser and the FIREX high-power 
laser, and the NIF will soon include the ARC high-power laser. These 
three facilities have the potential to rapidly advance the target 
physics for fast ignition. The main obstacle to such advances is the 
very limited access granted to fast ignition studies on the U.S. 
integrated facilities OMEGA and NIF. For example, only five days of the 
OMEGA facility were devoted to integrated fast ignition experiments in 
FY09. With such a limited time allocation, it is difficult to make 
meaningful progress in fast ignition. The reason for this limitation is 
that such facilities are funded by NNSA, whose primary mission does not 
include fusion energy development. Inadequate access to the integrated 
NNSA laser facilities is currently the main obstacle to acquiring the 
necessary experimental data required to validate the fast ignition 
scheme. The lack of experimental data on the target physics as well as 
the complexity of the scheme and targets renders highly uncertain the 
development path of fusion energy based on the fast ignition concept.

Shock ignition is a very new concept introduced in 2007. Similarly to 
fast ignition, shock ignition is also a two-step process where a strong 
shock wave is used to heat the thermonuclear fuel previously assembled 
by a compression laser. An advantage of shock ignition is that the 
shock can be launched by the same laser used for the compression, and 
therefore it requires a single laser. Much of the target physics for 
shock ignition is a straightforward extension from laser direct drive. 
However, launching strong shock waves requires relatively high laser 
intensities and there are concerns about the coupling of the laser 
light to the target and other negative effects that occur at high 
intensities. Most of the theoretical work on shock ignition to date 
comes from computer simulations carried out at the Laboratory for Laser 
Energetics, the Naval Research Laboratory, Lawrence Livermore National 
Laboratory and the Centre Lasers Intenses et Applications in Bordeaux 
(France). This work shows that high energy gains may be possible with 
shock ignition using a sub-megajoule driver. Recent experiments on the 
NIKE laser, target design work and computer simulations from NRL have 
indicated that Krypton-Fluoride lasers are particularly suitable for 
shock ignition because they provide a more effective drive for the 
shock and reduce the risks (to the target) of operating at high 
intensities. This interesting research stopped in 2009 when the NRL 
program did not received funding in the FY09 Omnibus Appropriations 
bill. While the simulation results are promising, there is not 
sufficient available experimental data on the target physics to make an 
assessment of shock ignition as a viable scheme for fusion energy. The 
only available implosion data on shock ignition comes from a few 
experiments on the OMEGA laser. Acquiring meaningful experimental data 
requires access to the NNSA laser implosion facilities OMEGA and NIF. 
Like fast ignition, access to these facilities for shock-ignition 
research is very limited. For example, only one day of operation of the 
OMEGA facility was devoted to shock ignition in FY09. Inadequate access 
to the NNSA laser facilities is currently the main obstacle to 
acquiring the necessary experimental data required to validate the 
shock-ignition scheme. Due to the lack of experimental data on the 
target physics, the development path for shock ignition is uncertain.

         Finding: Laser drivers are the most developed drivers for 
        inertial fusion. The target physics for laser direct drive is 
        also the most advanced. Because of the relatively low driver 
        efficiency, laser-based inertial fusion energy requires high 
        gain targets (with gains above 100). Laser direct drive, fast 
        ignition or shock ignition may provide such high gains. A power 
        plant based on conventional direct drive will likely require 
        large and expensive megajoule-class lasers. Fast and shock 
        ignition may require a significantly smaller driver than 
        conventional direct drive. However, little experimental data is 
        available for fast and shock ignition to make a valid 
        assessment of their viability for fusion energy. Heavy-ion 
        drivers are more efficient than lasers but little or no 
        experimental data is available on implosion physics for heavy 
        ion fusion and there are no plans to acquire such data in the 
        near future. Z-pinch fusion uses the indirect-drive approach 
        and requires high gains (about 100 or more). Z-pinch research 
        has made progress in target physics but serious questions 
        remain on the viability of Z pinches as fusion-energy drivers.

    Existing NNSA facilities have the capability of exploring the 
physics principles of direct- and indirect-drive laser fusion, as well 
as fast and shock ignition. Fast and shock ignition research is 
currently funded by the OFES. Access to the NNSA facilities for fast 
and shock-ignition experiments is currently very limited since NNSA's 
mission does not include fusion-energy development. This limited access 
is currently the main obstacle to acquiring the necessary experimental 
data required to validate high-gain IFE concepts.

         Recommendation: OFES and NNSA have already formed a joint 
        program to fund high-energy-density physics research. This 
        partnership should be strengthened to increase access to NNSA 
        facilities for research in the area of high-gain inertial 
        fusion energy concepts.

3. Developing the Technology for Inertial Fusion Energy

    Achieving ignition and high gain does not imply that economically 
attractive fusion energy is just around the corner. Major technological 
and engineering challenges will still remain even after the 
demonstration of ignition. The development of a viable fusion power 
plant requires large scientific and financial investments. Drivers 
compress the pellet and are the most complex and expensive component of 
an IFE power plant. The driver is part of an integrated system 
including a target chamber, injection systems and other components. 
Drivers must operate with relatively high repetition rates to produce 
enough average power output.

        Finding: Several IFE drivers have been proposed: solid state 
        lasers, Krypton-Fluoride lasers, Z pinches and heavy-ion beams. 
        Drivers are part of an integrated system including a target 
        chamber, injection systems and other components. While the 
        technology of some drivers is more advanced than others, none 
        of them offers a development path free of major engineering and 
        technological challenges.

    Therefore, before launching a major energy development program, it 
is prudent to make an assessment of the different driver options. This 
can begin immediately with a small exploratory IFE technology program 
(``small'' here is used for comparison with the ``large'' science 
program of the National Ignition Campaign).
    In the past ten years, the High Average Power Laser Program, funded 
by NNSA under congressional mandate, was engaged in IFE technology 
development for KrF and solid state lasers. This program was not funded 
in the FY09 Omnibus Appropriations bill and no funding is currently 
provided for IFE technology.
    Lasers are the most technically advanced drivers. Small-scale high-
repetition-rate KrF and solid-state lasers have been built and tested. 
Research in target physics for laser drivers is also the most advanced. 
Furthermore, the current experimental campaign will explore ignition 
with lasers implying that all the target physics issues will only be 
resolved for laser drivers. Other drivers will likely require longer 
development paths for both the technological development and the target 
physics. An exploratory IFE program should be started with the goal of 
selecting the most attractive driver option in order to move quickly 
toward an expanded energy development program once the NIF has 
demonstrated ignition and energy gains.
    Because of the engineering and technological difficulties involved 
with fusion energy, it is important to assess/explore all possible 
schemes including fusion-fission hybrids. A fusion-fission hybrid power 
plant consists of a fusion reactor (the ``engine'') surrounded by a 
blanket of fissionable material. This concept has been recently 
promoted by the Lawrence Livermore National Laboratory (LLNL). The 
fissionable material is depleted uranium or spent nuclear fuel, while 
the fusion engine is based on the laser indirect-drive approach. Since 
the fission blanket amplifies the energy output from the fusion engine, 
a relatively low-gain laser indirect-drive (or direct-drive) scheme may 
suffice in its role as neutron source. Advocates argue that the LLNL 
approach to fusion-fission hybrids offers the shortest development path 
for inertial fusion energy since the target physics and the required 
target gains are essentially the same as the ones explored by the NIF 
within the next few years.
    In light of these possible advantages, an exploratory IFE 
technology program should also assess the viability of fusion-fission 
hybrid systems and make a determination on the benefits of such systems 
and the possibility of a shorter development path.

         Recommendation: It would be beneficial to immediately develop 
        an exploratory fusion technology program in parallel to the 
        ignition campaign to assess the viability of the different 
        driver options. If successful, such a program will select the 
        most attractive driver by the completion of the ignition 
        campaign on the NIF.

Additional technical information, findings and recommendations can be 
found in:

        <bullet>  Fusion Energy Science Advisory Committee, Advancing 
        the Science of High Energy Density Laboratory Plasmas, 
        (Chapters 7, 9, 11), U.S. Department of Energy, Office of 
        Science, January 2009.

        <bullet>  Fusion Energy Science Advisory Committee, Review of 
        the Inertial Fusion Energy Program, U.S. Department of Energy, 
        Office of Science, March 2004.

                      Biography for Riccardo Betti
    Dr. Riccardo Betti is currently Professor of Mechanical Engineering 
& Physics and Astronomy at the University of Rochester. He is also 
Director of the Fusion Science Center for Extreme States of Matter, 
Senior Scientist and Assistant Director for Academic Affairs at the 
University of Rochester's Laboratory for Laser Energetics.
    Dr. Betti has conducted research in plasma physics, inertial and 
magnetic confinement fusion for over 20 years. He is Vice-Chairman of 
the Department of Energy Fusion-Energy-Science Advisory Committee 
(FESAC), and Steering Committee Member of the High-Energy-Density 
Science Association. He was Chairman of the Plasma Science Committee of 
the National Academies in 2006-09, and Chairman of the FESAC sub-panel 
on High-Energy-Density Physics in 2008-09. Dr. Betti is a Fellow of the 
American Physical Society for his pioneering work on ablative fluid 
instabilities in inertial confinement fusion and energetic particle 
instabilities in magnetic confinement fusion. He is a recipient of the 
Edward Teller Medal for his seminal contribution to the theory of 
thermonuclear ignition and implosion physics for inertial confinement 
fusion. Dr. Betti received a ``laurea cum laude'' degree in Nuclear 
Engineering from the University of Rome, and a Ph.D. in Nuclear 
Engineering from the Massachusetts Institute of Technology. He has co-
authored over 100 refereed articles in plasma physics, magnetic and 
inertial confinement fusion.

    Chairman Baird. Thank you, Dr. Betti.
    Dr. Fonck.

  STATEMENT OF DR. RAYMOND J. FONCK, PROFESSOR OF ENGINEERING 
            PHYSICS, UNIVERSITY OF WISCONSIN-MADISON

    Dr. Fonck. Mr. Chairman, Ranking Member Inglis and Members 
of the Committee, thank you for the opportunity to testify 
today. I got the instruction from your letter to say what our 
vision for the next 10 to 20 years is, and I thought about it 
and said the biggest vision is: we should not have this hearing 
again in 20 years. We should not be talking about fusion energy 
science; we should be talking at that point about fusion energy 
development, and there is a crucial difference. So to answer 
your question, I will give you an example of a path we could 
take to pursue in the next 10 to 20 years to get in that 
direction.
    In spite of the scientific progress we have made, it is no 
secret there is skepticism on the credibility or timeline of 
fusion energy but much of that can be traced to the fact that 
the full range of technical challenges is not being addressed. 
These challenges are--some of them have been mentioned--
demonstrating and exploring the burning plasma state, creating 
predictable, high-performance continuous plasma, taming the 
plasma material interface and harnessing fusion power from the 
very energetic neutrons released in fusion. Addressing these 
four challenges would provide the knowledge base to establish 
the credibility of fusion as an energy source and motivate a 
decision to establish a fusion energy development program.
    There has been outstanding progress in fusion energy 
science, as has been mentioned here already, under the auspices 
of the Department of Energy. Most of this is focused on the 
properties of the extremely hot fuel or plasma required for 
fusion energy and reactions to occur. But it is very important, 
and it must be emphasized, that fusion science is not just 
plasma physics. The frontiers of fusion science research are 
moving to the critical issues of the last two fusion 
challenges: the plasma-wall interactions and harnessing fusion 
energy. At the same time as these frontiers are moving, our 
experimental facilities are aging. Our leading experiment is 
over 20 years old. The next-generation state-of-the-art 
facilities and capabilities are being developed outside the 
United States. The fact that we have not positioned ourselves 
to lead in addressing the first two challenges because of these 
aging facilities, and that we haven't built anything in 20 
years, puts us in a unique position, however, of being able to 
address more aggressively the last two elements of the fusion 
challenge. An emphasis on the complex processes occurring in 
the plasma material interfaces, their integration with the 
systems with that extract energy from the fusion system and the 
effects of the fast neutrons on those processes, should be the 
focus of the domestic U.S. program in the ITER era. This 
program and ITER together will address most of the critical 
issues underlying the credibility of fusion energy. Just as 
importantly, it starts the United States on the path to benefit 
economically from its long-term investments in fusion science 
research. Indeed, the intellectual property rights that accrue 
from the development of fusion will concentrate in these areas, 
not in the plasma sciences directly.
    So it is time to create a plan to put the U.S. fusion 
program on a trajectory towards leadership in the next 
generation of fusion research. To accommodate realistic 
budgets, specific programs and facilities in our program will 
need to be redirected or completed to free resources for these 
new directions. Domestically, the program should move to 
address the pending nuclear and energy-related issues that 
fusion will present. These scientific challenges will be 
addressed first in small-scale studies, material studies, 
computational modeling, et cetera. But this effort should 
culminate in a national, integrated fusion nuclear science test 
facility as the central fusion facility in the United States. 
It will provide the needed integrated test of our understanding 
of the coupled plasma-wall energy conversion systems. Whatever 
form this facility takes, this centerpiece experiment in the 
United States should be a deuterium-tritium facility to access 
the full range of fusion nuclear issues.
    The transition of the domestic program to an increasingly 
strong focus on fusion nuclear sciences can be executed over 
the next decade or so concurrent with the construction and 
initial operation of ITER. As ITER construction winds down, the 
roll-off of those funds could be applied to this new national 
facility to meet the new challenges. Pursuing this program 
would vault the U.S. program into leadership of critical areas 
of the overall fusion challenge. In the ITER era, the research 
activities on ITER and this U.S. program would arguably define 
the centers of gravity of fusion science and engineering 
development and will expedite the decision whether to develop a 
demonstration fusion reactor either by the U.S. Government or 
industry or some combination thereof.
    So there is a pressing need for plans, A, to evolve--a 
world-leading fusion nuclear science program under realistic 
budgets, and B, to develop the technical case for an evolution 
of the program into a fusion energy development program as soon 
as it can. To support developing those plans, the planning of 
scientific missions and conceptual designs of requisite 
facilities to match those missions should begin immediately. 
Support of H.R. 3177, the Fusion Engineering Science and Fusion 
Energy Planning Act of 2009, would provide funding to start 
this transformation of the program.
    Finally, I just want to comment on inertial fusion, because 
I have been concentrating on magnetic. If its the campaign to 
demonstrate ignition of fusion plasmas via inertial confinement 
in the National Ignition Facility is imminent. The achievement 
of ignition in NIF will be exciting and historic. It will 
rightly demand a reexamination of our national position on 
inertial fusion energy, or IFE. As the ideas and proposals for 
moving forward towards an IFE program evolve after results are 
obtained from NIF, it would be valuable to have a disinterested 
expert panel outside the community evaluate the prospects for 
inertial fusion energy to inform and motivate any decision 
about moving forward to a new inertial fusion energy science 
program.
    Again, thank you for the opportunity to address the 
Committee.
    [The prepared statement of Dr. Fonck follows:]
                 Prepared Statement of Raymond J. Fonck
    Mr. Chairman, Ranking Member Inglis, and Members of the Committee, 
thank you for the opportunity to testify today. In my testimony I will 
try to describe how the U.S. Fusion Energy Sciences program has been 
quite successful, but has been, through historical and artificial 
constraints, unable to address key issues that must be resolved before 
practical fusion energy can be reached. I will also suggest one 
possible path along which these issues can be resolved within a 
reasonable budgetary envelope.
    Research on the properties of high-temperature plasmas, the fuel 
for fusion reactors, has made tremendous strides in the past decades. 
In the future, the scientific frontiers of fusion will increasingly 
move to the complex interactions among the cooler plasma edge, the 
materials of the surrounding chamber, and energy extraction systems, 
and the role of neutrons in modifying those interactions. To address 
these critical issues and motivate a future fusion energy development 
program, it is time to start building a fusion nuclear science program 
in the fusion R&D portfolio. It will start with modest activities in 
materials and related research, and should have a longer-term goal of 
deploying a new national fusion nuclear science research facility as 
the centerpiece of the U.S. domestic experimental effort in magnetic 
fusion in the ITER era. The transition to these new efforts will be 
gradual and must be funded during ITER construction in large part by 
completing existing programs. Strategic plans for the evolving program 
need to be developed. In addition, the anticipated success of the 
ignition campaign on NIF should motivate an examination of proposals 
for a new program in inertial fusion energy science and/or engineering. 
Support of H.R. 3177, the Fusion Engineering Science and Fusion Energy 
Planning Act of 2009, would provide funding to assist the start of 
necessary transformations in the program.

Progress in Plasma Sciences Motivates a New Phase of Fusion Research

    Fusion is the nuclear process that produces energy in the interior 
of the sun and stars. Developing fusion power in the laboratory truly 
means capturing the power of the sun here on Earth, and is a grand 
challenge of science and technology. The path to producing useful 
energy through the fusion process here on Earth is complex, and the 
quest is not complete.
    With readily available fuel and significant environmental 
advantages, fusion energy is a candidate for significant carbon-free, 
base-load energy production in the second half of this century. 
However, major new energy technologies can require decades to strongly 
penetrate the market after introduction. To offer the possibility of 
fusion power in a useful timeframe, we need to move as quickly as we 
can now to exploit and complement the advances in fusion energy R&D 
that are expected in the next decade or more.
    Historic achievements have been made and others are eagerly 
anticipated in the world of fusion energy sciences research. Past 
demonstrations of 10-20 MW of fusion power production in the TFTR (in 
the U.S.) and JET (in the E.U.) experiments confirmed the promise of 
magnetic confinement of fusion plasmas in the 1990's. The U.S. 
subsequently entered the ITER project to allow U.S. scientists to 
explore magnetically confined burning plasmas. A burning plasma exists 
when the power released by the fusion nuclear reactions is roughly 5-10 
times larger than the power injected to sustain the fusion process. All 
of those experiments are based on the tokamak concept, which is a type 
of donut-shaped magnetic bottle that holds the hot fusion fuel away 
from any material walls.
    In addition to the magnetic confinement approach with tokamaks, the 
demonstration of ignition in inertially driven fusion targets in the 
National Ignition Facility is planned for the near future. This relies 
on powerful lasers to compress solid fusion fuel pellets to heat them 
to fusion temperatures and create a very short, powerful release of 
fusion energy.
    There has been outstanding progress in fusion energy science 
research under the auspices of the Department of Energy Office of 
Science programs. Most of this has focused on the properties of the 
extremely hot fuel, or plasma, required for fusion reactions to occur. 
Our understanding of the extraordinarily complex problem of small-scale 
plasma fluctuations that lead to increased heat losses, and hence 
inhibit the ability to achieve the fusion state, has evolved to the 
point where these fluctuations can often times be suppressed. This 
leads to increasing plasma temperatures and fusion power. The 
understanding and predictability of fusion-grade plasmas have been 
refined to the point that the plasmas can be actively controlled to 
avoid damaging large-scale instabilities. Techniques to heat and 
manipulate these plasmas to finely tailor the plasma state and thereby 
optimize the potential to produce fusion reactions are being 
successfully developed. Similar progress has been made in understanding 
inertially confined plasmas in defense-related DOE programs. With all 
of these accomplishments in plasma sciences and supporting 
technologies, we are resolving some of the major plasma physics issues 
in the overall challenge of establishing the base for fusion energy.
    These developments represent the culmination of decades of research 
in high temperature plasma sciences, and motivate us to confront the 
additional challenges remaining to making the case for fusion energy. 
Hence, it is indeed timely to consider ``The next generation of Fusion 
research,'' and it is time to start broadening the scope of the 
programs to expedite decisions on a commitment to fusion energy 
development.

Broadening the Fusion Research Portfolio to Enable a Future Energy 
                    Development Program

    The DOE fusion science programs have, somewhat of necessity and 
somewhat due to artificial constraints, concentrated on studying many 
of the relevant plasma science questions that arise in moving towards 
fusion energy conditions. However, the fusion challenge is much broader 
than high temperature plasma science and its attendant enabling 
technologies. The development of the knowledge base for fusion energy 
requires a variety of topics to be addressed, including basic high 
temperature plasma science, measurement sciences, materials, the 
effects of nuclear interactions, and the engineering technology 
challenges of capturing and converting fusion energy. In fact, the full 
range of issues is well known, and only a fraction of them are 
addressed in the present program.
    The research and development needed to establish the foundation for 
fusion energy development were identified in plans for fusion energy 
research in the 1970's, acknowledged in repeated reviews and planning 
documents since then, and most recently restated by a major Fusion 
Energy Sciences Advisory Committee study that was charged to identify 
the gaps in our knowledge that remain, assuming successful completion 
of the ITER burning plasma program. While the details vary, the general 
issues identified through the years have not changed, mainly because 
they are driven by the physical challenges of attaining and exploiting 
the fusion state.
    From the most recent assessment of fusion, the fusion R&D 
enterprise must at least address the following four challenges.

FUSION CHALLENGES:

        <bullet>  Demonstrating and exploring the burning plasma state

                  Creating and controlling a fusion plasma that 
                releases several 100 MW of energy, and understanding 
                the effects of very energetic fusion-created particles, 
                is a grand challenge of fusion science research.

        <bullet>  Creating predictable, high-performance, steady-state 
        plasmas

                  A continuously burning plasma that behaves 
                predictably and is highly efficient is needed for 
                economical fusion reactors

        <bullet>  Taming the plasma-material interface

                  Magnetic confinement sharply reduces the contact 
                between the plasma and the containment vessel walls, 
                but such contact cannot be entirely eliminated. 
                Advanced wall materials and magnetic field structures 
                that can prevent both wall erosion and plasma 
                contamination are required.

        <bullet>  Harnessing Fusion Power

                  Fusion energy from deuterium-tritium (D-T) reactions 
                appears in the form of very energetic neutrons. The 
                understanding of the effects of these neutrons on the 
                surrounding materials and the fusion plasma, and the 
                means of capturing this energy, while simultaneously 
                breeding the tritium atoms needed to maintain the 
                reaction, must be developed.

    The first two challenges are addressed by research focused on 
understanding the high-temperature plasma properties in the hot central 
core region of these magnetically confined plasmas. This research has 
been very successful, and will remain a vibrant field well into the 
future.
    However, the scientific frontiers of fusion are inexorably moving 
to examine the critical issues of the plasma interactions with the 
material chamber, and methods of extracting the energy from the fusion 
process. These topics are the focus of the last two challenges. For 
example, it is now clear that the processes in the edge plasma region, 
where the hot plasma interacts with the surrounding material chamber, 
profoundly influence the overall behavior of the plasma in the central 
hot region. The processes that occur in the plasma-chamber-energy 
conversion systems increase in number and complexity in the presence of 
a high-energy neutron flux, where the properties of the materials and 
their interactions with the plasma edge, can be significantly altered. 
This interacting plasma-chamber-energy conversion system will 
eventually need to be examined in integrated tests. This will encompass 
the entire fusion system, and complement the burning plasma studies to 
address all four fusion challenges.
    It is no secret that there is skepticism on the credibility or 
timeline of fusion as an energy source, and much of it can be traced to 
the fact that this full range of challenges is not being addressed. 
Nevertheless, in those areas that have been addressed in detail (mainly 
concerning 1 and 2 above), the progress has been steady, impressive, 
and acknowledged. Outside evaluations of the science developed by the 
fusion research program have affirmed the high quality and integrity of 
that scientific enterprise. However, few resources have been focused on 
addressing the last two fusion challenges listed above, and hence 
progress there has been slow, which in turn undermines the argument for 
accelerating the development of fusion energy.
    With the entry into the era of burning and ignited plasmas, it is 
time to broaden the fusion research enterprise to address, at 
appropriate levels, the full range of fusion challenges. ITER will 
provide us unique tests of the physics of the high-temperature core of 
a fusion system and some reactor-relevant technology. An emphasis on 
the complex processes occurring in the plasma-material interfaces, 
their integration with the systems that extract energy from the fusion 
system, and the effects of neutrons on those processes, should be the 
focus of the domestic U.S. program in the ITER era. These two efforts 
together will address most of the critical issues underlying the 
credibility of fusion energy. This will then provide the government and 
industry the information needed to decide any future commitment to 
fusion energy development as soon as possible.
    Most present fusion-energy related research is in the portfolio of 
the Office of Fusion Energy Sciences in the Office of Science of DOE, 
and is concentrated on the magnetic confinement approach. It is 
establishing the scientific basis for fusion energy, but it is natural 
to expect that at some time in the future this program will evolve to a 
dedicated fusion energy development program, either inside or 
presumably outside of the Office of Science. This evolution will occur 
as the credibility of fusion energy is established through focused 
research activities that address in part all of the fusion challenges 
above. Continuing basic science studies to support this focused energy 
development program would continue in the Office, similar to other 
programs there. Indeed, this is precisely what the National Academics 
recent Decadal Study for Plasma Physics suggested will be the natural 
evolution of this program.
    A major challenge of the present fusion research program is to 
establish the credibility of fusion energy to expedite this transition 
to an energy development program. To that end, DOE and the research 
community soon need to develop a long-range strategy to both justify 
and smoothly effect this transition towards an energy development 
program, assuming success in the present science program. Moving in 
this direction can be done within reasonable funding levels and will 
attract a new generation of researchers.

BROADENING THE FUSION PORTFOLIO IN THE NEAR-TERM

    While one can anticipate the future fusion energy development 
program, the ability to move the present fusion science program forward 
within realistic budget constraints is hampered by both externally and 
internally imposed constraints.
    The program is strongly focused on the underlying plasma science of 
the fusion plasma core. It does not address the rich array of 
scientific and engineering challenges that arise in the entire fusion 
system, and that must be addressed in the quest to demonstrate the 
viability of fusion power. Practically, this resulted from an external 
constraint on the program that there could be little research into the 
engineering sciences, material sciences, and technologies relevant to 
fusion energy until the whole range of underlying plasma physics issues 
is addressed.
    While this constraint may have reflected priority setting in a 
resource-limited program and been used as a means of restraining the 
appetite for significantly increased budgets without clear priority 
setting, it is increasingly anachronistic. Without removing this 
constraint, we will miss the opportunity to develop the knowledge and 
skills in precisely those areas of the fusion problem that will lead to 
economic advantages from our long investments in fusion research. In 
considering the next phase of fusion research, I assume that this 
constraint is lifted and the Office of Fusion Energy Sciences will be 
free to allocate resources across the relevant broad range of issues to 
optimize the path to a fusion energy development program within 
available resources.
    The fusion research community imposes another constraint on itself 
by seeing its resources as locked and concluding that there is little 
opportunity to move forward to new frontiers, which often means new 
facilities to access new physical states. This sense of insurmountable 
limits arises from real constraints on the amount of funding available, 
but also from an unwillingness to acknowledge clearly focused goals and 
make hard priority choices to achieve those goals.
    This can be addressed by developing a plan for fusion R&D in the 
next decade and beyond that makes the hard choices needed to regain 
U.S. leadership in selected areas that focus on the credibility and 
eventual economic exploitation of fusion as an energy source. In 
particular, an eight- to ten-year plan that includes a growing activity 
in the critical fusion nuclear science and engineering issues that are 
relevant to exploitation of the energy-producing plasma should be 
developed and pursued. The goal of this plan would be to move smoothly 
over the next decade during ITER construction to include in the U.S. 
fusion program a world-leading fusion nuclear science program, with 
access to the requisite tools and resources to address the critical 
issues during the ITER era.
    As mentioned above, the U.S. fusion science research program is 
addressing mainly the first two of the four main fusion challenges. 
However, the next-generation, state-of-the-art facilities and 
capabilities to address both of these challenges are being developed 
and located outside the U.S. The burning plasma program is now centered 
on ITER in France, and the large major tokamaks that are cited as 
necessary for ITER preparation and operation are located in the EU and 
Japan. Likewise, tokamaks with superconducting coils and world-class 
stellarator experiments will lead the research to resolve the issues 
inherent in steady-state plasma operations. The new superconducting 
tokamaks are located in China, South Korea, and Japan, while the large 
stellarator experiments reside in Germany and Japan. U.S. scientists, 
using older facilities, have certainly made seminal contributions to 
these various concepts--indeed, some of these facilities have benefited 
directly from U.S. developments. However, it is inevitable that 
research on these new facilities will guide fusion energy science 
developments in these areas in the future. Hopefully, our scientists 
will collaborate on these international facilities, but the net 
consequence is that the U.S. is off-shoring its ability to lead in the 
first two of the four challenges of fusion energy development.
    This, however, puts the U.S. community in the position of being 
able to address more aggressively the last two elements of the fusion 
challenge. In particular, we have a unique opportunity to pursue world 
leadership in the new frontiers of fusion: plasma-wall interactions, 
materials, and harnessing fusion energy. These areas cover the problems 
inherent in handling, capturing, and converting fusion neutrons and 
heat created by the fusing plasma to useful power. The problems 
include: plasma, atomic, molecular, and nuclear physics; material 
sciences; neutron sciences; and associated engineering challenges. 
Starting to move the U.S. program in the direction of addressing these 
integrated problems complements the planned research on ITER and 
directly confronts major points of criticism of fusion power. Most 
importantly, it starts to position the U.S. to benefit economically 
from its long-term investments in fusion science research. Indeed, the 
intellectual property rights that accrue from fusion development will 
concentrate in these areas, since the plasma science knowledge to 
address the first two elements is openly developed and available.

A CONSTRAINED, AGGRESSIVE FUSION ENERGY RESEARCH PLAN

    A fusion program with a properly expanded scope to include a 
growing focus on the underlying nuclear and energy science issues can 
be readily envisioned. One such scenario is outlined here, but it is 
only conceptual. Wide variations of this approach could emerge as 
planning goes forward. In any case, it must be constrained to realistic 
budgets, include milestone commitments, and contain sometimes-painful 
priority decisions.
    I assume that the ITER construction will be supported, and U.S. 
domestic research funds will include the present level, with inflation 
escalation, and any increases that the program can successfully compete 
for as the Office of Science budget increases though pursuit of the 
goals of the America COMPETES Act. This funding profile will require 
that specific programs and facilities in the U.S. program be completed 
to provide resources for new directions of research.
    The central activities addressing the first two elements of the 
fusion challenge will migrate to collaborative research on 
international facilities. That is, the research addressing the burning 
plasma and steady-state issues for fusion plasmas will be pursued 
overseas, and major U.S. facilities will be transitioned out as their 
programs are completed. As the new superconducting and steady-state 
plasma facilities come into full operation overseas, collaborative 
agreements will need to be developed or expanded to provide our 
scientists access to those capabilities that are not available in the 
U.S. Participation in ITER burning plasma studies will eventually 
require the development of a U.S. ITER science team. This team could 
also execute that collaborative research on other state-of-the-art 
tokamaks in anticipation of the ITER collaborations.
    The stellarator (mentioned earlier) is a magnetic confinement 
concept that is similar to the tokamak but in a sense offers simpler 
plasma properties at the expense of more complex mechanical systems. It 
may provide a potential breakout concept for a fusion reactor concept, 
and international collaboration is also critical here. However, there 
may be a world-leading role for the US to pursue modest facilities to 
resolve critical issues. The domestic program in the U.S. should retain 
a viable research activity in this area to support informed decisions 
on future reactor concepts.
    Domestically, the U.S. fusion science program should now begin to 
address the pending nuclear and energy-related issues that fusion will 
present. The scientific challenges of plasma-wall interactions can be 
addressed initially in present tokamaks, move to dedicated test stands 
to understand underlying physics, and eventually be a focus in the 
first phases of a central U.S. facility dedicated to fusion nuclear 
science issues. The fusion nuclear science program should ramp up over 
time to at least include: elemental material science studies and 
development of materials conducive to deployment in the fusion 
environment; materials tests using fission reactor irradiation; a 
materials test station to allow initial tests of small materials 
samples under intense energetic neutron bombardment; small-scale 
supporting test facilities as needed; and computational modeling of the 
integrated fusion system.
    This effort should culminate in a national integrated fusion 
nuclear science test facility as the central fusion experimental 
facility in the U.S. It will provide the needed integrated tests and 
development of our understanding of the coupled plasma-wall-energy 
conversion systems. While the actual form that the fusion nuclear 
science test facility takes will depend on detailed development of its 
mission requirements and comparison of competing concepts, this next 
major confinement experiment in the U.S. should be a DT (deuterium-
tritium) facility to access the full range of fusion nuclear issues. 
Such a facility would likely attract a substantial investment from 
other countries should the U.S. seek to lead this effort and pursue 
such partnerships. A phased development of the capabilities of this 
experiment will restrain costs and coincidently mitigate the impacts of 
our off-shoring our abilities to address the first two fusion 
challenges above.
    The transition of the domestic program elements from the present 
configuration to one including the second two fusion challenges is 
required. It is important to recognize that this transition will take 
time, both to bring existing activities to successful closure and 
transition people and resources to new directions. Generally, the 
transition can be executed over the next decade or so, concurrent with 
the construction and initial operation of ITER.
    As the ITER construction winds down, those roll-off funds should be 
applied to the new national facility to meet the challenges I have 
mentioned above. Some augmentation of those funds will be required to 
support a full DT implementation, but foreign collaborations might be 
solicited to help make up this gap.
    To prepare moving in this direction, the planning of scientific 
programs and conceptual designs of requisite facilities to match chosen 
scientific missions must begin immediately. These will inform decisions 
needed in a few years. In the meantime, the near-term activities of the 
program will center on completing missions for existing facilities and 
programs as needed to begin a wedge of growth of a Fusion Nuclear 
Science Program component to the U.S. fusion program. There is 
especially an immediate need for initiating related materials research 
and developing trained fusion engineering science personnel.
    Executing this transition of the program, and eventually deploying 
an integrated fusion nuclear science experiment, would vault the U.S. 
program into leadership of critical areas of the overall fusion 
challenge. In the ITER era, the research activities on ITER and this 
U.S. program would arguably define the centers of gravity of fusion 
science and engineering development, and will expedite the decision on 
proceeding to the development of a demonstration fusion reactor, 
whether by the U.S. Government, industry, or some combination thereof.
    There are substantial risks to pursuing this program, and they must 
be recognized and managed. There is a real potential for loss of 
expertise and momentum as major U.S. facilities roll off and 
international collaboration becomes the norm for access to leadership-
class facilities. If all or almost all of the major confinement 
experiments in the U.S. were terminated well before a new national 
experiment was initiated, there would likely be a loss of specialized 
machine designers. This in turn would make it increasingly difficult to 
start world-class programs in the U.S. as the international community 
moves forward. This has already happened in individual laboratories in 
the fusion community.
    There is the danger of loss of interest by new young scientists 
without world-class U.S. facilities while waiting for a new national 
facility. There will inevitably be displacement of personnel, and long-
term planning and scheduling will be required so that scientists and 
engineers know what is coming and can adjust accordingly. These changes 
will not necessarily be welcomed by the research community because they 
will almost inevitably include some reduction of the activities 
presently being pursued, and everyone can legitimately claim there is 
much more to do in any given area. Indeed, an additional risk is that 
many underlying science issues will receive less emphasis than may be 
called for. Finally, there is the risk that collaborations with U.S. 
scientists may be seen to be less valuable to foreign hosts when the 
U.S. has a decreasing number of world-class facilities and likely some 
declining domestic research capabilities.
    These are serious consequences to a vital research program, and 
they are not suggested casually. They follow directly from the funding 
levels expected for the program and the scientific demands of the 
fusion enterprise. The program could be fatally damaged if these 
transitions are not managed adroitly.
    However, there are corresponding risks to not evolving from the 
present program while our international partners and competitors 
aggressively advance their programs. We will either further, or 
possibly indefinitely, delay a decision on developing fusion energy. We 
would not be competitive as fusion energy and it commercial 
applications are developed elsewhere.
    Thus, the program must focus and move forward to make the case for 
a breakout into a fusion energy development program as soon as it can. 
To that end, it may be useful to develop a technical contract among the 
fusion research community and DOE managers to define what minimal 
knowledge base is needed to establish the credibility of fusion and 
then confront the question of whether society wants to make the next 
level of investment for the development of commercial fusion energy. 
This contract should reflect the views of energy policy professionals 
on the criteria for the credibility of fusion as an energy source.

A COMMENT ON INERTIAL FUSION ENERGY RESEARCH

    This discussion has focused on the direction of the magnetic 
confinement fusion research, given its prominence in the present OFES 
program. As mentioned earlier, the campaign to demonstrate ignition of 
fusion plasmas via inertial confinement with laser compression of solid 
fuel pellets on the National Ignition Facility is imminent. At present, 
there is no established program in the U.S. with a focus on developing 
the science and technology of inertial fusion energy (IFE). There is a 
modest research program in the related area of High Energy Density 
Physics, but it is quite broad and addresses some points of interest to 
IFE.
    The achievement of ignition in NIF will be exciting and historic. 
It will rightly demand a reassessment of our national position on IFE. 
When ignition is demonstrated, there naturally will be increased 
interest in this approach to fusion production as an energy source. 
However, the challenges expected to move from this accomplishment to an 
energy source are as at least comparable to those in the magnetic 
fusion approach. While first concentrating on increasing the fusion 
gain to levels of interest to energy production, the issues of target 
development, laser development, and fusion chamber development will 
rise in interest. In addition, many of the materials and nuclear 
science issues to be addressed in the proposed fusion nuclear science 
program are common to both approaches to fusion energy.
    As the ideas for moving forward towards an IFE program evolve after 
data is obtained from NIF, it would be valuable to have a disinterested 
expert panel evaluate the prospects and requirements for inertial 
fusion energy to inform any decision to embark on an inertial fusion 
science program or an inertial fusion energy development program.

SUMMARY

    Significant progress in fusion science has been made in the past 
decade, and a solid scientific basis now exists to plan towards a 
fusion energy mission. The recognition that magnetic fusion energy 
research is at a mature stage for exploring burning plasmas and the 
expected achievement of high fusion gain in NIF for inertial fusion 
energy presage new eras for fusion research and development.
    There is a pressing need to broaden the range of fusion research in 
the U.S. to prepare to explore the new frontier of fusion science, 
i.e., the integrated plasma-chamber-energy conversion system. To 
address this issue and position the U.S. as a world-leading source of 
expertise in the developing and harnessing of fusion power in the post-
ITER era, it is timely to begin building a fusion nuclear science 
program. This will complement the advances made in magnetic confinement 
plasma sciences. It will start with modest activities in materials 
research and development of a new cadre of fusion engineers, and 
progress to the deployment of a new national fusion science research 
facility as the cornerstone of the U.S. fusion experimental effort in 
magnetic fusion.
    The transition to these new efforts should be gradual and supported 
during ITER construction in large part by completing existing programs 
and out-sourcing many of our near-term activities to new facilities and 
programs presently being developed in partner states. Strategic plans 
should be developed to map the next decade or more to point to the 
initiation of a national fusion nuclear science test facility and to 
map the present fusion science program to a future fusion energy 
development program, with priority given to expediting that transition. 
This will necessarily be a very focused program, and hence contain 
risks of disrupting the existing infrastructure and missing other 
profitable avenues of research and development.
    The highly anticipated success of the ignition campaign on NIF will 
rightly increase interest in evaluating the potential of inertially 
confined plasmas for energy applications, and should motivate a high-
level review of proposals for a new program in IFE science and/or 
engineering.
    Finally, support of the H.R. 3177, the Fusion Engineering Science 
and Fusion Energy Planning Act of 2009, would provide a modest level of 
funding to start this transformation in the program.

                     Biography for Raymond J. Fonck
    Raymond John Fonck is a professor in the Department of Engineering 
Physics and the Steenbock Professor in the Physical Sciences at the 
University of Wisconsin-Madison. He received his Ph.D. in Physics from 
the University of Wisconsin-Madison in 1978 (atomic physics and laser 
spectroscopy). He has been involved in fusion energy science research 
for almost 30 years in the university and at national laboratories. He 
has also been involved in fusion science research policy, serving in 
several capacities for national advisory committees and for committees 
of the National Academies of Sciences and Engineering. He recently 
served as Associate Director of the DOE Office of Science for Fusion 
Energy Sciences.
    Specifically, he was at the Princeton University Plasma Physics 
Laboratory from 1978 through 1989, where he was Deputy Head of the PBX-
M Tokamak project and head of the spectroscopy group on the TFTR 
experimental team. He joined the Department of Nuclear Engineering and 
Engineering Physics at Wisconsin in 1989. He headed the Pegasus 
Toroidal Experiment and directed collaborative experiments on the DIII-
D National Fusion Facility. He is a Fellow of the American Physical 
Society (APS), and served as President of the University Fusion 
Association for 1999-2000. He was chair of the Organizing Committee for 
the 2002 APS Topical Conference on High Temperature Plasma Diagnostics, 
and has served on APS Division of Plasma Physics organizing committees. 
He has served as a member of the Executive Committee of the Division of 
Plasma Physics. He has been a member of several Program Advisory 
Committees for large fusion science experiments, and is presently Chair 
of the Fusion Simulation Program Advisory Committee. He served on the 
Fusion Energy Sciences Advisory Committee sub-panel for U.S. 
participation in ITER. He also was a member on the Fusion Science 
Assessment Committee of the National Academies' National Research 
Council (NRC), and was co-chair of the NRC Burning Plasma Assessment 
Committee. He was a member of the NRC Board on Physics and Astronomy 
from 2003 to 2007, and was appointed a National Associate of the 
National Research Council of the National Academies in 2008. He 
presently is a member of the Fusion Advisory Board of the United 
Kingdom. Recently, he served as Associate Director of the Fusion Energy 
Sciences Program of the U.S. Department of Energy Office of Science. In 
that role, he led the fusion science program as it moves to exploring 
the burning plasma regime in the ITER international experiment. The 
program also supports investigations of magnetically confined plasmas, 
basic plasma science, high energy density laboratory physics, and 
fusion engineering sciences. Prior to his appointment to DOE, he was 
serving as the Director of the U.S. Burning Plasma Organization and 
Chief Scientist of the ITER Project Office. His research has been in 
experimental studies of high-pressure plasmas in toroidal geometries, 
plasma turbulence, and high-temperature plasma diagnostic development. 
He was awarded the 1999 APS Award for Excellence in Plasma Physics 
Research for his work on measurements of turbulence in high temperature 
plasmas. He was also awarded the Fusion Power Associates 2004 Fusion 
Leadership Award. He is the author of over 180 articles in publications 
on plasma turbulence, plasma confinement and stability, atomic physics, 
applied optics, and plasma measurement techniques.

                               Discussion

    Chairman Baird. I thank all the panelists for not only your 
testimony today but for your very distinguished careers and 
your service to our country as scientists, and I want to ask a 
number of questions and will recognize myself for five minutes 
to do so.
    I want to put my questions into context. The context is 
known, and I often mention it regardless of the topic of this 
hearing, but it is worth putting forward. The hearing is in the 
context of a time when our country faces an $11 trillion debt, 
a $1.4 trillion deficit over the last fiscal year. That is our 
fiscal situation. Our energy situation is that we, if as I 
believe the evidence is compelling that we face global 
overheating and acidification of our oceans, the pace at which 
we need to make significant cuts in CO<INF>2</INF> and other 
greenhouse gases is much more rapid than any of the proposals 
currently moving through the Congress, and I think more 
ambitious than any of the proposals in terms of our reduction 
of greenhouse gases. That puts a budgetary constraint and a 
timeline constraint, and so with that as context, let me ask a 
series of questions so I can understand the sort of timeframe 
we are dealing with.

              How Fusion Energy Becomes a Usable Resource

    Just first of all, how--when we speak of ignition, which I 
understand is when more energy is put out than put in, in 
layman's terms, what is the longest period of ignition achieved 
so far in any of our modalities in terms of time, how much 
time?
    Dr. Synakowski. Today actually no plasma has ignited. We 
have had plasmas with controlled fusion reactions. An analog I 
like to use is that it has been like burning wet wood. We have 
created a fire, we have controlled the fire, when we take away 
the external flame, the fire goes out.
    Chairman Baird. Okay. Let us suppose we achieve ignition, 
so the challenge, I think once ignition is achieved--this is 
not an easy thing and you folks have dedicated your careers as 
brilliant as you are to this, and many others before you and I 
am sure after. So once we--if and when we actually achieve 
ignition, that is a eureka moment in a way but it is not like 
all our problems are solved because now we have got more energy 
coming out. The challenge is capturing that energy. You have 
got to somehow capture it. My understanding is that, and 
correct me if I am wrong, and this is not meant in any way 
pejoratively, but basically the way we are going to actually 
capture that energy is the good old-fashioned way of making 
water hot and turning turbines. Is that the model we are doing? 
And it is really great that we are still doing steam engines. I 
just love this. I don't mean that critically but it just kind 
of blows your mind that we are going to all this trouble to 
heat water up.
    Dr. Synakowski. It is a remarkable thing to go from E = 
MC<SUP>2</SUP> to boiling water in a turbine. That is 
essentially the train you are talking about.
    Chairman Baird. So it is really important for this 
committee and I think for Americans and taxpayers to understand 
that just because we get ignition doesn't mean we can now 
expect that oh, then next week we are going to turn the lights 
on with energy produced by fusion energy, right? We have got to 
somehow then find a way to actually harness that energy, and 
the current model is again through steam-driven turbines, 
right? Is that--Dr. Betti?
    Dr. Betti. Yes, but there are two aspects. Ignition will 
prove the physics of fusion. Making energy after ignition 
requires the development of the technology, and often the 
development of the technology is faster than development of the 
physics. So that is why it is so hard, because we haven't 
proved the physics yet, and then we count on the technology to 
move a lot faster and turn the physics success into making 
electricity.
    Chairman Baird. But there are some real challenges there, 
in terms of----
    Dr. Betti. Major challenges.
    Chairman Baird. The material science of what kind of 
material can contain these reactions and sustain the 
bombardment of the neutrons, et cetera, right? And then so we 
have got some challenges ahead. Dr. Prager.
    Dr. Prager. I think you are exactly correct, and a lot of 
the suggestions you have been hearing from the panel members 
get exactly at the questions you are pointing out need to be 
resolved. How one harnesses the fusion power is sometimes the 
expression used. So there are ideas to set up a research 
program to deal exactly with that question in addition to the 
remaining physics questions.

              Potential Consumer Prices for Fusion Energy

    Chairman Baird. Then there is the next question. Okay, so 
let us suppose theoretically we can do it. We have solved the 
physics problem. We demonstrate that ignition is possible. We 
contain it with magnetic fields. We heat the water up. Then 
there is this little nagging problem of cost per kilowatt-hour. 
This seems to be a bit of a challenge. Any thoughts about cost 
per kilowatt-hour?
    Dr. Mason. I don't want to offer up a number but I would 
sort of characterize it a little bit in the sense that with 
fusion the--you know, no one is talking about electricity too 
cheap to meter. I think everyone has learned the lesson that 
you shouldn't confuse fuel cost with what things actually cost. 
Fusion will be a fuel source that is dominated by capital costs 
because there is no ongoing substantial fuel cost, and of 
course, capital costs have to do with financing models and 
lifetimes and things that go well beyond the realm of physics 
and engineering. But if you look at the scale of plants that 
are being contemplated and the complexity of them, I would say 
it is not fundamentally different than the kind of cost model 
you see associated with fission. And what we have seen is that 
fission power is actually very cost-competitive, but because of 
the large upfront capital costs, it is difficult for risk 
markets to handle, and that is why things like the loan 
guarantee programs and so forth are very important. And so I 
think with the right sort of policy framework, it can be very 
cost-competitive, understanding that things like the programs 
that are in place now that are hopefully going to get us going 
with new starts in fission are likely models that would have to 
be explored, particularly at the outset when the risk is much 
higher.

            Fusion as an Alternative to Other Energy Sources

    Chairman Baird. Which leads to the question, you know, for 
me one of the challenges we face is, we have this imminent 
problem of global overheating and ocean acidification. We have 
this tremendous budget debt and deficit right now, and we have 
alternative technologies that today you can buy off the shelf 
that produce net energy output with the existing fusion energy 
thing called the sun at a known kilowatt-per-hour generation 
that if you invest, you know, with money being both finite and 
fungible, if we invest X amount of dollars now, we can lower 
our carbon output, et cetera. And so I think it is just really 
important for us to understand the win of this. So I have been 
talking costs and how and stuff. The win seems to me to be a 
good bit down the road. By win, when I say win, we could 
actually generate significant replacement of existing energy 
sources. I would be shocked if any of you would say less than 
20 years and I guess it is more like 50. I may be wrong.
    Dr. Mason. I alluded to this a bit when I talked about the 
portfolio of energy choices, and I would kind of divide it into 
three categories. In the very near-term, the most fruitful 
sorts of investments we can make are in energy efficiency. 
There are a lot of things that we know how to do that can 
immediately reduce demand, and the cheapest form of energy is 
the energy you don't need. In fact, most of the energy 
efficiency steps which represent about a third of what you need 
to achieve the types of CO<INF>2</INF> emissions that people 
are talking about cost you a negative amount of money. In other 
words, you save money by doing it. And so there is no question 
in the very near-term that is the low-hanging fruit that we 
need to go after aggressively. Things like renewables, wind and 
solar are--we know we can make them work but they are not yet 
cost-effective, although there are a lot of promising research 
directions that will improve that. And scaling up will bring 
down the cost. But these are intermittent, and so certainly 
when the sun is shining and the wind is blowing, we will want 
to be harnessing that energy and the environmental benefit that 
goes with it, but it is not a baseload generating capacity. We 
do need baseload capacity that we know will be on when people 
switch on the light switch and will allow us to buffer the 
intermittent renewables, and fusion has the possibility to 
offer a baseload generating capacity that does not have a fuel 
constraint. Right now most of our baseload capacity comes from 
coal, and in terms of timeline and risk, I would say our 
chances of being able to sequester CO<INF>2</INF> from coal-
fired plants at the scale we need to is not greatly different 
from the challenge we face in fusion.
    Chairman Baird. I don't dispute that.
    Dr. Mason. And we can't be sure that either one will work.
    Chairman Baird. I think that is a good point.
    My time is up, past up, but I wanted to establish that line 
of evidence and questioning, and Mr. Inglis is recognized for 
five minutes.
    Mr. Inglis. Thank you, Mr. Chairman.

                Arguments for Promoting Fusion Research

    I wonder if others on the panel agree with Dr. Mason's 
assessment, that fusion is in the league of fission in terms of 
the capital costs and the involvement that we would have. Do 
you agree with that, Dr. Prager?
    Dr. Prager. Yes, I would. One of the guiding principles, 
almost too much so, of the fusion program over the decades has 
been economic attractiveness. It has guided the kinds of 
plasmas we try to produce and has set goals for us, and 
throughout the years there have been many, many system studies 
of fusion systems in the future that as best can be done assess 
the cost, and the cost of electricity comes out to be 
competitive. There is a big ``however.'' Those studies assume 
certain success in physics and technology so assuming that the 
physics and the technology research missions are accomplished, 
then they calculate that the costs are competitive. So I think 
what Dr. Mason says has been backed up by studies, and another 
caveat is of course when you try to project the cost of 
anything several decades into the future, it is fairly 
theoretical.
    Mr. Inglis. Does anybody else want to comment about that, 
about equivalency between the--are we in the ballpark of a 
fission kind of investment when we go to fusion if we make 
electricity that way?
    Dr. Fonck. I will just back up what Dr. Prager said. There 
have been a lot of studies, and the answer is generally yes, 
these are large power plants. These are multi-gigawatt power 
plants typically to get the most efficiency out, and so you are 
in that ballpark in terms of the scale of the plant. Of course, 
the issues are different. Fission and fusion are quite 
different so the radioactive materials and the things you have 
to worry about are quite different, but the magnitude of the 
plant is about the same.
    Mr. Inglis. Let me make sure I understand that. What is the 
difference in terms of radioactivity in that?
    Dr. Fonck. Well, fusion works with just deuterium and 
tritium. Tritium is just a gaseous fuel. There is not a lot in 
the plant and the radioactive waste you produce in fusion is 
mainly the structure that holds the plasma. There is no long-
term highly radioactive waste that you get in a fission plant. 
Now, the fission people have ways to, if we ever get there, to 
transmute those wastes. But at the moment you are looking at 
very long-term, hundreds of thousands of years kinds of waste. 
Fusion doesn't have that. It has essentially a short-lived, 
hundreds of years, waste issue. You can imagine that, in a 
generation or two, it would decay away. And so it is a 
different radioactive profile. And that is one of the big 
advantages of fusion.
    Mr. Inglis. What are the other advantages? Why should the 
United States pursue fusion?
    Dr. Fonck. I will throw in a few, and I am sure everybody 
else has their favorite. Well, there is one. The other of 
course is the ready availability of fuel. It is right out of 
seawater. All you need is deuterium and lithium. Lithium breeds 
the tritium. There is no danger of catastrophic failure of a 
fusion plant. The plasma state is essentially quite fragile. If 
anything happens, you get a leak in the chamber or something 
like that, the system just extinguishes itself. So it is quite 
safe, passively safe, if you will. The other thing of course is 
that it can be anywhere. It is a baseload energy source. I 
think to back up what Dr. Mason said, if you look into the 
future, not myself but energy experts, you only see two or 
three baseload possibilities in the future and it is fusion, 
fission, if you want to be carbon-free, of course, and possibly 
solar with storage, but that is a very hard proposition.
    Mr. Inglis. Anybody else want to add a reason to pursue 
fusion?
    Dr. Betti. I concur with my colleagues on both issues. In 
relation to your question, yes, fusion is clean and the fuel is 
basically unlimited. In the case of deuterium-tritium fuel is 
only limited by the supply of lithium. Of course, deuterium is 
abundant in seawater and it is unlimited. On the issue of cost, 
there have been several studies both about magnetic fusion 
energy power plants and inertial fusion energy. There have more 
studies on magnetic side than inertial side. The United States 
had a program until last year, the High Average Power Lasers 
Program, that were developing the technology of an inertial 
fusion energy- based power plant and so they were doing 
technology development, the cost estimates of this sort. To the 
best of my knowledge, the cost is competitive with fission-
based nuclear power.
    Dr. Mason. I would offer as an attribute of fusion that I 
think we in the United States should find attractive, the 
comment that I made about, you know, we talked about the fuel 
but another way to look at the fuel for fusion is that it is 
intellectual property and high-end manufacturing. The fuel is 
not something that you import from the Middle East. It is not 
something that you run out of and it is actually the essence of 
what our economy is built around, which is smart people and 
competitive industry, and so not only as a domestic supply of 
energy but as a possibly significant export market. If we can 
position our industry to lead in this field, there would be, I 
think, economic value for the United States.
    Dr. Prager. Just getting into maybe a softer reason, since 
the fuel comes from the ocean's water and that should be 
accessible to all nations and you might speculate that the 
conflict over natural resources for energy between nations 
would be decreased with fusion driving the energy sector. So 
that is another reason. I mean, it is interesting, when most of 
us entered the field, what drew us in in terms of the 
application was that we were running out of energy. In the 
1970s we were running out of energy, there were gas lines, an 
energy crisis, and now perhaps really what drives it, the 
dominant reason probably is no contribution to global climate 
change. So fusion somehow is almost the ideal and the 
dominating reason maybe just changes with the times as the 
problems that we confront become more clear.
    Mr. Inglis. Thank you.
    Thank you, Mr. Chairman.
    Chairman Baird. Dr. Ehlers.

    National Security and Technical Elements of Plasmas in Reactors

    Mr. Ehlers. Thank you, Mr. Chairman. Unfortunately, all the 
good questions have been asked already. But let me add one 
other item to our list, Dr. Prager, and that is national 
security. We are treading very tenderly in some treacherous 
waters with our current energy policies, and I really suspect 
that far too many people who should know that don't know it, 
and I am not just talking about gas lines, I am talking about 
the whip that other nations can hold over our nation just 
because we do not have the energy resources that we would like 
to have, and it continues to concern me. There are endless 
conversations that I get into both inside and outside the 
Congress. People say oh, well, you know, we have these new 
sources of natural gas, and in Pennsylvania we can get this new 
gas, we are all set for years and years and years. Yes, we are 
set for years but not years and years. And this inability to 
deal with reality is just fascinating to me. People just assume 
that somehow the scientists, the physicists, the engineers will 
find a way out of these shortages. And I have taken the 
opposite point of view. I have often said that natural gas is 
too valuable to burn. It is an incredibly useful feedstock for 
the petrochemical industry. I don't know of anything that is 
going to be as easy and cheap to use, and we are burning it. So 
there is a multitude of issues here, not just energy issues but 
resource issues, security issues, et cetera, and I don't think 
that we as a Nation are confronting them as adequately as we 
should. Having said that, I do wonder--I am just asking 
questions, things that I really haven't kept up with the field 
at all. How are we going to contain the plasmas and how easy or 
how difficult is that going to be to actually extract useful 
energy out of a fusion reactor? And I know it depends on the 
different types of reactors but can one or more of you just 
give me a quick summary of where you see this field going?
    Dr. Synakowski. That is a great and deep question. I think 
we have many elements of the solutions to both questions in 
hand, a much more mature understanding with respect to how are 
we going to contain the plasma and control it. There has been 
tremendous progress since actually the late 1960s, when there 
was a transformative event in the invention of the tokamak, 
which is a kind of magnetic bottle, if you will. It's twirly 
shaped. Just a little bit of science here. The plasma, if you 
can imagine a donut-shaped magnetic field, this is the heart of 
magnetic fusion with the plasma which is charged particles, 
ions and electrons. They do a very good job of moving along the 
magnetic field lines but have a very tough time crossing the 
magnetic field lines. But there are lots of subsidiary 
processes that go on in the plasma that can force the plasma, 
the hot fuel to make that migration across the magnetic field. 
What you are trying to do with that magnetic field is confine 
it for long enough so that you can heat it rapidly to get up to 
fusion conditions where the plasma pressure is such that the 
fusion between the nuclei takes place.
    What has happened as the United States has really turned 
towards the science of the plasma I think has been a tremendous 
set of advances in understanding the basic physics of how the 
plasma is confined in this magnetic bottle, and what levers we 
can apply to the plasma to optimize that confinement. And I 
want to make two points. One, this is a very deep intellectual 
exercise, which is I think worthy of investment to obtain U.S. 
capital. These are great scientific challenges but they are not 
empty challenges, they are the best kind. They are the ones 
that are directed towards a purpose because the answers that we 
are finding with respect to the science, for example, of 
optimizing the confinement in this magnetic field, enables one 
perhaps to make a fusion reactor smaller which enables then for 
the vision of a fusion reactor to be more economically 
attractive. The science is intimately linked to the final 
product and so I think for those who are interested more 
directly in the final product, it is a compelling enterprise. 
The United States aesthetic I think has been extremely strong 
in terms of understanding that plasma science. It has been 
emphasized here though we think a major frontier resides in 
crossing that bridge from that magnetic bottle to boiling the 
water and generating the steam, and that is the material 
science question and the challenge of harnessing a fusion 
power.
    And just as a footnote to all of this, a significant 
alternate approach that has been mentioned, especially by Dr. 
Betti, is that of inertial fusion. It is a fundamentally 
different process where you take a small pellet of fusion fuel. 
There are no magnetic fields in most versions of the vision. 
And you compress it very suddenly on relying on the inertia of 
the fuel itself to kind of tame itself long enough for the 
fusion to take place. But external to that, the transition to 
the fusion power and getting the power on the grid looks quite 
similar. Both of them again represent very deep scientific 
challenges but again I think they are the best kind of 
scientific challenges because they have direct bearing on the 
output and the attractiveness.
    Mr. Ehlers. Thank you.
    Dr. Mason. I could maybe add a little bit about the 
materials because I think that is a very important aspect is 
how you transition from the environment where fusion is 
happening, whatever form of containment you have and the 
environment where you are, you know, holding a vacuum and 
boiling water and so forth. It is a very challenging materials 
problem that falls into the general category that we like to 
refer to as materials under extreme conditions, and fusion is 
perhaps the most extreme of extreme conditions in terms of the 
temperatures, the radiation damage that the material is 
subjected to, the presence of hydrogen and the effect that it 
can have on materials. My background is materials science, so 
while I can't say too much in depth about fusion, in terms of 
materials, these are difficult problems, and they are a 
different sort of problem than some of the areas that we focus 
on right now. We at Oak Ridge and around the world are very 
excited about nanotechnology and things we can do with that and 
thin films for photovoltaics. The materials we are talking 
about here are different types of steel. It is the materials of 
heavy industry, and to be honest, the development of new steels 
is not something that as a nation we have been doing a lot of 
in recent times. In fact, you know, many of the materials we 
have now were developed decades or even in some cases centuries 
ago. They have served us very well, but they don't necessarily 
have the characteristics to survive under the conditions that 
we need, and that is why many of us have talked about the need 
to look at these materials issues, even as we resolve the 
remaining physics questions of the plasma, and many of those 
materials issues are the same whether it is inertial or 
magnetic confinement. In some cases, they may even be the same 
or similar to those faced by fast reactors that might be used 
in closing the fuel cycle. It is maybe not as sexy as 
nanoscience but getting better alloys is an important part of 
this equation.
    Mr. Ehlers. Thank you very much. I would like to move on.
    Chairman Baird. I know Dr. Fonck and others want to add but 
I want to recognize Dr. Bartlett for his line of questions.

                    Fusion vs. Wind and Solar Energy

    Mr. Bartlett. Thank you very much. Whether or not we are 
successful in getting fusion power, and I am skeptical, I am 
still enormously supportive of this work because I think that 
we may find a lot of very other interesting things as we pursue 
this leading edge of scientific inquiries.
    Dr. Mason, you mentioned efficiency as a major interest. I 
would like to suggest that before efficiency we can get huge 
gains from conservation. Conversation is two people getting in 
a car instead of one. Efficiency is getting in a Prius instead 
of an SUV. And we have enormous opportunities for gains in 
conservation, which could be immediate and free, really, really 
simple. You know, we have a huge reactor in the sun and I know 
that we disparage the use of solar and wind as baseload but I 
think it would be less technically challenging to make that 
baseload than it would be to produce fusion power. Wherever you 
have a topography difference, doesn't pump storage work very 
well for storing the excess energy you have when the wind is 
blowing and the sun is shining? And I suspect that creating 
huge banks of capacitors or enormous flywheels would be 
technically easier to do than trying to do what we are doing 
with fusion. By the way, I am a huge supporter. If the 
capability were out there, two and three times the amount of 
money that we appropriate for that, I would be happy to 
recommend that to the appropriators. But aren't there enormous 
opportunities for making solar and wind baseload?
    Dr. Mason. Energy storage has huge leverage. If we could 
store even a small fraction of the grid for 24 hours, it 
would----
    Mr. Bartlett. You can store it all in pump storage, sir. 
Just pump it up to the mountain and a lake up there and then 
run it down when the sun is not shining, wind is not blowing 
through a turbine. It is really simple.
    Dr. Mason. And in fact, in Tennessee TVA has something 
called Raccoon Mountain where they do exactly that, so it does 
work, but if you look at the capacity and efficiency of it, it 
is hard to see it scaling to the level that we would need. Now, 
if you push renewables as we should, you can probably get up to 
about 20 percent and still handle the intermittency. And you 
could push that farther if you had better energy storage, 
whether it is electrical energy storage in the form of 
batteries or compressed air. So I think there is tremendous 
leverage in storage. It is an area we should be and are 
investigating. But on grid scales, I believe it is a very 
challenging problem, and it is one that is maybe not quite as 
difficult as fusion but it is in the same league.

                      Electrifying Transportation

    Mr. Bartlett. Dr. Betti, you mentioned something else that 
I think most people don't understand. You said that we should 
be electrifying our transportation, and you know, we use two 
kinds of energy. One is electrical energy, and I think the 
future for electrical energy is okay with nuclear, whether it 
is fission or fusion, with wind, with solar, with microhydro, 
for which there is considerable potential, and for true 
geothermal where we are tapping into the molten core of the 
Earth, I think that we can make about as much electricity as we 
ought to be using. But it is not true for liquid fuels because 
there is just no combination of substitutes out there for 
liquid fuels, and when gas and oil and coal are gone, and they 
will be, we are going to be living on electrical energy and so 
I think that too few appreciate the concern that you have that 
we need to be electrifying transportation because that is one 
essential use of liquid fuels. Some of the use of liquid fuels 
we can use electricity for, but for that one now, it is tough. 
We just tore up all our streetcars. We were proud that we were 
doing away with these antique things and we tore them all up. 
Now we need to be putting them back. Thank you for your 
recognition that we need to be doing that.
    I welcome a second line of questioning, Mr. Chairman. I 
yield back.
    Chairman Baird. Thank you, Dr. Bartlett. It looks like we 
are all going to probably not be able to do the second line 
with the votes being called, so I recognize Dr. Rohrabacher--
Mr. Rohrabacher.
    Mr. Rohrabacher. Dr. Rohrabacher. That was quite a----
    Chairman Baird. It is a frightening thought.

                          Skeptical Arguments

    Mr. Rohrabacher. Let me just note, Mr. Chairman, that we 
heard that before back in the 1970s. We saw the gas lines and 
we were told that there was an imminent situation where there 
would be this massive shortage of energy and that was proven 
false, and now we are using an excuse of greenhouse gases which 
will cause global warming as an excuse to move forward on 
certain things, and quite frankly, none of the predictions of 
those people who have been advocating global warming have come 
true. In the last nine years there has been cooling, and in 
fact, there are now reports that the polar ice cap, the one 
pole or the other--the Antarctic was never contracting but the 
polar ice caps are now expanding. So this idea of greenhouse 
gases causing global warming is the basis of a lot of things 
but I would not use it if I was in the scientific community as 
an excuse for moving forward with fusion energy research 
because that I think is becoming something that again is 
another theory that will be proven false and it is being proven 
false by the way the world is acting.
    When I was a young child, and I was actually in I think 
fifth or sixth grade, I saw a wonderful movie about fusion 
energy, and Mr. Science, I don't know if you remember those 
things, it was wonderful, and fusion energy was the energy of 
the future, and you know what? I am 62 years old now and I take 
it from what you have told us today that we haven't even had 
ignition yet after all of these years of research, and my 
calculation is that we have had $40 billion worth of research 
and we don't have ignition yet. Dr. Bartlett's observation is 
that research money--there is limited research money in this 
country--might well be put to better use in finding out how we 
can utilize the heat from the core of the Earth or the pumping 
technologies.
    Mr. Bartlett. I want to do both.
    Mr. Rohrabacher. Both. I do too. But we have limited 
research dollars. Why is it that fusion after all of these 
years and all of this money and with so little actual progress, 
meaning we haven't even had ignition yet, even for a second, I 
believe, why should we continue? Why shouldn't we transfer this 
money to some of these other technologies that perhaps would be 
cheaper? And one last thought, Mr. Chairman, and that is--and 
then I would like the panel to go to that question--and that 
is, I do believe that we should have at least one skeptic on 
the panel for every subject that we look at, and it is okay, I 
mean, all of you gentlemen have incredible credentials, a lot 
more than I do, that is for sure. But some of the issues that I 
am raising should be raised by people who have got Ph.D.s in 
this and be able to have a dialogue so that we will have 
something to decide here on the panel rather than just 
accepting one point of view.
    I have made a couple points. Please feel free. I know you 
have got some things to counter there.\1\
---------------------------------------------------------------------------
    \1\ See response from Dr. Prager in Appendix.
---------------------------------------------------------------------------
    Dr. Synakowski. If I may, I think there are probably many 
facets that people might comment on. I think--actually I have a 
view that the urgent things and the opportunity we have is in 
fact to address the questions of credibility that you raise. 
Our science basis is such that I believe we have good 
confidence in what is required of our next step to get to the 
stage of what we call burning plasmas in magnetic fusion. I 
think that is what you are referring to when you are talking 
about ignition, where we are getting more energy out than we 
are putting in to heat it and control it. I think our 
understanding, the scientific basis for getting there is quite 
strong. And we understand it, and I will oversimplify it a 
little bit by saying it is a question of scale. We understand 
that the present devices that we have invested in are not 
appropriately scaled and don't have the control technologies 
that we need to reach the scientific regime that you are 
talking about. Having said that, in the early part of, I think 
it was in 2001, there was a technical assessment of several 
options in magnetic fusion that we could pursue to 
understanding this burning plasma state.
    Also with respect to credibility, I think if you burrow 
down one more level, you get to the question that people had 
been raising here, and that is the question of materials and 
harnessing these fusion plasmas. I would be delighted, I would 
view it as a major accomplishment collectively in our careers 
to be able to point quite definitively to the answers to your 
questions demonstrably. I believe the scientific understanding 
is strong, that we have a confident and strong bridge to the 
demonstrations that you are talking about. Understand also that 
publicly there are many who desire exactly the sort of thing 
that you are talking about. I think we are in reach of doing 
that.
    Mr. Rohrabacher. Well, I have supported nanotechnology and 
these things, and I do support them, but they take research 
money, and we have had $40 billion eaten up for fusion that 
perhaps had we put into nanotechnology or some of the other 
more that we have some actually demonstrations of progress, 
perhaps some of the other issues you are dealing with would 
have been solved.
    Chairman Baird. My colleagues, we now have about eight and 
a half minutes left to vote, and what I would like to do is, I 
think rather than asking these gentlemen to wait 40-plus 
minutes while we go vote and come back and sometimes don't come 
back, what I would like to do is close, but Dr. Bartlett had 
some questions earlier that I know folks wanted to respond to. 
I would invite the witnesses, if you have additional responses, 
I know there some eyebrows raised about whether $40 billion is 
the correct number that has been spent, please feel free to 
give us some written comment.\2\
---------------------------------------------------------------------------
    \2\ See response from Dr. Prager in Appendix.
---------------------------------------------------------------------------

           A Federal Agency Home for Inertial Fusion Research

    I would just like to close with two questions. I want to 
make sure we get one issue on the record real quickly. My 
understanding is that the inertial fusion energy effort is, I 
am not sure the proper way to say it but does not necessarily 
have an official home within either NNSA or the Office of 
Science Research, and I am wondering is that is something we 
ought to consider addressing. I will give you a couple minutes. 
We are down to about seven minutes to get over to the vote. So 
any brief comments. Dr. Betti, you are in charge of that 
operation.
    Mr. Betti. Yes. So first I should just really briefly 
mention the fact that the physics principles of inertial fusion 
energy, what we call ignition, has actually already been 
demonstrated because that is how hydrogen bombs work. Okay. The 
problem is that to trigger ignition in hydrogen bombs----
    Chairman Baird. It is a hell of a way to heat your house.
    Dr. Betti. We use an atomic bomb. No, but this is 
important. We use an atomic bomb. So what we are trying to do 
is to replace the atomic bombs with a driver, a laser, okay, 
but the physics principles have been demonstrated. What hasn't 
been demonstrated is that we can reproduce this in a 
laboratory. So that is an important distinction. In terms of 
the inertial fusion not having a home, inertial fusion energy 
doesn't have a home. Inertial fusion does have a home in NNSA 
for weapons----
    Chairman Baird. Good point.
    Dr. Betti. Okay. So it is very important, I think, and very 
cost-effective to use the facilities that have already been 
built by the National Nuclear Security Administration for 
billions of dollars that are already there including the 
National Ignition Facility or mega laser and so on. We can use 
this to study the energy applications of inertial fusion and so 
that is why I think it is critical to have a home for fusion 
energy, inertial fusion energy, and use these facilities. We 
don't need a lot more facilities.
    Chairman Baird. So you have got the physical home in terms 
of the infrastructure.
    Dr. Betti. The infrastructure.
    Chairman Baird. Bureaucratically, where should the home be, 
NNSA or DOE, or both?

         Fusion as an Unacceptable Substitute for Conservation

    Dr. Betti. Well, I mean, this is really not really for me 
to answer the question. I mean, I would think that the fusion 
energy development program should be within the Office of 
Fusion Energy Sciences but that is my personal preference.
    Chairman Baird. Let me ask one last question and my 
colleagues are ready to go, quick question. If anybody were to 
say hey, we don't need to conserve--I want to really put the 
punctuation point on Dr. Bartlett's. If someone were to suggest 
we don't need to engage in conservation or renewable energy 
development because we have got fusion right around the corner, 
anybody agree with that at all?
    Dr. Mason. I think this is not an either/or. We absolutely 
have to conserve and do energy efficiency, but we should not 
fool ourselves to think that that by itself will get us----
    Chairman Baird. I get that, but it would be foolish to say 
that fusion is right is around the corner, it is going to solve 
all our energy needs. Mr. Davis is here. I am going to 
actually--very quick question. My colleagues are free to head 
out. But if you have other questions to ask, we will not be 
returning for this panel.
    Mr. Davis. Just a comment and question, and Dr. Mason, I 
will probably converse with you later today about the question 
I am going to ask. There is a great deal of excitement about 
when the solar and other renewables being discussed now, if in 
fact as some believe that will supply our energy needs, why do 
we bother with fusion at all?
    Dr. Mason. I think that the challenge is that in order to 
get to the sort of goals that I think we a nation have in terms 
of energy independence and emissions, we are going to need 
renewables, we are going to need storage, we are going to need 
baseload carbon-free generating capacity as well. And so we 
should certainly be using renewables as much and as quickly as 
we can, but they will not scale to meet all of our needs, and 
that is where a clean baseload generating capacity like fusion 
has the potential to be very valuable as part of our longer-
term R&D portfolio, not to say that we shouldn't be pushing as 
hard as we can and as fast as we can on the things that we can 
do easily and quickly, like energy efficiency.
    Mr. Davis. We get roughly 20 percent from fission nuclear 
energy today. What would be a--what would you see as a possible 
projection from fusion, nuclear fusion and the research we are 
doing?
    Dr. Mason. Fusion can play exactly the sort of role in our 
electric grid that fission plays today and in fact in the end 
fission has a fuel supply need, so in the very long-term 
fission would be probably superseded by fusion.

                                Closing

    Chairman Baird. Dr. Ehlers had a final comment.
    Mr. Ehlers. I want to thank you for holding the hearing. It 
has been very, very useful to me, but I also want to 
congratulate you and the panel. I think this is the first 
hearing we have had on fusion that didn't result in questions 
about cold fusion. So we did have a little bit of disagreement 
about climate change but maybe we are making progress here. 
Thank you very much.
    Chairman Baird. I want to echo Dr. Ehlers' comments. The 
frankness and honesty about both the potential and the 
limitations and the challenges have been very refreshing and 
much appreciated by myself and I think by my colleagues as 
well.
    I again, thank the witnesses for their time and for their 
many years of service, and we look forward to continuing the 
dialogue. If you have additional comments, the record will 
remain open for two weeks to offer those, and with that, the 
hearing stands adjourned. Thank you very much.
    [Whereupon, at 11:26 a.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

Responses by Dr. Edmund J. Synakowski, Associate Director for 
        Fusion Energy Sciences, Office of Science, U.S. 
        Department of Energy

Questions submitted by Chairman Brian Baird

Trade-offs on building a new large U.S. facility

Q1. LAmong the three major magnetic fusion facilities in the 
U.S., the youngest has operated for 10 years and the oldest for 
about 25 years. At the same time we have heard testimony from 
several of the witnesses for this hearing on the need for a new 
large fusion facility in the U.S., parallel to ITER, that can 
operate in a nuclear. environment for advanced materials 
research. ITER is not designed to fully address this research 
area, and you note that it would be critical for a future 
fusion power plant. Do you envision. closing down any or all of 
the major facilities we have today to achieve these new 
capabilities within a realistic budget scenario?

A1. The programs carried out at the existing major facilities 
are vigorous and strong; but, like all of our programs, they 
are always being evaluated in the context of the evolving needs 
of our national program. It is essential that the U.S. assert 
leadership in the fusion sciences where we can make fusion 
energy 'a reality as soon as possible. We have a clear 
understanding of the science and technology issues that must be 
resolved. So, upgrade, redirection, or orderly closeout of any 
element of our program are always options in maintaining the 
research portfolio necessary to make fusion energy a reality as 
soon as possible.

Q2. LDo you see a point of diminishing returns for any of these 
current facilities on the horizon?

A2. The intellectual return on research performed on the major 
U.S. facilities is strong and puts the U.S. in a leadership 
position in many aspects of the fusion sciences. We will, 
however, continue to monitor these facilities as we go forward 
and, as the global fusion research landscape evolves, we will 
continue to assess their suitability for continuing to 
contribute significantly to fusion energy research.

Inertial fusion energy

Q3. LRight now DOE's National Nuclear Security Administration 
(NNSA) stewards all of this country's major inertial fusion 
facilities for stockpile stewardship purposes, and your program 
within the DOE. Office of Science supports basic science on 
high energy density plasmas which may be relevant to inertial 
fusion energy. Still, there is no bureaucratic home in the 
Federal Government for inertial fusion research specifically 
for the purposes of producing energy. Should DOE wait until NIF 
achieves ignition to formulate a strategy to address this, or 
would it be wiser to have worked out a comprehensive plan and 
to have formally initiated a small, early-stage inertial fusion 
technology program ahead of such an event in order to 
immediately address the research opportunities it provides?

A3. It is reasonable and prudent to explore how inertial fusion 
energy research might be most effectively managed ahead of NIF 
ignition. While the details of such a plan will depend in 
significant part on the results obtained on the path to 
ignition, an in-depth strategic analysis of the challenges and 
potential of an IFE program would be helpful.
    As presently configured, the respective SC and NNSA fusion 
offices have different technical strengths and different 
missions. Each, however, would play a significant role in IFE 
research.
    It has been recently proposed that the National Academies 
undertake a study regarding the path forward for IFE in the 
event of NIF ignition. Such a study should highlight many of 
the science and technology issues that need to be addressed for 
an IFE program to succeed. This study, and our ongoing 
experience in SC/NNSA joint management of the high energy 
density laboratory plasma science program will help inform any 
future discussions and decisions regarding governance of a 
broader IFE science and technology mission.

Q4. LShould the Office of Science or NNSA have the lead role in 
advancing this technology for energy?

A4. Both offices have expertise and resources needed to give 
inertial fusion energy the best chances of success. The 
advisability and governance of a possible future single program 
are policy issues that need to be assessed and determined going 
forward.

Q5. LIn view of the additional mission built into NNSA's 
authorizing legislation ``to support United States leadership 
in science and technology,'' would it be more appropriate for 
that agency to continue stewarding advanced technologies that 
spin out of its weapons program, even if the final application 
is energy-related rather than weapons-related?

A5. The production of ignition will itself be a preeminent 
demonstration of U.S. leadership in fusion science and 
technology. Whether NNSA continues to steward advanced 
technologies that are spin-offs from the weapons program is a 
policy decision that needs to be fully considered and 
determined in the future. The National Academies study noted 
above should provide an initial framework for serious 
discussion?

Q6. LRecently, in the Conference Report for the Energy and 
Water Development Appropriations Act, 2010, DOE was directed to 
review an inertial fusion energy research project at the Naval 
Research Laboratory and report on its findings within 60 days. 
The Conference Report also states: ``The conferees encourage 
the Secretary to explore all possible opportunities to ensure 
that this program, which offers unique potential for long-term 
energy independence, is not abandoned for lack of a 
bureaucratic home.'' Please describe the Department of Energy's 
plans for this program, and what the impact to inertial fusion 
energy research would be if this program were officially 
terminated?

A6. A proposal for performing some of the Naval Research 
Laboratory work was received in the fall. It was peer reviewed 
in a process managed by my office. The proposal for funding was 
declined based on this review. The Department of Energy is 
currently analyzing the challenges and potential of an inertial 
fusion energy program. A proposed National Academies study 
should highlight the science and technology issues that need to 
be addressed for a successful IFE program.

Small fusion experiments

Q7. LYour office manages an ``Innovative Confinement Concepts'' 
program that is essentially a collection of small facilities at 
universities as well as national laboratories. These facilities 
can be grouped into several smaller categories including: basic 
science, support of major facilities, and alternative fusion 
concepts of varying stages of development. Should all of these 
facilities continue to be lumped into a single grant 
competition within the Fusion Energy Sciences (FES) program 
every few years when their applications can be so different? 
Should these facilities be more explicitly aligned with FES's 
other more clearly defined subprograms in the budget .process 
as appropriate?

A7. As the new Associate Director for the Fusion Energy 
Sciences program, I am taking a fresh look at all of our 
programs, how they align with our overall mission, and how 
proposals are solicited for the Innovative Confinement Concepts 
(ICC) subprogram. As an important step, a recent ICC 
solicitation issued by my office makes a shift compared to past 
ICC calls. The current solicitation calls for proposals that 
have demonstrable connections to the science of burning plasmas 
in the laboratory, or that can enable this science to advance. 
This is appropriate as we enter the burning plasma era. I am 
fully committed to nurturing this scale of experiment so that 
it has maximum scientific impact both for fusion in particular 
and for the plasma and material sciences more generally. Our 
Office also understands the inherent benefits of this scale of 
research to students in building strong direct experiences with 
experimental fusion and plasma science.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

                        Additional Testimony by
                         Dr. Stewart C. Prager
             Director, Princeton Plasma Physics Laboratory
    At the fusion energy hearing on October 29, 2009 Congressman 
Rohrabacher raised three important issues that I wish to address 
briefly.
    First, Congressman Rohrabacher stated that the fusion energy 
program has over the years acquired $40B in federal funding. This 
statement is incorrect. The total funding provided for fusion energy in 
the U.S. since 1953 is $11.5B (as spent) or $16.9B (inflation-adjusted) 
[source: S. Dean, Fusion Power Associates]. Current annual funding for 
fusion energy of $0.42B is close to, but slightly above the historical 
average.
    Second, Congressman Rohrabacher asserted that there has been little 
progress in fusion energy. My response is confined to magnetic fusion 
energy. By any measure, the progress in fusion energy has been 
quantitatively enormous. Over the past thirty years, the fusion power 
produced in experiments has increased by a factor of 10 million, from 
0.1 Watts produced for one-thousandth of a second around 1970 to 15 
million Watts produced for seconds currently (see attached graph). 
Essentially every relevant scientific measure of progress, such as the 
fusion gain, has experienced an equally steady and steep advance. We 
routinely produce 100 million degree plasmas, and control them with 
unanticipated precision. Underlying this demonstrable and quantitative 
progress is the development of a new field of science--plasma physics. 
Fusion energy has both required and driven the development of plasma 
physics, which has had huge scientific and practical consequences 
beyond fusion--from understanding the cosmos to fabricating computer 
chips.
    Third, Congressman Rohrabacher noted that despite large funding, we 
have not yet achieved ignition. For magnetic fusion energy, the 
approximate equivalent of ignition is attainment of a burning plasma. A 
burning plasma is self-heated by the fusion power itself. ITER will 
achieve this goal, as well as continue the advance of fusion power by 
producing 500 million Watts of fusion power for long periods of time. 
But, an historical note is also important here. About 20 years ago, the 
U.S. fusion community proposed an experiment called BPX (the Burning 
Plasma Experiment). BPX was endorsed by the DOE Fusion Policy Advisory 
Committee, which recommended construction. It was not funded. About 10 
years ago, the community produced a design called FIRE, a modern 
experimental design for a burning plasma. Its mission and feasibility 
were affirmed by the DOE Fusion Energy Sciences Advisory Committee. It 
was not funded. Finally, ITER is funded to achieve this long-proposed 
goal. Had any of these earlier proposals been realized, we would now be 
studying burning plasmas. The scientific knowledge has existed for some 
time to achieve this milestone.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
